<html>
<title> - SUPPORTING CHILDREN AND FAMILIES THROUGH INVESTMENTS IN HIGH-QUALITY EARLY EDUCATION</title>
<body><pre>[Senate Hearing 113-672]
[From the U.S. Government Publishing Office]



                                                      S. Hrg. 113-672
 
                   SUPPORTING CHILDREN AND FAMILIES THROUGH 
                   INVESTMENTS IN HIGH-QUALITY EARLY EDUCATION

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING SUPPORTING CHILDREN AND FAMILIES THROUGH INVESTMENTS IN HIGH-
                        QUALITY EARLY EDUCATION

                               __________

                            FEBRUARY 6, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      

                        U.S. GOVERNMENT PUBLISHING OFFICE
86-706 PDF                  WASHINGTON : 2015                        
      
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="096e7966496a7c7a7d616c6579276a666427">[email&#160;protected]</a>  
      
      
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
TAMMY BALDWIN, Wisconsin
CHRISTOPHER S. MURPHY, Connecticut
ELIZABETH WARREN, Massachusetts

                                     LAMAR ALEXANDER, Tennessee
                                     MICHAEL B. ENZI, Wyoming
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                     TIM SCOTT, South Carolina
                                       

                      Derek Miller, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)


                            C O N T E N T S

                               __________

                               STATEMENTS

                       THURSDAY, FEBRUARY 6, 2014

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     2
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................     5
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................    45
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.    47
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    49
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    51
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    53
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    55
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    60

                               Witnesses

Yoshikawa, Hirokazu, Courtney Sale Ross University Professor of 
  Globalization and Education at the Steinhardt School of 
  Culture, Education and Human Development, New York University, 
  New York, NY...................................................     6
    Prepared statement...........................................     7
White, John, State Superintendent for Louisiana Department of 
  Education, Baton Rouge, LA.....................................    25
    Prepared statement...........................................    26
Ewen, Danielle, Director of the Office of Early Childhood 
  Education, District of Columbia Public Schools, Washington, DC.    29
    Prepared statement...........................................    31
Brantley, Charlotte M., President and CEO of Clayton Early 
  Learning, Denver, CO...........................................    35
    Prepared statement...........................................    37

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Casey................................................    65
    Senator Baldwin..............................................    65
    American Public Human Services Association (APHSA) and 
      National Association of State Child Care Administrators 
      (NASCCA)...................................................    70
    Local Initiatives Support Corporation (LISC).................    72
    Matthew E. Melmed, Executive Director, Zero to Three.........    76
    Response by Hirokazu Yoshikawa to questions of:
        Senator Murray...........................................    81
        Senator Casey............................................    82
    Response by John White to questions of:
        Senator Murray...........................................    82
        Senator Casey............................................    83
    Response by Charlotte Brantley to questions of Senator Murray    84

                                 (iii)

  
 SUPPORTING CHILDREN AND FAMILIES THROUGH INVESTMENTS IN HIGH-QUALITY 
                            EARLY EDUCATION

                              ----------                              


                       THURSDAY, FEBRUARY 6, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Alexander, Mikulski, Murray, 
Casey, Franken, Bennet, Murphy, Warren, Isakson, and Scott.

                  Opening Statement of Senator Harkin

    The Chairman. The Committee on Health, Education, Labor, 
and Pensions will please come to order. I'd like to thank our 
committee members, witnesses, and audience members in 
attendance today.
    This is going to be the kickoff on some hearings we're 
having on what I consider to be perhaps one, if not the most, 
important issue that we're going to look at and try to move 
legislation on this year, and that is early learning. I look 
forward to a good, robust discussion today on that topic.
    I don't think there's any real disagreement about ensuring 
that children who benefit from Federal programs should, if 
they're benefiting, be in a high-quality setting that nurtures 
their healthy development and growth. I can say factually that 
my colleague, Senator Alexander, has a great deal of knowledge 
and passion on these issues, because he led the Subcommittee on 
Children and Families for many years with Senator Dodd.
    Today's hearing will serve as a first in a set of hearings, 
focusing on early learning. I'll just mention as an aside that 
next week I have a field hearing in Des Moines to explore how 
early learning programs have benefited people in Iowa and what 
issues Congress should consider in terms of what States are 
doing.
    In the second week of April, we'll again convene to discuss 
early learning with a focus on strengthening the Strong Start 
for America's Children Act, legislation which I have 
introduced, currently supported by more than 25 percent, a 
quarter of the Senate. And as I said, hopefully, we'll have a 
markup of that legislation in this committee prior to the 
Memorial Day recess.
    We'll be devoting a great deal of time and attention to the 
subject of early learning. I strongly encourage the members of 
this committee on both sides of the aisle to hold roundtables 
and have discussions on early learning in their local 
communities, because I don't think there is an issue of greater 
importance that confronts us today.
    I believe access to high-quality early education does 
increase the likelihood that children will have positive 
outcomes, a view I am sure is shared by my committee members. I 
note that 63 percent of respondents to an NBC/Wall Street 
Journal poll, released 2 weeks ago, placed an absolute priority 
on ensuring access to preschool this year.
    The Federal Government supports a variety of programs to 
support early education and care, such as the Child Care and 
Development Block Grant program, which we've been talking 
about, and Head Start. However, I feel these fall short of what 
is needed.
    According to the most recent data from the Department of 
Health and Human Services, only one in six children eligible 
for child care assistance received it. Of the preschool kids 
eligible for Head Start, fewer than half are served. Among 
infants and toddlers eligible for Early Head Start, less than 5 
percent of eligible kids are served.
    State governments have done much in recent years to expand 
preschool offerings to young children. However, according to 
the National Institute for Early Education Research, States 
reduced their preschool investments by more than half a billion 
dollars between 2011 and 2012.
    All of this works against a growing awareness that 
investing in early education yields lifelong benefits. Research 
by Professor James Heckman, a Nobel laureate, suggests that 
investment in early education can help reduce the need for 
special education in the elementary and secondary school years, 
lower crime rates, increase the likelihood of healthier 
lifestyles by young people, and prepare these kids for 
kindergarten.
    This is something that I think is desperately needed in our 
society, a national commitment to quality--and I will emphasize 
that word, quality--early learning programs, not just sending 
kids someplace to play around and watch TV, but with qualified 
people who know how to take care of children in their earliest 
years, know how to stimulate their thinking, know how to get 
those developing minds to really grow and to focus on their 
development.
    I look forward to today's panel. We have a distinguished 
panel. And, as I said, this will be the kickoff in a series of 
hearings on this. I look forward to hearing from our panel.
    I'll yield to our distinguished Ranking Member, Senator 
Alexander, for his opening statement.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman. Thanks for your 
long interest in the subject and for having these hearings.
    I was an early learner when it came to early childhood 
education. For 35 years, my mother operated a preschool program 
in a converted garage in our backyard in Maryville, TN. She and 
Mrs. Pesterfield had the only two preschool education programs 
in the county at that time. She had 25 3-year-olds and 4-year-
olds in the morning and 25 5-year-olds in the afternoon.
    When the State began to license such operations, she threw 
the welfare inspector out, saying she knew more about it than 
he did. She did that for 35 years and had nowhere else to put 
me when I was a child, so I think I'm the only U.S. Senator who 
went to kindergarten for 5 years.
    In the 1960s, she persuaded my father, a former principal 
who was on the school board, to build kindergarten classrooms 
in new schools before the State kindergarten program began. In 
the early 1970s, the Governor announced that statewide 
kindergarten program at my mother's preschool.
    In 1987, Bob Keeshan, formerly known as Captain Kangaroo, 
and I and my wife started a company that merged with another 
one and became the largest provider of worksite daycare in the 
world today. So the question for me is not whether but how to 
best make early childhood education available to the largest 
possible number of children to increase equal opportunity.
    In doing this, I have four suggestions. First, preschool 
education doesn't produce miracles. Mark Lipsey, psychologist 
at Vanderbilt, said,

          ``Advocates sometimes make preschool sound like you 
        put them in a pre-K washing machine and scrub them 
        clean and they come out after that. But effects of 
        poverty and disadvantaged environments don't work that 
        way. It's a cumulative process. It's going to take 
        cumulative efforts to make a big difference. There is 
        potential here, but we also have to be realistic.''

    Second, good parenting is the most important factor, and 
good preschool education doesn't always have to be expensive. 
For example, one of the most effective programs in Tennessee 
was my wife's Healthy Children Initiative, which matched 
expectant mothers with pediatricians, giving every new child a 
medical home. At least, that was the goal. Helping those 
mothers become better parents provided those babies with a real 
head start.
    Third, Washington can help, but a national effort to expand 
effective early education will almost all be State and local 
effort and State and local money. Remember that 90 percent of 
elementary and secondary education is paid for by State and 
local governments.
    And, fourth, I believe the best next step for Washington is 
to spend more effectively the Federal dollars already being 
spent. A 2012 GAO report found that 45 Federal programs provide 
some early learning and child care. Twelve of those programs 
spend about $15 billion solely on early learning and child care 
for children under five.
    That's $8.6 billion on Head Start; $5.3 billion on the 
Child Care and Development Block Grant, which Senator Mikulski 
and Senator Harkin have worked very hard on; $250 million on 
Race to the Top Early Learning Challenge Fund; $790 million 
under the Individuals with Disabilities Education Act; another 
$3 billion through the Federal Tax Code on early child care 
education credits and exclusions for employer-provided care. 
That adds up to 18 billion Federal dollars already being spent.
    States spend about $5 billion more on preschool, according 
to the National Institute for Early Education research. Add to 
that private and local spending and it begins to add up. 
According to the General Accountability Office, these numerous 
efficiencies have created a, ``fragmentation of efforts, some 
overlap of goals or activities, and potential confusion among 
families and other program users.''
    Let me suggest one way I believe we could greatly expand 
effective access to preschool and one way we shouldn't. We 
should fully implement the 200 Head Start Centers of Excellence 
program Congress authorized in 2007. Senator Harkin, Senator 
Mikulski, Senator Enzi, and I worked on that. It encourages and 
puts the spotlight on those cities and communities already 
doing the best job of coordinating the 18 billion Federal 
dollars being spent with the billions of other dollars being 
spent by States and local entities.
    We first proposed this in 2003. It was included in 2007. In 
2009, Congress appropriated $2 million for these centers, 10 of 
them, for a period of up to 5 years. One of those from Denver 
is represented here today. Full funding would cost another $90 
million. At the end of 5 years, we could take a look at the 
next reauthorization of Head Start and see what we have 
learned.
    Here's what I believe we should not do--and I'll conclude 
with this--and that is to fall back into the familiar 
Washington pattern of noble intentions, grand promises, lots of 
Federal mandates, and send the bill to the States with 
disappointing results. I'm afraid that describes the 
president's proposal for preschool for all. To former Governors 
like me, it sounds a lot like Medicaid, a program of Federal 
promises and mandates that has become a costly burden to the 
States.
    Here's another grand promise: $75 billion over 10 years to 
expand preschool for 4-year-olds that live below 200 percent of 
the Federal poverty definition, and then many expensive 
Washington requirements concerning teacher qualifications, 
class size, child to instructor ratios, teacher salaries, early 
learning standards.
    A nearly identical plan has been introduced here in the 
Senate, and just like Medicaid, both proposals sent huge bills 
for all this to the States. States would pay only about 10 
percent the first year, but after 10 years, up to 50 percent or 
75 percent.
    This is the Medicaid model that is burdening States today, 
soaking up dollars that States would otherwise spend on 
education, including preschool education. When I was Governor 
of Tennessee in the 1980s, Medicaid was 8 percent of our State 
budget. Today, it's 30 percent.
    My recommendation for the best next step toward the goal of 
giving access to preschool education for the largest number of 
children is to fully implement the 200 Head Start Centers of 
Excellence program, enabling States to pool existing funds, try 
different approaches, and figure out what works for their 
populations and children, rather than forcing upon States from 
Washington another set of grand promises, expensive mandates, 
and disappointing results.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    Again, we welcome our witnesses here. I'd like to start by 
welcoming our first witness, Dr. Hirokazu Yoshikawa. I think I 
got that right. Dr. Yoshikawa is a tenured professor of 
education and psychology and co-director of the Institute for 
Globalization and Education at the Steinhardt School of 
Culture, Education and Human Development at New York 
University.
    In 2011, Dr. Yoshikawa was nominated by President Obama and 
confirmed by the Senate to serve on the National Board for 
Education Sciences. In 2013, he was elected to the National 
Academy of Education.
    Next is Mr. John White. Mr. White currently serves the 
State of Louisiana as its State Superintendent of Education. 
Previously, he served as Superintendent of the Recovery School 
District in New Orleans. In that capacity, he led efforts to 
overhaul failing schools, establish a unified enrollment 
system, and expanded the New Orleans school construction 
program to ensure that every school building was rebuilt or 
renovated. In 2006, Mr. White served as the deputy chancellor 
of Talent, Labor, and Innovation for New York City.
    Our next witness is Ms. Danielle Ewen. Ms. Ewen is director 
of the Office of Early Childhood Education for the District of 
Columbia Public Schools, where she oversees programs serving 
children ages 3 and 4 in high-quality, comprehensive, preschool 
classrooms. Prior to her work for the DC public schools, Ms. 
Ewen served as director of the Child Care and Early Education 
Team at the Center for Law and Social Policy, where she worked 
on Federal and State issues around child care and early 
education, particularly the reauthorizations of the Child Care 
and Development Block Grant and Head Start.
    Ms. Ewen has worked at the Children's Defense Fund as a 
Senior Program Associate in the Child Care and Development 
Division. She was Assistant Director for the National Child 
Care Information Center.
    I will turn to Senator Bennet for purposes of our final 
introduction.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. I want to thank 
you and the Ranking Member for holding this hearing. I 
apologize for not being able to stay because I've got a 
Colorado delegation meeting that I have to do.
    But I did want to come to introduce Ms. Brantley and also 
to say that, as you know, I'm an advocate for maximizing 
flexibility at the local level and the way the Federal dollars 
are spent. As far as I'm concerned, every one of these Federal 
dollars could be well-spent on early childhood education. But 
that's a topic for another day.
    Today, it's my honor to introduce Ms. Charlotte Brantley to 
the committee. Ms. Brantley has dedicated her life to early 
childhood care and education, and it shows. For the past 
several years, she served as president and CEO of Clayton Early 
Learning in Denver, CO.
    Clayton provides high-quality early childhood care and 
education to more than 600 children. The Department of Health 
and Human Services has recognized that Clayton is one of the 10 
National Centers of Excellence in Early Childhood Education.
    Charlotte brings a wealth of knowledge from her varied 
experiences in early education. She served as director of Child 
Care and Development for the State of Texas. She led the Child 
Care Bureau at the Department of Health and Human Services, 
managing a $4 billion budget, and was a senior director of 
PBS's Ready to Learn television service.
    At Clayton, she oversees several early childhood programs, 
all of which are research-based and results-driven. She also 
helps provide statewide coaching and training services to more 
than 2,500 educators and leaders. Through these efforts, 
Clayton shares innovative teaching practices across the State 
and improves the quality of learning for thousands of children.
    Charlotte has been an exemplary leader in early childhood 
education, both nationally and in Colorado, and we welcome her 
here today. I look forward to hearing her testimony and to 
working with my colleagues on both sides of the aisle on this 
important issue.
    It's also good to see Superintendent John White here. I 
want to congratulate you for all the amazing work you're doing 
in the State of Louisiana.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Bennet.
    Again, we welcome you all. We have a very distinguished 
panel here to kick off this series of hearings on this 
legislation. I might say at the outset that I've tried to scrub 
my language a little bit. I used to always refer to it as 
preschool until I heard a speaker one time say that, no, there 
should be no such thing, because education begins at birth, and 
the preparation for education begins before birth.
    Therefore, I've tried to change it from preschool to early 
learning, because school starts, as he said, even before you're 
born. That's just an aside. That's why, even though I sometimes 
slip and call it preschool, I still think of it as early 
learning programs.
    I've read through your statements. They're very good. 
They'll each be made a part of the record in their entirety. 
I'd like to start with Dr. Yoshikawa, and we'll work down. If 
you could just take 5 minutes--that's what the clock says. If 
you run over just a little bit, I won't mind. But if you could 
give us the highlights so that we can engage in a conversation, 
I would appreciate it.
    Dr. Yoshikawa, we'll start with you. Please proceed.

STATEMENT OF HIROKAZU YOSHIKAWA, COURTNEY SALE ROSS UNIVERSITY 
  PROFESSOR OF GLOBALIZATION AND EDUCATION AT THE STEINHARDT 
 SCHOOL OF CULTURE, EDUCATION AND HUMAN DEVELOPMENT, NEW YORK 
                    UNIVERSITY, NEW YORK, NY

    Mr. Yoshikawa. Mr. Chairman and members of the committee, 
thank you very much for the opportunity to appear before you 
today. I teach at New York University in the Steinhardt School 
of Culture, Education and Human Development, and I've conducted 
research for over 20 years on early childhood programs and 
policies.
    Proposals on universal preschool education are being 
debated across the country. The goal of my testimony is to tell 
you what the current science base on preschool evaluations 
shows that is useful for this debate.
    I'll present evidence from two sources, a meta-analysis of 
all the rigorous studies of preschool education, 84 of them, 
going back to 1960; and a comprehensive recent review called 
Investing in Our Future, where we focus on the most recent 15 
years of research. Investing in Our Future was written by 
myself and nine leading experts in preschool research with 
input from 20 additional experts.
    So what does this exciting new wave of evidence tell us? It 
shows us a few things we didn't know 10 years ago about 
investing in children during the years when the developing 
brain is particularly sensitive to the quality of the 
environment.
    First, high-quality preschool has shown evidence of 
substantial impacts on children's learning when implemented at 
large scale. Second, quality preschool can produce positive 
returns on investment at scale, not just in small demonstration 
programs.
    Third, the most effective way to improve quality is to 
combine evidence-based curricula with weekly or biweekly 
coaching and mentoring in the classroom. And, finally, benefits 
extend to near poor and moderate-income children as well as the 
poor.
    I'm going to tell you a little bit more about each of these 
four points. First, we know from the meta-analysis, looking 
across 84 studies of preschool, that, overall, preschool 
education increases children's learning. But these studies have 
mostly been in small-scale circumstances.
    We now have evidence that large-scale preschool programs, 
not just small, can have substantial positive effects on 
children. Children in studies on Tulsa's and Boston's universal 
pre-K programs showed between a half and a full year of 
additional growth in reading and math skills above and beyond 
comparison group children.
    What's particularly impressive about that is that most of 
the comparison group children were in other centers or 
preschools. So these are large effects in comparison above and 
beyond centers and other preschool settings. Studies on some 
State programs like New Jersey are also showing important 
benefits for kids.
    Second, we have new evidence on the returns to investment 
of quality preschool. We've known for a long time that the 
Perry Preschool Program implemented in the 1960s saved $7 for 
every dollar spent, increased high school graduation and 
earnings, and reduced crime.
    What's new is a recent study on the citywide Tulsa pre-
kindergarten program by the economist, Tim Bartik. He showed 
that the Tulsa program saved over $3 for every dollar invested, 
and that's based on projected adult earnings benefits alone, 
not other benefits. Preliminary data from Boston suggests a 
similar pattern of return on investment. As the Nobel prize-
winning economist James Heckman argues, high-quality preschool, 
if implemented nationally, would have societal benefits with 
substantial increases in the skills and productivity of the 
next generation.
    But how can we actually implement high-quality preschool at 
scale? An exciting set of over a dozen rigorous, controlled 
evaluations that we review shows that the combination of two 
important elements, curricula focused on specific aspects of 
learning and weekly or biweekly coaching and mentoring in the 
classroom, can substantially improve the kind of quality that 
matters most, and that is the responsiveness of interactions 
and quality of instruction provided by teachers, such as 
Senator Alexander's mother.
    Why are curricula important? Focused curricula provide a 
structured way to promote specific developmental skills in 
children. These are not about rote learning or pushing down 
second grade instruction into preschool. All of these curricula 
have at their core play-based activities that preschoolers and 
teachers actually enjoy.
    And we have a choice of evidence-based curricula. Among the 
dozen studies, some show success with curricula focused on 
language and literacy, some with math, and some with social and 
emotional development.
    Why coaching in the classroom? It's simple. The science of 
adult learning tells us that we learn more from supportive 
feedback in the workplace than from didactic lectures and 
workshops. Yet often, professional development in preschool is 
only workshops and lectures. Professional development with 
supportive coaching tailored to the teacher's skill levels is 
more likely to produce learning impact for both teachers and 
children.
    This combination of curriculum and coaching has been proven 
in these studies, not only in public pre-K systems, but also in 
Head Start and also in both home and center-based child care. 
So we know now how to improve quality in a variety of delivery 
systems and during the critical period of zero to three when 
brain development is most rapid. Of course, we can't ignore 
also improving kindergarten through third grade quality to 
build on the benefits of high-quality preschool.
    My final point is that high-quality preschool benefits 
moderate-income children as well as poor children, children 
with special needs as well as those typically developing, and 
dual language learners and children of immigrants as well as 
native English speakers. For example, the returns on investment 
were robust for both moderate-income and poor children in 
Tulsa, and the same for Boston.
    When children from different economic classes mix in 
preschool classrooms, all children benefit. At the same time, 
poorer children benefit more than middle class kids. That's why 
these programs have reduced school readiness gaps. The Boston 
universal preschool program, for example, completely wiped out 
the Latino-white school readiness gap in early reading and math 
skills and substantially reduced black-white and income-based 
gaps.
    Thank you again for this opportunity, and I look forward to 
your questions.
    [The prepared statement of Mr. Yoshikawa follows:]
                Prepared Statement of Hirokazu Yoshikawa
                                summary*
    Proposals on preschool education are currently the focus of 
national as well as State and city deliberations. The goal of this 
testimony is to inform the committee about what the evidence base of 
rigorous preschool evaluations shows that may be useful for these 
discussions.
---------------------------------------------------------------------------
    * Adapted from Hirokazu Yoshikawa, Christina Weiland, Jeanne 
Brooks-Gunn, Margaret Burchinal, Linda M. Espinosa, William T. Gormley, 
Jens O. Ludwig, Katherine A. Magnuson, Deborah A. Phillips, and Martha 
J. Zaslow (2013). Investing in Our Future: The Evidence Base on 
Preschool Education. New York: Foundation for Child Development and Ann 
Arbor, MI: Society for Research in Child Development.
---------------------------------------------------------------------------
    Large-scale public preschool programs have shown substantial 
impacts on children's early learning. Scientific evidence on the 
impacts of early childhood education has progressed well beyond the 
landmark Perry Preschool and Abecedarian studies. A recent meta-
analysis integrating evaluations of 84 preschool programs concluded 
that, on average, children gain about a third of a year of additional 
growth across language, reading, and math skills, above and beyond 
comparison groups. At-scale preschool programs in Tulsa and Boston have 
produced larger gains of between a half and a full year of additional 
growth in reading and math, above and beyond comparison groups (most of 
whom attended other centers or preschools). Benefits to children's 
socio-emotional development have been documented in programs that focus 
intensively on these areas.
    Quality preschool education provides strong returns on investment. 
Available benefit-cost estimates based on older, intensive 
interventions, such as the Perry Preschool Program, as well as 
contemporary, large-scale public preschool programs, such as the 
Chicago Parent Child Centers and Tulsa's preschool program, range from 
$3 to $7 saved for every dollar spent.
    The combination of curricula focused on specific aspects of 
learning and in-person coaching and mentoring has proven successful in 
improving quality in public pre-K, Head Start, and child care systems. 
Children benefit most when teachers are emotionally supportive and 
engage in stimulating interactions that support learning. Interactions 
that help children acquire new knowledge and skills provide input to 
children, elicit verbal responses and reactions from them, and foster 
engagement in and enjoyment of learning. Recent evaluations tell us 
that effective use of curricula focused on such specific aspects of 
learning as language and literacy, math, or social and emotional 
development provide a substantial boost to children's learning. 
Guidelines about the number of children in a classroom, the ratio of 
teachers and children, and staff qualifications and compensation help 
to increase the likelihood of--but do not assure--supportive and 
stimulating interactions.
    Coaching or mentoring that provides support to the teacher on how 
to implement content-rich and engaging curricula shows substantial 
promise in helping to assure that such instruction is being provided. 
Such coaching or mentoring involves modeling positive instructional 
approaches and providing feedback on the teacher's implementation in a 
way that sets goals but is also supportive. This feedback and exchange 
can occur in the classroom or through web-based video.
    Quality preschool education can benefit middle-class children as 
well as disadvantaged children; typically developing children as well 
as children with special needs; and dual language learners as well as 
native speakers. Although early research focused only on programs for 
low-income children, more recent research focusing on universal 
preschool programs provides the opportunity to ask if preschool can 
benefit children from middle-income as well as low-income families. The 
evidence is clear that middle-class children can benefit substantially, 
and that benefits outweigh costs for children from middle income as 
well as those from low-income families. However, children from low-
income backgrounds benefit more. Studies of both Head Start and public 
preK programs suggest that dual language learners benefit as much as, 
and in some cases more than, their native speaker counterparts. 
Finally, two large-scale studies show that children with special needs 
benefit from large-scale preschool programs that take an inclusion 
approach.
    A second year of preschool shows additional benefits. The few 
available studies, which focus on disadvantaged children, show further 
benefits from a second year of preschool. However, the gains are not 
always as large as from the first year of preschool. This may be 
because children who attend 2 years of preschool are not experiencing a 
sequential building of instruction from the first to the second year. 
In addition, quality preschool should be followed by efforts to 
implement higher quality in kindergarten through third grade and 
beyond.
    Long-term benefits can occur despite convergence of test scores. As 
children from low-income families in preschool evaluation studies are 
followed into elementary school, differences between those who received 
preschool and those who did not on tests of academic achievement are 
reduced. However, evidence from long-term evaluations of both small-
scale, intensive interventions and Head Start suggest that there are 
medium-term impacts on outcomes such as reduced grade repetition and 
reduced special education referrals, and long-term effects on societal 
outcomes such as high-school graduation, years of education completed, 
earnings, and reduced crime and teen pregnancy, even after test-score 
effects decline to zero. Research is now underway focusing on why these 
long-term effects can occur even when test scores converge.
    There are important benefits of comprehensive services when these 
added services are carefully chosen and targeted. When early education 
provides comprehensive services, it is important that these extensions 
of the program aim at services and practices that show benefits to 
children and families. Early education programs that have focused in a 
targeted way on health outcomes (e.g., facilitating a regular medical 
home; integrating comprehensive screening; requiring immunizations) 
have shown such benefits as an increase in receipt of primary medical 
care and dental care. In addition, a parenting focus can augment the 
effects of preschool on children's skill development, but only if it 
provides parents with modeling of positive interactions or 
opportunities for practice with feedback. Simply providing information 
through classes or workshops is not associated with further 
improvements in children's skills.
                                 ______
                                 
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. My name is Dr. Hirokazu 
Yoshikawa, and I am the Courtney Sale Ross University Professor of 
Globalization and Education at New York University, in the Steinhardt 
School of Culture, Education and Human Development. I have conducted 
research since the early 1990s on early childhood development programs 
and policies.
---------------------------------------------------------------------------
     Testimony is adapted from Hirokazu Yoshikawa, Christina Weiland, 
Jeanne Brooks-Gunn, Margaret Burchinal, Linda M. Espinosa, William T. 
Gormley, Jens O. Ludwig, Katherine A. Magnuson, Deborah A. Phillips, 
and Martha J. Zaslow (2013). Investing in Our Future: The Evidence Base 
on Preschool Education. New York: Foundation for Child Development and 
Washington, DC: Society for Research in Child Development. http://
www.srcd.org/sites/default/files/documents/washington/
mb_2013_10_16_investing_in_children.pdf;http://fcd-us.org
/sites/default/files/
Evidence%20Base%20on%20Preschool%20Education%20FINAL.pdf.
---------------------------------------------------------------------------
    National legislation on publicly funded preschool education is 
again the focus of prominent debate in the United States. At present, 
42 percent of 4-year-olds attend publicly funded preschool (28 percent 
attend public pre-Kindergarten programs, 11 percent Head Start, and 3 
percent special education preschool programs).\1\ A considerable and 
healthy debate about the merits of preschool education is in process. 
However, in some of these discussions, the most recent evidence has not 
yet been included for consideration. The goal of this testimony is to 
provide a non-partisan and thorough review of the current science and 
evidence base on early childhood education (ECE) that includes the most 
recent research. I represent an interdisciplinary group of early 
childhood experts, including Christina Weiland, Jeanne Brooks-Gunn, 
Margaret Burchinal, Linda Espinosa, William Gormley, Jens Ludwig, 
Katherine Magnuson, Deborah Phillips and Martha Zaslow. We recently 
conducted an extensive review of rigorous evidence on why early skills 
matter, the short- and long-term effects of preschool programs on 
children's school readiness and life outcomes, the importance of 
program quality, which children benefit from preschool (including 
evidence on children from different family income backgrounds), and the 
costs versus benefits of preschool education. We also incorporated 
comments and feedback from 20 additional experts in early childhood 
development and preschool evaluation. Here, I focus on preschool (early 
childhood education) for 4-year-olds, with some review of the evidence 
for 3-year-olds when relevant. We do not discuss evidence regarding 
programs for 0-3-year-olds.
                             summary points
    Large-scale public preschool programs have shown substantial 
impacts on children's early learning. Scientific evidence on the 
impacts of early childhood education has progressed well beyond the 
landmark Perry Preschool and Abecedarian studies. A recent meta-
analysis integrating evaluations of 84 preschool programs concluded 
that, on average, children gain about a third of a year of additional 
growth across language, reading, and math skills, above and beyond 
comparison groups. At-scale preschool programs in Tulsa and Boston have 
produced larger gains of between a half and a full year of additional 
growth in reading and math, above and beyond comparison groups (most of 
whom attended other centers or preschools). Benefits to children's 
socio-emotional development have been documented in programs that focus 
intensively on these areas.
    Quality preschool education provides strong returns on investment. 
Available benefit-cost estimates based on older, intensive 
interventions, such as the Perry Preschool Program, as well as 
contemporary, large-scale public preschool programs, such as the 
Chicago Parent Child Centers and Tulsa's preschool program, range from 
$3 to $7 saved for every dollar spent.
    The combination of curricula focused on specific aspects of 
learning and in-person coaching and mentoring has proven successful in 
improving quality in public preK, Head Start, and child care systems. 
Children benefit most when teachers are emotionally supportive and 
engage in stimulating interactions that support learning. Interactions 
that help children acquire new knowledge and skills provide input to 
children, elicit verbal responses and reactions from them, and foster 
engagement in and enjoyment of learning. Recent evaluations tell us 
that effective use of curricula focused on such specific aspects of 
learning as language and literacy, math, or social and emotional 
development provide a substantial boost to children's learning. 
Guidelines about the number of children in a classroom, the ratio of 
teachers and children, and staff qualifications help to increase the 
likelihood of--but do not assure--supportive and stimulating 
interactions.
    Coaching or mentoring that provides support to the teacher on how 
to implement content-rich and engaging curricula shows substantial 
promise in helping to assure that such instruction is being provided. 
Such coaching or mentoring involves modeling positive instructional 
approaches and providing feedback on the teacher's implementation in a 
way that sets goals but is also supportive. This feedback and exchange 
can occur in the classroom or though web-based video.
    Quality preschool education can benefit middle-class children as 
well as disadvantaged children; typically developing children as well 
as children with special needs; and dual language learners as well as 
native speakers. Although early research focused only on programs for 
low-income children, more recent research focusing on universal 
preschool programs provides the opportunity to ask if preschool can 
benefit children from middle-income as well as low-income families. The 
evidence is clear that middle-class children can benefit substantially, 
and that benefits outweigh costs for children from middle-income as 
well as those from low-income families. However, children from low-
income backgrounds benefit more. Studies of both Head Start and public 
preK programs suggest that dual language learners benefit as much as, 
and in some cases more than, their native speaker counterparts. 
Finally, two large-scale studies show that children with special needs 
benefit from large-scale preschool programs that take an inclusion 
approach.
    A second year of preschool shows additional benefits. The few 
available studies, which focus on disadvantaged children, show further 
benefits from a second year of preschool. However, the gains are not 
always as large as from the first year of preschool. This may be 
because children who attend 2 years of preschool are not experiencing a 
sequential building of instruction from the first to the second year. 
In addition, quality preschool should be followed by efforts to 
implement higher quality in kindergarten through third grade and 
beyond.
    Long-term benefits can occur despite convergence of test scores. As 
children from low-income families in preschool evaluation studies are 
followed into elementary school, differences between those who received 
preschool and those who did not on tests of academic achievement are 
reduced. However, evidence from long-term evaluations of both small-
scale, intensive interventions and Head Start suggest that there are 
medium-term impacts on outcomes such as reduced grade repetition and 
reduced special education referrals, and long-term effects on societal 
outcomes such as high-school graduation, years of education completed, 
earnings, and reduced crime and teen pregnancy, even after test-score 
effects decline to zero. Research is now underway focusing on why these 
long-term effects can occur even when test scores converge.
    There are important benefits of comprehensive services when these 
added services are carefully chosen and targeted. When early education 
provides comprehensive services, it is important that these extensions 
of the program aim at services and practices that show benefits to 
children and families. Early education programs that have focused in a 
targeted way on health outcomes (e.g., facilitating a regular medical 
home; integrating comprehensive screening; requiring immunizations) 
have shown such benefits as an increase in receipt of primary medical 
care and dental care. In addition, a parenting focus can augment the 
effects of preschool on children's skill development, but only if it 
provides parents with modeling of positive interactions or 
opportunities for practice with feedback. Simply providing information 
through classes or workshops is not associated with further 
improvements in children's skills.
                          detailed discussion
Early skills matter, and preschool can help children build these 
skills.

    The foundations of brain architecture, and subsequent lifelong 
developmental potential, are laid down in the early years in a process 
that is exquisitely sensitive to external influence. Early experiences 
in the home, in other care settings, and in communities interact with 
genes to shape the developing nature and quality of the brain's 
architecture. The growth and then environmentally based pruning of 
neuronal systems in the first years support a range of early skills, 
including cognitive (early language, literacy, math), social (theory of 
mind, empathy, prosocial), persistence, attention, and self-regulation 
and executive function skills (the voluntary control of attention and 
behavior).\2\ Later skills--in schooling and employment--build 
cumulatively upon these early skills. Therefore investment in early 
learning and development results in greater cost savings than 
investment later in the life cycle.\3\ The evidence reviewed below 
addresses the role of preschool in helping children build these skills.

Rigorous evidence suggests positive short-term impacts of preschool 
programs.

    Effects on language, literacy, and mathematics. Robust evidence 
suggests that a year or two of center-based ECE for three- and 4-year-
olds, provided in a developmentally appropriate program, will improve 
children's early language, literacy, and mathematics skills when 
measured at the end of the program or soon after.\4\ These findings 
have been replicated across dozens of rigorous studies of early 
education programs, including small demonstration programs and 
evaluations of large public programs such as Head Start and some State 
pre-K programs. Combining across cognitive (e.g., IQ), language (e.g., 
expressive and receptive vocabulary) and achievement (e.g., early 
reading and mathematics skills) outcomes, a recent meta-analysis 
including evaluations of 84 diverse early education programs for young 
children evaluated between 1965 and 2007 estimated the average post-
program impact to be about .35 standard deviations.\5\ This represents 
about a third of a year of additional learning, above and beyond what 
would have occurred without access to preschool. These data include 
both the well-known small demonstration programs such as Perry 
Preschool, which produced quite large effects, as well as evaluations 
of large preschool programs like Head Start, which are characterized 
both by lower cost but also more modest effects. Two recent evaluations 
of at-scale urban programs, in Tulsa and Boston, showed large effects 
(between a half of a year to a full year of additional learning) on 
language, literacy and math.\6\
    Effects on socio-emotional development. The effects of preschool on 
socio-emotional development \7\ are not as clear-cut as those on 
cognitive and achievement outcomes. Far fewer evaluation studies of 
general preschool (that is, preschool without a specific behavior-
focused component) have included measures of these outcomes. And 
relative to measures of achievement, language and cognition, socio-
emotional measures are also more varied in the content they cover and 
quality of measurement.
    A few programs have demonstrated positive effects on children's 
socioemotional development. Perry Preschool was found to have reduced 
children's externalizing behavior problems (such as acting out or 
aggression) in elementary school.\8\ More recently, the National Head 
Start Impact Study found no effects in the socioemotional area for 4-
year-old children, although problem behavior, specifically 
hyperactivity, was reduced after 1 year of Head Start among 3-year-
olds.\9\ An evaluation of the Tulsa pre-Kindergarten program found that 
pre-Kindergarten attendees had lower levels of timidity and higher 
levels of attentiveness, suggesting greater engagement in the 
classroom, than was the case for other students who neither attended 
pre-Kindergarten nor Head Start. However, there were no differences 
among pre-Kindergarten and other children in their aggressive or 
hyperactive behavior.\10\ A recent explanation for the divergence of 
findings is suggested by meta-analytic work on aggression, which found 
that modest improvements in children's aggressive behavior occurred 
among programs that made improving children's behavior an explicit 
goal.\11\
    Effects on health. The effects of preschool on children's health 
have been rigorously investigated only within the Head Start program; 
Head Start directly targets children's health outcomes, while many 
preschool programs do not. Head Start has been shown to increase child 
immunization rates. In addition, there is evidence that Head Start in 
its early years of implementation reduced child mortality, and in 
particular mortality from causes that could be attributed plausibly to 
aspects of Head Start's health services, particularly immunization and 
health screening (e.g., measles, diabetes, whooping cough, respiratory 
problems, etc).\12\ More recently, the national Head Start Impact Study 
found somewhat mixed impacts on children's health outcomes between the 
end of the program and the end of first grade.\13\ Head Start had small 
positive impacts on some health indicators, such as receipt of dental 
care, whether the child had health insurance, and parents' reports of 
whether their child had good health, at some post-program time points 
but not at others. Head Start had no impact at the end of first grade 
on whether the child had received care for an injury within the last 
month or whether the child needed ongoing care. The positive impacts of 
Head Start on immunization, dental care and some other indicators may 
be due to features of its health component--the program includes 
preventive dental care, comprehensive screening of children, tracking 
of well-child visits and required immunizations, and assistance if 
needed with accessing a regular medical home. In contrast to the 
literature on Head Start and health outcomes, there are almost no 
studies of the effects of public pre-Kindergarten on children's health.

A second year of preschool shows additional benefits.

    There are few studies that have examined the relative impact of 1 
vs. 2 years of preschool education, and none that randomly assigned 
this condition. All of the relevant studies focus on disadvantaged 
children. The existing evidence suggests that more years of preschool 
seem to be related to larger gains, but the added impact of an 
additional year is often smaller than the gains typically experienced 
by a 4-year-old from 1 year of participation.\14\ Why the additional 
year generally results in smaller gains is unclear. It may be that 
children who attend multiple years experience the same curriculum 
across the 2 years rather than experiencing sequenced 2-year curricula, 
as many programs mix 3-year-old and 4-year-olds in the same classroom.

Children show larger gains in higher-quality preschool programs.

    Higher-quality preschool programs have larger impacts on children's 
development while children are enrolled in the program and are more 
likely to create gains that are sustained after the child leaves 
preschool. Process quality features--children's immediate experience of 
positive and stimulating interactions--are the most important 
contributors to children's gains in language, literacy, mathematics and 
social skills. Structural features of quality (those features of 
quality that can be changed by structuring the setting differently or 
putting different requirements for staff in place, like group size, 
ratio, and teacher qualifications) help to create the conditions for 
positive process quality, but do not ensure that it will occur.
    For example, smaller group sizes and better ratios of staff to 
children provide the right kind of setting for children to experience 
more positive interactions. But this context itself is not enough. 
Teacher qualifications such as higher educational attainment and 
background, certification in early childhood, or higher than average 
compensation for the field are features of many early education 
programs that have had strong effects. Yet here too, research indicates 
that qualifications alone do not ensure greater gains for children 
during the course of the preschool years.\15\ To promote stronger 
outcomes, preschool programs should be characterized by both structural 
features of quality and ongoing supports to teachers to assure that the 
immediate experiences of children, those provided through activities 
and interactions, are rich in content and stimulation, while also being 
emotionally supportive.
    The aspects of process quality that appear to be most important to 
children's gains during the preschool years include teachers providing 
frequent, warm and responsive interactions.\16\ In addition, teachers 
who encourage children to speak, with interactions involving multiple 
turns by both the teacher and child to discuss and elaborate on a given 
topic, foster greater gains during the preschool year, across multiple 
domains of children's learning.\17\ Both the warm and responsive 
interaction style and elaborated conversations also predict the 
persistence of gains into the school years.\18\ Some evidence suggests 
that children who have more opportunities to engage in age-appropriate 
activities with a range of varied materials such as books, blocks, and 
sand show larger gains during the preschool years (and those gains are 
maintained into the school years).\19\

Quality in preschool classrooms is in need of improvement, with 
instructional support levels particularly low.

    Both longstanding and more recent research reveal that the average 
overall quality of preschool programs is squarely in the middle range 
of established measures. In large-scale studies of public pre-
Kindergarten, for example, only a minority of programs are observed to 
provide excellent quality; a comparable minority of programs are 
observed to provide poor quality.\20\ It is therefore not surprising 
that impacts of most of the rigorously evaluated public pre-
Kindergarten programs fall shy of those in Tulsa and Boston (in the 
small to moderate range for reading and math, that is, a few months of 
added learning, rather than the half-year to full-year of additional 
learning that was found in Tulsa and Boston).\21\ Head Start programs 
also show considerable variation in quality. While few programs are 
rated as having ``poor'' quality, research suggests that as in studies 
of many public pre-Kindergarten programs, Head Start programs on 
average show instructional quality levels well below the midpoint of 
established measures.\22\ In sum, there is variation in quality in both 
Head Start and pre-Kindergarten nationally, with no clear pattern of 
one being stronger in quality than the other in the existing research. 
It is important to note here that funding streams are increasingly 
mixed on the ground, with pre-
Kindergarten programs using Head Start performance standards or 
programs having fully blended funds; thus, these two systems are no 
longer mutually exclusive in many locales.
    High-quality programs implemented at scale are possible, according 
to recent research. Evaluation evidence on the Tulsa and Boston pre-
Kindergarten programs shows that high-quality public pre-K programs can 
be implemented across entire diverse cities and produce substantial 
positive effects on multiple domains of children's development. 
Assuring high quality in these public programs implemented at scale has 
entailed a combination of program standards, attention to teacher 
qualifications and compensation, additional ongoing onsite quality 
supports such as the ones described previously, and quality monitoring.

The combination of developmentally focused, intensive curricula with 
integrated, in-classroom professional development can boost quality and 
children's skills.

    Curricula can play a crucial role in ensuring that children have 
the opportunity to acquire school readiness skills during the preschool 
years. Preschool curricula vary widely. Some, typically labeled 
``global'' curricula, tend to have a wide scope, providing activities 
that are thought to promote socio-emotional, language, literacy, and 
mathematics skills and knowledge about science, arts, and social 
studies. Other curricula, which we label ``developmentally focused'', 
aim to provide intensive exposure to a given content area based on the 
assumption that skills can be better fostered with a more focused 
scope.\23\
    Global curricula have not often been evaluated rigorously. However, 
the evidence that exists from evaluations by independent evaluators 
suggests no or small gains associated with their use, when compared 
with curricula developed by individual teachers or to other 
commercially available or researcher-developed curricula.\24\ A revised 
version of such a curriculum is currently being evaluated via a 
randomized trial.\25\
    As for developmentally focused curricula, several recent 
experimental evaluations have demonstrated moderate to large gains in 
the targeted domains of children's development, for math curricula,\26\ 
language and literacy curricula,\27\ and curricula directed at 
improving socio-emotional skills and self-regulation, compared to usual 
practice in preschool classrooms,\28\ which typically involve more 
global curricula.
    Most of the successful curricula in these recent evaluations are 
characterized by intensive professional development that often involves 
coaching at least twice a month, in which an expert teacher provides 
feedback and support for in-classroom practice, either in person or in 
some cases through observation of videos of classroom teaching. Some 
curricula also incorporate assessments of child progress that are used 
to inform and individualize instruction, carried out at multiple points 
during the preschool year. These assessments allow the teacher to 
monitor the progress of each child in the classroom and modify her 
content and approach accordingly.
    This recent set of research suggests that intensive, 
developmentally focused curricula with integrated professional 
development and monitoring of children's progress offer the strongest 
hope for improving classroom quality as well as child outcomes during 
the preschool years. However, more evidence is needed about the 
effectiveness of such curricula, particularly studies of curricula 
implemented without extensive support of the developer, or beyond 
initial demonstrations of efficacy.\29\ That is, the majority of 
rigorously conducted trials of developmentally focused curricula have 
included extensive involvement of the developer(s) and have occurred on 
a relatively small scale. There have been only a few trials of 
curricula in ``real world'' conditions--meaning without extensive 
developer(s)' involvement and across a large program. Some notable 
recent results in ``real world'' conditions show promise that 
substantial effects can be achieved,\30\ but more such studies are 
needed given the widely noted difficulties in taking interventions to 
scale.\31\
    A recent development in early childhood curricula is the 
implementation of integrated curricula across child developmental 
domains (for example, socio-emotional and language; math and language), 
which retain the feature of defined scope for each area. In two recent 
successful instances, efforts were made to ensure feasible, integrated 
implementation; importantly, coaches and mentor teachers were trained 
across the targeted domains and curricula.\32\
    In addition to in-classroom professional development supports, the 
pre-service training and education of teachers is of critical concern 
in the field of preschool education. However, here evaluation research 
is still scant. There are a range of recent innovations--for example, 
increasing integration of practical and in-classroom experiences in 
higher education teacher preparation courses; hybrid web-based and in-
person training approaches; and attention to overlooked areas of early 
childhood teacher preparation such as work with children with 
disabilities, work with children learning two languages, or teaching of 
early math skills. However, these innovations have yet to be fully 
evaluated for their impact on teacher capacities or preschool program 
quality.\33\
    Over the course of elementary school, scores for children who have 
and have not had preschool typically converge. Despite this 
convergence, there is some evidence of effects on societally important 
outcomes in early adulthood.
    As children in preschool evaluation studies are followed into 
elementary school, the differences between those who received preschool 
and those who did not are typically reduced, based on the available 
primary-school outcomes of evaluations (chiefly test scores of reading 
and math achievement). This phenomenon of reduced effect sizes on test 
scores over time is often labeled ``fadeout.'' \34\ We use the term 
convergence, as this term more accurately captures how outcomes like 
test scores of children who participated vs. did not participate in 
preschool converge over time as the non-attenders catch-up. There is 
not yet a strong evidence base on reasons for the convergence of test 
scores in follow-up evaluations of children after early childhood. A 
number of factors may be involved--for example, low quality of primary 
schooling, particularly for students in disadvantaged areas, may fail 
to build on the gains created by early childhood education.\35\ Having 
students who attended and benefited from preschool may also permit 
elementary-school teachers to focus more on the non-attenders, and this 
extra attention may explain the convergence or catch-up pattern.
    Persistence of effects in landmark, small demonstration programs. A 
handful of small-scale demonstration programs show that while the 
language, literacy, and mathematics test scores of children 
participating versus not participating in preschool programs tend to 
converge as children progress through their K-12 schooling careers, the 
programs nonetheless appear to produce effects on a wide range of 
behavioral, health, and educational outcomes that persist into 
adulthood. The existing evidence pertains to low-income populations. 
The two most famous randomized experimental tests of preschool 
interventions with long-term outcome data--Perry Preschool and 
Abecedarian--provided striking evidence of this. Both programs produced 
large initial impacts on achievement test scores, but the size of these 
impacts fell in magnitude as children aged. Nonetheless, there were 
very large program effects on schooling attainment and earnings during 
adulthood.\36\ The programs also produced striking results for criminal 
behavior; fully 60-70 percent of the dollar-value of the benefits to 
society generated by Perry Preschool come from impacts in reducing 
criminal behavior.\37\ In Abecedarian, the treatment group's rate of 
felony convictions or incarceration by age 21 is fully one-third below 
that of the control group.\38\ There were other important effects as 
well, with reductions in teen pregnancy in both studies for treatment 
group members and reductions in tobacco use for treatment group members 
in Abecedarian.
    Persistence of effects in programs at scale. Patterns of converging 
test scores but emerging impacts in adulthood are present in some other 
noteworthy preschool programs as well. These also focus on 
disadvantaged populations. For example, in studies of Head Start, there 
appear to be long-term gains in educational, behavioral and health 
outcomes even after test score impacts decline to zero. Specifically, a 
number of quasi-experimental studies of Head Start children who 
participated in the program in the 1960s, 1970s and 1980s find test 
score effects that are no longer statistically significant within a few 
years after the children leave the program. But even though Head Start 
participants have test scores that look similar to other children by 
early to mid-elementary school, these studies show that Head Start 
children wind up completing more years of schooling, earning more, 
being healthier, and (in at least some studies) may be less likely to 
engage in criminal behavior.\39\ Two studies have examined the medium-
term persistence of gains of publicly funded State pre-Kindergarten 
programs. One of these has followed children through third grade and 
found persistence of mathematics gains, but not reading gains, through 
third grade for boys.\40\ The second study has followed children 
through first grade and has found convergence of participating and non-
participating children's cognitive skills and mixed impacts on 
children's behavioral outcomes.\41\
    Future Directions in Sustaining Short-Term Gains from Preschool. 
Despite several promising studies of long-term gains, we caution that 
the vast majority of preschool program evaluations have not included 
long-term followup. Strategies for sustaining short-term gains for 
children require more exploration and evaluation. One path to 
sustaining short-term gains may be to maximize the short-term impact, 
by ensuring that quality of preschool is high, according to the 
approaches described previously. Another is to work toward greater 
continuity in learning goals and approaches across the preschool and 
early elementary years by, for example, ensuring instructional quality 
and support for health and socio-emotional learning in kindergarten and 
the early elementary grades. And finally, efforts to bolster three 
major influences that parents have on children's development--their 
psychological well-being; their parenting behaviors; and their economic 
security--have not often been part of preschool education, but 
intensifying and further specifying these components may increase the 
impact of preschool. Recent advances in successful parenting 
interventions, which provide great specificity and intensive focus on 
the dimension of parenting targeted (e.g., specific behavior management 
approaches or contingent responsiveness), have yet to be integrated 
with preschool systems.\42\ A recent meta-analytic study suggests that 
a parenting-focused component can be an important complement to 
preschool and produce added gains in children's cognitive skills. The 
key is that the component on parenting be delivered via modeling of 
positive interactions or opportunities for practice with feedback. 
Didactic workshops or classes in which parents merely receive 
information about parenting strategies or practices appeared to produce 
no additive benefits beyond those from the early education component of 
preschool alone.\43\ Efforts to integrate recent advances in adult 
education and workforce development programs (a new set of two- or 
dual-generation programs), similarly, are just now being evaluated.\44\
              preschool's effects for different subgroups
    Family income. Recent evidence suggests that high-quality preschool 
positively contributes to the language, literacy, and mathematics 
skills growth of both low- and middle-income children, but has the 
greatest impact on children living in or near poverty. Until recently, 
it has been difficult to compare the effectiveness of high-quality 
preschool across income groups, because almost all of the earlier 
studies focused on programs that targeted children from poor families. 
For example, the median percentage of families in poverty in rigorous 
early childhood education evaluations identified in a recent meta-
analysis was 91 percent.\45\ One study from the 1980s of the positive 
impacts of preschool education on children from well-to-do families 
suggested substantial positive impacts on boys.\46\ More recently, the 
advent of universal pre-K in a small number of States and communities 
has permitted comparisons based on income. In two studies of public 
pre-Kindergarten programs, positive and substantial impacts on 
language, literacy, and mathematics skills were obtained for both low- 
and middle-income children. In both of these studies, the impacts were 
larger for children living in or near poverty (as indicated by free-or 
reduced-lunch status), but still substantial for their less 
disadvantaged peers.\47\
    Race/ethnicity. Overall, the current research evidence suggests 
that children of different racial/ethnic groups benefit from preschool. 
Many of the most prominent evaluations from the 1960s, 1970s and 1980s 
(e.g., Perry, Abecedarian, and the Chicago Parent-Child Centers) 
focused on African-American students, with no comparisons of effects 
possible across different racial/ethnic groups. Several more recent 
studies have compared effects for students from different racial/ethnic 
backgrounds. The Head Start Impact Study reached somewhat different 
conclusions for 3-year-olds and 4-year-olds: for 3-year-olds, positive 
post-program impacts were strongest for African-Americans and 
Hispanics, relative to White, non-Hispanic children; for 4-year-olds, 
positive impacts were smaller for Hispanics, again relative to White, 
non-Hispanic children.\48\ The Tulsa study found substantial 
improvements in school readiness for pre-Kindergarten participants from 
all racial and ethnic groups. Effect sizes were moderate to large for 
all racial and ethnic groups studied (white, black, Hispanic, Native 
American) but especially large for Hispanics.\49\ The Boston study 
found substantial benefits in language, literacy, mathematics, and 
executive functioning domains for children from all racial and ethnic 
groups. Effect sizes were especially large for Hispanics and for Asian 
Americans, though the sample size for Asian Americans was relatively 
small.\50\
    Dual language learners and children of immigrants. Positive impacts 
of preschool can be as strong or stronger for dual language learners 
and children of immigrants, compared to their English-speaking or 
native-born counterparts. Given the specific challenges and 
opportunities faced in school by dual language learners (DLL) \51\ and 
the growing number of such students in the United States, it is 
important to know how high-quality preschool programs impact them in 
particular, as well as the features of quality that are important to 
their development. National non-experimental evidence suggests that 
positive effects of preschool on early reading and math achievement are 
as strong for children of immigrants as for children of the native-
born.\52\ In the Tulsa pre-Kindergarten program, effects for Hispanic 
students who came from homes where Spanish was the primary spoken 
language (dual language learners) were larger than effects for Hispanic 
students who came from homes where English was the primary spoken 
language.\53\ And the National Head Start Impact Study found 
significantly stronger positive impacts of Head Start on language and 
school performance at the end of kindergarten for dual-language 
learners, relative to their native speaking counterparts.
    Generally, the same features of quality that are important to the 
academic outcomes of monolingual English speaking children appear to be 
important to the development of DLL. However, a feature of early 
childhood settings that may be important specifically to the 
development of DLL is language of instruction. There is emerging 
research that preschool programs that systematically integrate both the 
children's home language and English language development promote 
achievement in the home language as well as English language 
development.\54\ While there are no large meta-analytic studies of 
bilingual education in preschool, meta-analyses of bilingual education 
in elementary school and several experimental preschool studies have 
reached this conclusion.\55\ Home language development does not appear 
to come at the cost of developing English language skills, but rather 
strengthens them. Thus, programs that intentionally use both languages 
can promote emergent bilingualism, a characteristic that may be 
valuable in later development.\56\
    Children with special needs. More rigorous research is needed on 
the effects of preschool on children with special needs (note that we 
do not discuss effects of preschool programs that serve only children 
with special needs). The Head Start Impact Study found that children 
with special needs randomly assigned to Head Start as 3-year-olds made 
significant gains in math and social-emotional development at the end 
of first grade compared to peers assigned to the control group.\57\ 
Research on the Tulsa pre-K program found that children with special 
needs who participated in pre-K experienced significant improvements--
comparable to those for typically developing children--in their reading 
skills and writing skills, though not necessarily in math. There is a 
need to test these patterns in other studies.

    The benefits of quality preschool outweigh the costs.

    High-quality preschool programs are one of many possible ways to 
support children's development, and it is important to ask whether the 
benefits from such programs can offset their considerable costs. Cost-
benefit frameworks enable researchers to assess the value of social 
investments.\58\ Key to this technique is a systematic accounting of 
the costs and benefits of an intervention, based on a careful 
comparison of outcomes for those individuals who participated in the 
program and otherwise similar individuals who did not. Early childhood 
education costs refer to all expenditures necessary to provide the 
program, including staff time and capital investments. Benefits 
typically take one of two forms. First, benefits may come from cost 
savings, such as reduced spending for special education and grade 
retention, as well as lower involvement in the child protection, 
welfare, and criminal justice systems. Second, benefits may flow from 
greater economic productivity, especially higher earnings as adults. It 
is also important to note that benefits can accrue not only to the 
individuals who directly participated in preschool programs, but also 
to society (e.g., the value of not being a crime victim). When both 
costs and benefits are quantified, researchers can produce an estimate 
of a program's benefits relative to its costs.
    Rigorous efforts to estimate benefit/cost ratios of preschool have 
yielded very positive results, suggesting that early childhood 
education can be a wise financial investment. Using data on the long-
term life outcomes of program participants and non-participants, 
assessments of the Perry Preschool program \59\ and the Chicago Parent 
Child Centers \60\ both yielded estimates of about 7 to 1 or higher. 
Estimates of the longer and thus more costly Abecedarian Project 
(program length of 5 years) have produced a lower estimate of 
approximately 2.5 to 1.\61\ Other scholars, lacking hard evidence on 
long-term impacts for program participants and non-participants who 
have not yet become adults, have made projections by blending evidence 
on short-term results from the program with evidence on the 
relationship between short-term results and adult outcomes from other 
sources. Such efforts have yielded estimates for universal pre-
Kindergarten programs (available to children from all income groups) 
that range from 3 to 1 to 5 to 1.\62\ The divergence of estimates 
across programs suggests that it may be hard to predict the exact rate 
of return for programs. However, the best current evidence suggests 
that the impact of quality preschool per dollar spent on cognitive and 
achievement outcomes is larger than the average impact of other well-
known educational interventions per dollar spent, such as class-size 
reductions in elementary schools.\63\
    The consistent finding of benefits that substantially exceed 
preschool program costs indicates that high-quality early childhood 
education programs are among the most cost-effective educational 
interventions and are likely to be profitable investments for society 
as a whole.
                                Endnotes
    1. Among the Nation's 3-year-olds, 4 percent attend public pre-
Kindergarten, 8 percent attend Head Start, and 3 percent attend special 
education preschool programs; National Institute on Early Education 
Research (2012). The state of preschool 2012. New Brunswick, NJ: 
Author.
    2. Harvard Center on the Developing Child (2007). The science of 
early childhood development: Closing the gap between what we know and 
what we do. Cambridge, MA: Author.
    3. Blair, C., & Razza, R.P. (2007). Relating effortful control, 
executive function, and false belief understanding to emerging math and 
literacy ability in kindergarten. Child Development, 78, 647-63; Caspi, 
A., Moffitt, T.E., Newman, D.L., & Silva, P.A. (1996). Behavioral 
observations at age 3 years predict adult psychiatric disorders: 
Longitudinal evidence from a birth cohort. Archives of General 
Psychiatry, 53, 1033-39; Duncan, G.J., Dowsett, C.J., Claessens, A., 
Magnuson, K., Huston, A.C., Klebanov, P., . . . & Japel, C. (2007). 
School readiness and later achievement. Developmental Psychology, 43, 
1428-46; Heckman, J.J. (2006). Skill formation and the economics of 
investing in disadvantaged children. Science, 312, 1900-1902; Harvard 
Center on the Developing Child. (2011). The foundations of lifelong 
health are built in early childhood. Cambridge, MA: Author. Shonkoff, 
J.P., Boyce, W.T., & McEwen, B.S. (2009). Neuroscience, molecular 
biology, and the childhood roots of health disparities. JAMA, 301, 
2252-59.
    4. Camilli, G., Vargas, S., Ryan, S., & Barnett, W.S. (2010). Meta-
analysis of the effects of early education interventions on cognitive 
and social development. The Teachers College Record, 112, 579-620. 
Wong, V.C., Cook, T.D., Barnett, W.S., & Jung, K. (2008). An 
effectiveness-based evaluation of five State pre-kindergarten programs. 
Journal of Policy Analysis and Management, 27, 122-54.
    5. Advisory Committee on Head Start Research and Evaluation (2012). 
Advisory committee on Head Start research and evaluation: Final report. 
Washington, DC; Administration for Children and Families; Campbell, 
F.A., Ramey, C.T., Pungello, E., Sparling, J., & Miller-Johnson, S. 
(2002). Early childhood education: Young adult outcomes from the 
Abecedarian project. Applied Developmental Science, 6, 42-57; Duncan, 
G.J., & Magnuson., K. (2013). Investing in preschool programs. Journal 
of Economic Perspectives, 27, 109-32; Leak, J., Duncan, G.J., Li, W., 
Magnuson, K., Schindler, H., & Yoshikawa, H. (2010, March). Is timing 
everything? How early childhood education program impacts vary by 
starting age, program duration and time since the end of the program. 
Paper presented at the Biennial Meeting for the Society for Research on 
Child Development, Montreal, Quebec, Canada; Puma, M., Bell, S., Cook, 
R., Heid, C., & Lopez, M. (2005). Head Start impact study: First year 
findings. Washington, DC.: U.S. Department of Health and Human 
Services, Administration for Children and Families; Reynolds, A.J. 
(2000). Success in early intervention: The Chicago child-parent 
centers. Lincoln, NE: University of Nebraska Press; Schweinhart, L.J., 
Montie, J., Xiang, Z., Barnett, W.S., Belfield, C.R., & Nores, M. 
(2005). Lifetime effects: The HighScope Perry Preschool study through 
age 40. Ypsilanti, MI: HighScope Press.
    6. Gormley, W., Gayer, T., Phillips, D.A., & Dawson, B. (2005). The 
effects of universal pre-k on cognitive development. Developmental 
Psychology, 41, 872-84; Weiland, C., & Yoshikawa, H. (2013). Impacts of 
a pre-kindergarten program on children's mathematics, language, 
literacy, executive function, and emotional skills. Child Development.
    7. For example, positive behaviors showing empathy, cooperation, or 
prosocial orientations, or problem behaviors such as antisocial, 
aggressives, hyperactive, impulsive, withdrawn, depressed, or anxious 
behaviors.
    8. Heckman, J., Pinto, R., & Savelyev, P.A. (2012). Understanding 
the mechanisms through which an influential early childhood program 
boosted adult outcomes (NBER Working Paper No. 18581). Cambridge, MA: 
National Bureau of Economic Research.
    9. Puma, M., Bell, S., Cook, R., Heid, C., & Lopez, M. (2005). Head 
Start impact study: First year findings. Washington, DC.: U.S. 
Department of Health and Human Services, Administration for Children 
and Families.
    10. Gormley, W.T., , Phillips, D.A., Newmark, K., Welti, K., & 
Adelstein, S. (2011). Social-emotional effects of early childhood 
education programs in Tulsa. Child Development, 82, 2095-2109.
    11. Schindler, H.S., Kholoptseva, J., Oh, S.S., Yoshikawa, H., 
Duncan, G.J., & Magnuson, K.A. (2013). Preventing aggression and 
antisocial behaviors through preschool interventions: A meta-analytic 
study. Manuscript in preparation.
    12. Currie, J., & Thomas, D. (1995). Does Head Start make a 
difference? The American Economic Review, 85, 341-64; Ludwig, J., & 
Miller, D.L. (2007). Does Head Start improve children's life chances? 
Evidence from a regression discontinuity design. Quarterly Journal of 
Economics, 122, 159-208.
    13. U.S. Department of Health and Human Services. (2010). Head 
Start impact study: Final report. Washington, DC: Administration for 
Children and Families, Office of Planning, Research and Evaluation.
    14. Arteaga, I.A., Humpage, S., Reynolds, A.J., & Temple, J.A. (in 
press). One year of preschool or two? Is it important for adult 
outcomes? Results from the Chicago Longitudinal Study of the Chicago 
Parent-Child Centers. Economics of Education Review; Magnuson, K., 
Meyers, M., Ruhm, C., & Waldfogel, J. (2004). Inequality in preschool 
education and school readiness. American Educational Research Journal, 
41, 115-57; Phillips, D., & Adams, G. (2001). Child care and our 
youngest children. The Future of Children, 11, 35-51; Reynolds, A.J. 
(1995). One year of preschool intervention or two: Does it matter? 
Early Childhood Research Quarterly, 10, 1-31; Sammons, P., Sylva, K., 
Melhuish, E., Taggart, B., Elliot, K., & Siraj-Blatchford, I. (2002). 
The effective provision of pre-school education (EPPE) project: 
Measuring the impact of pre-school on children's cognitive progress 
over the pre-school period (Vol. 8). London, England: Institute of 
Education, University of London/Department for Education and Skill; 
Tarullo, L., Xue, Y., & Burchinal, M. (2013, April). Are 2 years better 
than one? Examining dosage of Head Start attendees using propensity 
score matching methodology. In A. Madigan (Chair), Does program dosage 
predict outcomes in Head Start and Early Head Start. Symposium 
presented at the Biennial Meeting of the Society for Research in Child 
Development, Seattle, WA.
    15. Burchinal, M., Howes, C., Pianta, R., Bryant, D., Early, D., 
Clifford, R., & Barbarin, O. (2008). Predicting child outcomes at the 
end of kindergarten from the quality of pre-kindergarten teacher-child 
interactions and instruction. Applied Developmental Science, 12, 140-
53.; Burchinal, M., Vandergrift, N., Pianta, R., & Mashburn, A. (2010). 
Threshold analysis of association between child care quality and child 
outcomes for low-income children in pre-kindergarten programs. Early 
Childhood Research Quarterly, 25, 166-76; Early, D.M., Maxwell, K.L., 
Burchinal, M., Alva, S., Bender, R.H., Bryant, D., . . . & Zill, N. 
(2007). Teachers' education, classroom quality, and young children's 
academic skills: Results from seven studies of preschool programs. 
Child Development, 78, 558-80. Zaslow, M., Anderson, R., Redd, Z., 
Wessel, J., Tarullo, L. & Burchinal, M. (2010). Quality dosage, 
thresholds, and features in early childhood settings: A review of the 
literature. OPRE 2011-5. Washington, DC: Office of Planning, Research 
and Evaluation, Administration for Children and Families, U.S. 
Department of Health and Human Services.
    16. Howes, C., Burchinal, M., Pianta, R., Bryant, D., Early, D., 
Clifford, R., & Barbarin, O. (2008). Ready to learn? Children's pre-
academic achievement in pre-kindergarten programs. Early Childhood 
Research Quarterly, 23, 27-50.; Mashburn, A.J., Pianta, R.C., Hamre, 
B.K., Downer, J.T., Barbarin, O.A., Bryant, D., . . . Howes, C. (2008). 
Measures of classroom quality in pre-kindergarten and children's 
development of academic, language, and social skills. Child 
Development, 79, 732-49.
    17. Harvard Center on the Developing Child (2007). A science-based 
framework for early childhood policy. Cambridge, MA: Author; Justice, 
L., Mashburn, A.J., Pence, K., & Wiggins, A. (2008). Experimental 
evaluation of a preschool language curriculum: Effects on classroom 
quality and children's expressive language skills. Journal of Speech, 
Language, and Hearing Research, 51, 1-19; Wasik, B.A., Bond, M.A., & 
Hindman, A.H. (2006). The effects of a language and literacy 
intervention on Head Start children and teachers. Journal of 
Educational Psychology, 98, 63-74.
    18. Burchinal, M.R., Howes, C., Pianta, R., Bryant, D., Early, D., 
Clifford, R., & Barbarin, O. (2008). Predicting child outcomes at the 
end of kindergarten from the quality of pre-kindergarten teacher-child 
interactions and instruction. Applied Developmental Science, 12, 140-
53; Dickinson, D.K., & Porche, M. (2011). Relationship between language 
experiences in preschool classrooms and children's kindergarten and 
fourth grade language and reading abilities. Child Development, 82, 3, 
870-86.; Vandell, D.L., Belsky, J., Burchinal, M., Steinberg, L., 
Vandergrift, N., & NICHD Early Child Care Research Network. (2010). Do 
effects of early child care extend to age 15 years? Child Development, 
81, 737-56.
    19. Burchinal, M.R., Peisner-Feinberg, E., Bryant, D.M., & 
Clifford, R. (2000). Children's social and cognitive development and 
child care quality: Testing for differential associations related to 
poverty, gender, or ethnicity. Applied Developmental Science, 4, 149-
65; Howes, C., Burchinal, M., Pianta, R., Bryant, D., Early, D., 
Clifford, R., & Barbarin, O. (2008). Ready to learn? Children's pre-
academic achievement in pre-kindergarten programs. Early Childhood 
Research Quarterly, 23, 27-50; Love, J.M., Harrison, L., Sagi-Schwartz, 
A., van Ijzendoorn, M.H., Ross, C., Ungerer, J.A., . . . Chazan-Cohen, 
R. (2003). Child care quality matters: How conclusions may vary with 
context. Child Development, 74, 1021-33; Peisner-Feinberg, E., & 
Burchinal, M. (1997). Relations between preschool children's child-care 
experiences and concurrent development: The cost, quality, and outcomes 
study. Merrill-Palmer Quarterly, 43, 451-77; Peisner-Feinberg, E.S., 
Burchinal, M.R., Clifford, R.M., Culkin, M.L., Howes, C., Kagan, S.L., 
& Yazejian, N. (2001). The relation of preschool child-care quality to 
children's cognitive and social development trajectories through second 
grade. Child Development, 72, 1534-53; Sylva, K., Melhuish, E.., 
Sammons, P., Siraj-Blatchford, I., & Taggart, B. (2012). Preschool 
quality and educational outcomes at age 11: Low quality has little 
benefit. Journal of Early Childhood Research, 9, 109-24; Votruba-Drzal, 
E., & Chase-Lansdale, P.L. (2004). Child care and low-income children's 
development: Direct and moderated effects. Child Development, 75, 296-
312.
    20. Mashburn, A.J., Pianta, R.C., Hamre, B.K., Downer, J.T., 
Barbarin, O.A., Bryant, D., & . . . Howes, C. (2008). Measures of 
classroom quality in pre-kindergarten and children's development of 
academic, language, and social skills. Child Development, 79, 732-49. 
Moiduddin, E., Aikens, N., Tarullo, L., West, J., & Xue, Y. (2012). 
Child outcomes and classroom quality in FACES 2009. OPRE Report 2012-
37a. Washington, DC: Office of Planning, Research and Evaluation, 
Administration for Children and Families, U.S. Department of Health and 
Human Services. For example, a study of 692 pre-k classrooms in these 
11 States using the Classroom Assessment Scoring System (CLASS) 
observation of classroom quality found the largest proportion of 
classrooms (31.4 percent) to show a profile involving positive 
emotional climate but only mediocre instructional support. While nearly 
the same proportion of the classrooms combined strong social, 
emotional, and instructional support to children, 18.5 percent of the 
classrooms had a profile involving mediocre emotional climate and low 
instructional support, and 18.8 percent were observed to have poor 
quality overall, lacking in both social and emotional support and 
instructional quality.
    21. Specifically, moderate to large impacts on language, literacy, 
and math outcomes, ranging from several months to an entire year of 
additional learning, relative to comparison groups, in Gormley, W., 
Gayer, T., & Phillips, D.A. (2008). Preschool programs can boost school 
readiness. Science, 320, 1723-24; Gormley, W., Gayer, T., Phillips, 
D.A., & Dawson, B. (2005). The effects of universal pre-k on cognitive 
development. Developmental Psychology, 41, 872-84; Phillips, D., 
Gormley, W.T., & Lowenstein, A. (2009). Inside the pre-kindergarten 
door: Classroom climate and instructional time allocation in Tulsa's 
pre-K programs. Early Childhood Research Quarterly, 24, 213-28.; 
Weiland, C., Ulvestad, K., Sachs, J., & Yoshikawa, H. (2013). 
Associations between classroom quality and children's vocabulary and 
executive function skills in an urban public pre-kindergarten program. 
Early Childhood Research Quarterly, 28, 199-209. Weiland, C., & 
Yoshikawa, H. (2013). Impacts of a pre-kindergarten program on 
children's mathematics, language, literacy, executive function, and 
emotional skills. Child Development. Small to moderate impacts in 
Lipsey, M.W., Hofer, K.G., Dong, N., Farran, D.C., & Bilbrey, C. 
(2013). Evaluation of the Tennessee voluntary pre-kindergarten program: 
End of pre-k results from the randomized control design (Research 
Report). Nashville, TN: Vanderbilt University, Peabody Research 
Institute; Wong, V.C., Cook, T.D., Barnett, W.S., & Jung, K. (2008). An 
effectiveness-based evaluation of five State pre-kindergarten programs. 
Journal of Policy Analysis and Management, 27, 122-54.
    22. Moiduddin, E., Aikens, N., Tarullo, L., West, J., & Xue, Y. 
(2012). Child outcomes and classroom quality in FACES 2009. OPRE Report 
2012-37a. Washington, DC: Office of Planning, Research and Evaluation, 
Administration for Children and Families, U.S. Department of Health and 
Human Services. Total scores using the Early Childhood Environment 
Rating Scale in large samples of pre-k and Head Start show slightly 
higher scores for Head Start than pre-k classrooms. For example, when 
the Early Childhood Environment Rating Scale-Revised was used in a 
sample representative of public pre-k classrooms in four States and of 
specific regions of two additional very large States, the average total 
score was 3.86. The average score on the same measure used in a 
representative sample of Head Start classrooms in 1997 was slightly 
higher. More recent data for a representative sample of Head Start 
programs, though using an abbreviated version of this observational 
measure, showed an average score of 4.3. At the same time, however, 
observations using the CLASS in the 2009 observations of a 
representative sample of Head Start programs clearly show that levels 
of instructional quality were low, as in many studies of public pre-
kindergarten classrooms.
    23. Clements, D.H. (2007). Curriculum research: Toward a framework 
for ``research-based curricula''. Journal for Research in Mathematics 
Education, 38, 35-70.
    24. Bierman, K.L., Domitrovich, C.E., Nix, R.L., Gest, S.D., Welsh, 
J.A., Greenberg, M.T., . . . Gill, S. (2008). Promoting academic and 
social-emotional school readiness: The Head Start REDI program. Child 
Development, 179, 1802-17; Clements, D.H., & Sarama, J. (2007b). 
Effects of a pre-school mathematics curriculum: Summative research on 
the Building Blocks project. Journal for Research in Mathematics 
Education, 38, 136-63; Preschool Curriculum Evaluation Research 
Consortium (2008). Effects of Preschool Curriculum Programs on School 
Readiness (NCER 2008-2009). Washington, DC: National Center for 
Education Research, Institute of Education Sciences, U.S. Department of 
Education. Washington, DC: U.S. Government Printing Office.
    25. Teaching Strategies. (2012). The Creative Curriculum system for 
preschool pilot study: Initial baseline report. Retrieved August 9, 
2013 from http://www.teachingstrategies.com/content/pageDocs/System-
Pilot-Study-Baseline-Report-Layman-4-2012.pdf.
    26. D.H., & Sarama, J. (2008). Enhancing young children's 
mathematical knowledge through a pre-kindergarten mathematics 
intervention. Early Childhood Research Quarterly, 19, 99-120. Clements, 
D.H., & Sarama, J. (2008). Experimental evaluation of the effects of a 
research-based preschool mathematics curriculum. American Educational 
Research Journal, 45, 443-94.
    27. Bierman, K.L., Domitrovich, C.E., Nix, R.L., Gest, S.D., Welsh, 
J.A., Greenberg, M.T., . . . Gill, S. (2008). Promoting academic and 
social-emotional school readiness: The Head Start REDI program. Child 
Development, 179, 1802-17; Fantuzzo, J.W., Gadsden, V.L., & McDermott, 
P.A. (2011). An integrated curriculum to improve mathematics, language, 
and literacy for Head Start children. American Educational Research 
Journal, 48, 763-93; Farver, J.M., Lonigan, C.J., & Eppe, S. (2009). 
Effective early literacy skill development for young Spanish-speaking 
English language learners: An experimental study of two methods. Child 
Development, 80, 703-19; Landry, S.H., Anthony, J.L., Swank, P.R., & 
Monseque-Bailey, P. (2009). Effectiveness of comprehensive professional 
development for teachers of at-risk preschoolers. Journal of 
Educational Psychology, 101, 448-65; Lonigan, C.J., Farver, J.M., 
Phillips, B.M., & Clancy-Menchetti, J. (2011). Promoting the 
development of preschool children's emergent literacy skills: A 
randomized evaluation of a literacy-focused curriculum and two 
professional development models. Reading and Writing, 24, 305-37; 
Neuman, S.B., & Cunningham, L. (2009). The impact of professional 
development and coaching on early language and literacy practices. 
American Educational Research Journal, 46, 532-66; Powell, D.R., 
Diamond, K.E., Burchinal, M.R., & Koehler, M.J. (2010). Effects of an 
early literacy professional development intervention on Head Start 
teachers and children. Journal of Educational Psychology, 102, 299-312; 
Preschool Curriculum Evaluation Research Consortium (2008). Effects of 
Preschool Curriculum Programs on School Readiness (NCER 2008-2009). 
Washington, DC: National Center for Education Research, Institute of 
Education Sciences, U.S. Department of Education. Washington, DC: U.S. 
Government Printing Office; Wasik, B.A., Bond, M.A., & Hindman, A.H. 
(2006). The effects of a language and literacy intervention on Head 
Start children and teachers. Journal of Educational Psychology, 98, 63-
74; Whitehurst, G.J., Zevenbergen, A.A., Crone, D.A., Schultz, M.D., 
Velting, O.N., & Fischel, J.E. (1999). Outcomes of an emergent literacy 
intervention from Head Start through second grade. Journal of 
Educational Psychology, 91, 261-72.
    28. Bierman, K.L., Domitrovich, C.E., Nix, R.L., Gest, S.D., Welsh, 
J.A., Greenberg, M.T., . . . Gill, S. (2008). Promoting academic and 
social-emotional school readiness: The Head Start REDI program. Child 
Development, 179, 1802-17; Raver, C.C., Jones, S.M., Li-Grining, C.P., 
Zhai, F., Metzger, M., & Solomon, B. (2009). Targeting children's 
behavior problems in preschool classrooms: A cluster-randomized 
controlled trial. Journal of Consulting and Clinical Psychology, 77, 
302-16; Riggs, N.R., Greenberg, M.T., Kusche, C.A., & Pentz, M.A. 
(2006). The mediational role of neurocognition in the behavioral 
outcomes of a social-emotional prevention program in elementary school 
students: Effects of the PATHS curriculum. Prevention Science, 7, 91-
102.
    29. Advisory Committee on Head Start Research and Evaluation 
(2012). Advisory Committee on Head Start Research and Evaluation: Final 
Report. Washington, DC; Administration for Children and Families; 
Lonigan, C.J., Farver, J.M., Phillips, B.M., & Clancy-Menchetti, J. 
(2011). Promoting the development of preschool children's emergent 
literacy skills: A randomized evaluation of a literacy-focused 
curriculum and two professional development models. Reading and 
Writing, 24, 305-37.
    30. Clements, D.H., Sarama, J., Farran, D.C., Lipsey, M.W., Hofer, 
K.G., & Bilbrey, C. (2011, March). An examination of the Building 
Blocks math curriculum: Results of a longitudinal scale-up study. In K. 
G. Hofer (Chair), The Effects of Pre-kindergarten and Pre-kindergarten 
Curricula on Emergent Math and Literacy Skills. Symposium conducted at 
the Annual Conference of the Society for Research on Educational 
Effectiveness, Washington, DC.; Weiland, C., & Yoshikawa, H. (2013). 
Impacts of a pre-kindergarten program on children's mathematics, 
language, literacy, executive function, and emotional skills. Child 
Development.
    31. Durlak, J.A., & Dupre, E.P. (2008). Implementation matters: A 
review of research on the influence of implementation on program 
outcomes and the factors affecting the implementation. American Journal 
of Community Psychology, 41, 327-50; Granger, R.C. (2010). Improving 
practice at scale. William T. Grant Foundation 2009 Annual Report. New 
York: William T. Grant Foundation.
    32. E.g., language and socio-emotional development in Bierman, 
K.L., Domitrovich, C.E., Nix, R.L., Gest, S.D., Welsh, J.A., Greenberg, 
M.T., . . . Gill, S. (2008). Promoting academic and social-emotional 
school readiness: The Head Start REDI program. Child Development, 179, 
1802-17; language and math in Weiland, C., & Yoshikawa, H. (2013). 
Impacts of a pre-kindergarten program on children's mathematics, 
language, literacy, executive function, and emotional skills. Child 
Development. In addition, widely used curricula that have in the past 
taken more of a global approach are now developing more sequenced and 
intensive versions (e.g., the Creative Curriculum). These have yet to 
be assessed in rigorous impact evaluations.
    33. Horm, D.M., Hyson, M., & Winton, P.J. (2013). Research on early 
childhood teacher education: Evidence from three domains and 
recommendations for moving forward. Journal of Early Childhood Teacher 
Education, 34, 95-112; Whitebook, M., Austin, L.J., Ryan, S., Kipnis, 
F., Almaraz, M., & Sakai, L. (2012). By default or by design? 
Variations in higher education programs for early care and education 
teachers and their implications for research methodology. Berkeley, CA: 
Center for the Study of Child Care Employment.
    34. A recent meta-analysis of ECE programs over the last five 
decades showed that the rate of declines in effect size for cognitive 
and achievement outcomes averaged .03 effect size a year after end of 
program. This means that the average post-test effect size on these 
outcomes of .35 would be reduced to .10 after roughly 8 years. If a 
program results in a larger gain than .35, then this analysis suggests 
that the continuing gains are larger as well. Leak, J., Duncan, G.J., 
Li, W., Magnuson, K., Schindler, H., & Yoshikawa, H. (2010, March). Is 
timing everything? How early childhood education program impacts vary 
by starting age, program duration and time since the end of the 
program. Paper presented at the Biennial Meeting for the Society for 
Research on Child Development, Montreal, Quebec, Canada.
    35. Magnuson, K., Ruhm, C., & Waldfogel, J. (2007). The persistence 
of preschool effects: Do subsequent classroom experiences matter? Early 
Childhood Research Quarterly, 22, 18-38. Zhai, F., Raver, C.C., & 
Jones, S.M. (2012). Quality of subsequent schools and impacts of early 
interventions: Evidence from a randomized controlled trial in Head 
Start settings. Children and Youth Services Review, 34, 946-54. Another 
possibility is that in aiming for third grade test scores, early 
elementary school teachers may be focusing especially strongly on those 
children who do not have strong initial skills. Research to clarify and 
distinguish among multiple possibilities will make a valuable 
contribution.
    36. Campbell, F.A., Ramey, C.T., Pungello, E., Sparling, J., & 
Miller-Johnson, S. (2002). Early childhood education: Young adult 
outcomes from the Abecedarian project. Applied Developmental Science, 
6, 42-57; Heckman, J.J., Moon, S.H., Pinto, R., Savelyev, P.A., & 
Yavitz, A. (2010). The rate of return to the HighScope Perry Preschool 
Program. Journal of Public Economics, 94, 114-28; Schweinhart, L.J., 
Barnett, W.S., & Belfield, C.R. (2005). Lifetime effects: The High/
Scope Perry Preschool Study through age 40. Ypsilanti, MI: High/Scope 
Press.
    37. Belfield, C.R., Nores, M., Barnett, W.S., & Schweinhart, L.J. 
(2006). The High/Scope Perry Preschool Program: Cost-benefit analysis 
using data from the age-40 followup. Journal of Human Resources, 41, 
162-90.
    38. Campbell, F.A., Ramey, C.T., Pungello, E., Sparling, J., & 
Miller-Johnson, S. (2002). Early childhood education: Young adult 
outcomes from the Abecedarian project. Applied Developmental Science, 
6, 42-57.
    39. Deming, D. (2009). Early childhood intervention and life-cycle 
skill development: Evidence from Head Start. American Economic Journal: 
Applied Economics, 1, 111-34; Garces, E., Currie, J., & Thomas, D. 
(2002). Longer term effects of Head Start. The American Economic 
Review, 92, 999-1012; Johnson, R. (2013). School quality and the long-
run effects of Head Start. Manuscript in preparation; Ludwig, J., & 
Miller, D.L. (2007). Does Head Start improve children's life chances? 
Evidence from a regression discontinuity design. Quarterly Journal of 
Economics, 122, 159-208.
    40. Hill, C., Gormley, W., & Adelstein, S, (2012). Do the short-
term effects of a strong preschool program persist? Center for Research 
on Children in the United States, Working Paper # 18.
    41. Lipsey, M.W., Hofer, K.G., Dong, N., Farran, D.C., & Bilbrey, 
C. (2013). Evaluation of the Tennessee voluntary pre-kindergarten 
program: Kindergarten and first grade followup results from the 
randomized control design. Nashville, TN: Vanderbilt University, 
Peabody Research Institute.
    42. Fisher, P.A., Gunnar, M.R., Dozier, M., Bruce, J., & Pears, 
K.C. (2006). Effects of therapeutic interventions for foster children 
on behavioral problems, caregiver attachment, and stress regulatory 
neural systems. Annals of the New York Academy of Sciences, 1094, 215-
25; Landry, S.H., Smith, K.E., Swank, P.R., & Guttentag, C. (2008). A 
responsive parenting intervention: The optimal timing across early 
childhood for impacting maternal behaviors and child outcomes. 
Developmental Psychology, 44, 1335-53.
    43. Grindal, T., Bowne, J., Yoshikawa, H., Duncan, G.J., Magnuson, 
K.A., & Schindler, H. (2013). The added impact of parenting education 
in early childhood education programs: A meta-analysis. Manuscript in 
revise and resubmit.
    44. Ascend at the Aspen Institute (2012). Two Generations, One 
Future: Moving Parents and Children Beyond Poverty Together. 
Washington, DC: The Aspen Institute; Chase-Lansdale, P.L., & Brooks-
Gunn, J. (in press). Two-generation programs in the 21st century. The 
Future of Children.
    45. Leak, J., Duncan, G.J., Li, W., Magnuson, K., Schindler, H., & 
Yoshikawa, H. (2010, March). Is timing everything? How early childhood 
education program impacts vary by starting age, program duration and 
time since the end of the program. Paper presented at the Biennial 
Meeting for the Society for Research on Child Development, Montreal, 
Quebec, Canada.
    46. Larsen, J.M., & Robinson, C.C. (1989). Later effects of 
preschool on low-risk children. Early Childhood Research Quarterly, 4, 
133-44.
    47. In Tulsa, OK, across multiple cohorts of students, researchers 
found substantial benefits from pre-kindergarten participation for 
children from poor (free lunch; up to 130 percent of the Federal 
poverty line), near-poor (reduced-price lunch; 130 percent-185 percent 
of the poverty line), and middle-class (full-price lunch; >185 percent 
of the poverty line) families. The studies on these cohorts used a 
rigorous regression-discontinuity design, taking advantage of a long-
standing age-cutoff requirement to enter the program in a particular 
year. In 2003 and 2006, positive effects on children's language, 
literacy, and mathematics skills were higher for free-lunch students 
than for ineligible students but statistically and substantively 
significant for both. In 2006, children from poor families entering 
kindergarten were 11 months ahead, children from near-poor families 
entering kindergarten were 10 months ahead, and children from middle-
class families entering kindergarten were 7 months ahead of the control 
group (test scores for the treatment group and the control group were 
converted into age-equivalent test scores, using national norms from 
the Woodock-Johnson Test). Gormley, W., Gayer, T., & Phillips, D.A. 
(2008). Preschool programs can boost school readiness. Science, 320, 
1723-24; Gormley, W., Gayer, T., Phillips, D.A., & Dawson, B. (2005). 
The effects of universal pre-k on cognitive development. Developmental 
Psychology, 41, 872-84. In Boston, MA, researchers also used a 
regression discontinuity design and found that both children eligible 
for free/reduced-price lunch and more middle-class children improved 
their language, literacy, and mathematics outcomes, emotional 
development, and some executive functioning outcomes as a result of 
pre-K. Impacts were statistically significantly larger on some 
assessments for children from low-income families. Weiland, C., & 
Yoshikawa, H. (2013). Impacts of a pre-kindergarten program on 
children's mathematics, language, literacy, executive function, and 
emotional skills. Child Development.
    48. These were statistically significant differences in impacts 
across these groups. U.S. Department of Health and Human Services. 
(2010). Head Start Impact Study: Final report. Washington, DC: 
Administration for Children and Families, Office of Planning, Research 
and Evaluation.
    49. Gormley, W., Gayer, T., Phillips, D.A., & Dawson, B. (2005). 
The effects of universal pre-k on cognitive development. Developmental 
Psychology, 41, 872-84, p. 880.
    50. Weiland, C., & Yoshikawa, H. (2013). Impacts of a pre-
kindergarten program on children's mathematics, language, literacy, 
executive function, and emotional skills. Child Development, p. 11.
    51. The term ``dual language learners'' (DLLs) is used to refer to 
children learning more than one language in the home and ECE settings 
during the early childhood years (ages 0-5); other terms, such as 
English (LEP), English Learners (ELs), Non-English speaking (NES), 
English as a second language (ESL), and Bilinguals are used to refer to 
children in grades K-12 who are learning English in addition to a home 
language.
    52. Magnuson, K., Lahaie, C., & Waldfogel, J. (2006). Preschool and 
school readiness of children of immigrants. Social Science Quarterly, 
87, 1241-62.
    53. Tests were conducted in English; Gormley, W.T. The effects of 
Oklahoma's pre-k program on Hispanic children. Social Science 
Quarterly, 89, 916-36, p. 928.
    54. Barnett, W.S., Yaroz, D.J., Thomas, J., Jung, K., & Blanco, D. 
(2007). Two-way immersion in preschool education: An experimental 
comparison. Early Childhood Research Quarterly, 22, 277-93; Duran, 
L.K., Roseth, C.J., & Hoffman, P. (2010). An experimental study 
comparing English-only and transitional bilingual education on Spanish-
speaking preschoolers' early literacy development. Early Childhood 
Research Quarterly, 25, 207-17. Winsler, A., Diaz, R.M., Espinosa, L., 
& Rodriguez, J.L. (1999) When learning a second language does not mean 
losing the first: Bilingual language development in low-income, 
Spanish-speaking children attending bilingual preschool. Child 
Development, 70, 349-62.
    55. Goldenberg, C. (2012). Research on English Learner instruction. 
In M. Calderon (Ed.), Breaking through: Effective instruction & 
assessment for reaching English Learners (PP. 39-61). Bloomington, IN: 
Solution Tree Press; Slavin, R., Madden, N., Calderon, M., Chamberlain, 
A., & Hennessy, M. (2011). Reading and language outcomes of a multiyear 
randomized evaluation of transitional bilingual education. Educational 
Evaluation and Policy Analysis, 33, 47-58.
    56. Bialystok, E. (2001). Bilingualism in development: Language, 
literacy, & cognition. New York: Cambridge University Press; Saiz, A., 
& Zoido, E. (2005). Listening to what the world says: Bilingualism and 
earnings in the United States. Review of Economics and Statistics, 87, 
523-38.
    57. Phillips, D., & Meloy, E. (2012). High-quality school-based 
pre-k can boost early learning for children with special needs. 
Exceptional Children, 78, 471-90; U.S. Department of Health and Human 
Services. (2010). Head Start Impact Study: Final report, executive 
summary. Washington, DC: Administration for Children and Families, 
Office of Planning, Research and Evaluation, p.xxiv.
    58. Gramlich, E. (1998). A guide to benefit-cost analysis, 2d 
edition. Prospects Heights, IL.: Waveland Press.; Weimer, D., & Vining, 
A. (2011). Policy analysis: Concepts and practice, 5th edition.  
Boston: Longman.
    59. Heckman, J.J., Moon, S.H., Pinto, R., Savelyev, P.A., & Yavitz, 
A. (2010). The rate of return to the HighScope Perry Preschool Program. 
Journal of Public Economics, 94, 114-28
    60. Reynolds, A.J., Temple, J.A., Robertson, D.L., & Mann, E.A. 
(2002). Age 21 cost-benefit analysis of the Title I Chicago Child-
Parent Centers. Educational Evaluation and Policy Analysis, 24, 267-
303; Reynolds, A.J. Temple, J.A., White, B., Ou, S., & Robertson, D.L. 
(2011). Age-26 cost-benefit analysis of the Child-Parent Center Early 
Education Program. Child Development, 82, 379-404.
    61. Barnett, W.S., & Massie, L. (2007). Comparative benefit-cost 
analysis of the Abecedarian program and its policy implications. 
Economics of Education Review, 26, 113-25.
    62. Bartik, T., Gormley, W.T., & Adelstein, S. (2012). Earnings 
benefits of Tulsa's pre-k program for different income groups. 
Economics of Education Review, 31, 1143-61; Karoly, L., & Bigelow, J. 
(2005). The economics of investing in universal preschool education in 
California. Santa Monica, CA: RAND Corporation; Southern Education 
Foundation. (2011). The promise of Georgia pre-k. Atlanta, GA: Author.
    63. Bartik, T., Gormley, W.T., & Adelstein, S. (2012). Earnings 
benefits of Tulsa's pre-k program for different income groups. 
Economics of Education Review, 31, 1143-61; Borman, G.D., Hewes, G.M., 
Overman, L.T., & Brown, S. (2003). Comprehensive school reform and 
achievement: A meta-analysis. Review of educational research, 73, 125-
230; Heckman, J.J., Moon, S.H., Pinto, R., Savelyev, P.A., & Yavitz, A. 
(2010). The rate of return to the HighScope Perry Preschool program. 
Journal of Public Economics, 94, 114-28; Karoly, L.A., Kilburn, M.R., & 
Cannon, J.S. (2005). Early childhood interventions: Proven results, 
future promise. Santa Monica, CA: RAND Corporation; Krueger, A.B. 
(1999). Experimental estimates of education production functions. The 
Quarterly Journal of Economics, 114, 497-532.

    The Chairman. Thank you, Dr. Yoshikawa.
    Now we'll turn to Mr. White.
    Please proceed.

  STATEMENT OF JOHN WHITE, STATE SUPERINTENDENT FOR LOUISIANA 
            DEPARTMENT OF EDUCATION, BATON ROUGE, LA

    Mr. White. Thank you. Chairman Harkin, Senator Alexander, 
and members of the committee, I thank you for the opportunity 
to speak with you today.
    Early education can be life-changing for low-income 
children when it is done well and when quality is sustained in 
the grades that follow. In our State, we believe it is our 
responsibility, therefore, both to ensure that these options 
exist for families and to ensure that those supported with 
taxpayer dollars meet a minimum bar for quality.
    In Louisiana, we believe that a quality education must be 
fostered by conditions in which quality thrives--high 
expectations, parental choice, skilled teachers. At present, 
the most prohibitive barrier in our State to achieving these 
conditions for young learners is the fragmentation of the early 
childhood education system.
    Amidst a disjointed collage of early education programs and 
funding streams exist widely varying minimum standards for 
quality. Teachers' own educational backgrounds vary 
significantly from one program to the next. Professional 
development is a fact of life in some and nearly unheard of in 
others. And in almost every case, there is no requirement to 
coordinate the number of seats offered or the process by which 
parents choose those offers.
    This fragmentation has a real impact on the development of 
children. In Louisiana, 46 percent of kindergartners start the 
year requiring intensive support in literacy. Tracing those 
kindergarten numbers back to 4-year-olds shows not only that 
children not enrolled as 4-year-olds suffer great deficits, but 
also that we have wide disparities in the extent to which early 
childhood centers are equipping those children who are enrolled 
as 4-year-olds with fundamental literacy skills.
    In early 2012, our State set out to solve these issues of 
fragmentation. That year, Governor Bobby Jindal signed into law 
Act 3 calling for the creation of a statewide early childhood 
network bringing child care, Head Start, publicly funded pre-
kindergarten, and publicly funded private pre-kindergarten 
under one system of enrollment, one system of minimum academic 
standards, and teacher preparation. Next and equally important, 
Act 3 called on the State board of education to take on the 
licensure of all programs involved in the fragmented collage.
    In implementing Act 3, we realized two humbling but 
important lessons. First, each program's funding levels, 
teacher qualification requirements, and academic standards were 
tightly bound together. We could not raise one to a minimum 
standard without addressing the other. Next, the complexity of 
addressing these interconnected policies was compounded by the 
diversity of local settings in which these policies played out.
    We thus called on communities to develop pilot networks of 
all program types around a set of core principles: unified 
enrollment and access for families; minimum academic and 
developmental standards, birth through five; and a basic 
standard of teacher effectiveness with equal access to 
professional development for teachers in all programs.
    In the time since, the networks have instituted shared 
academic and developmental expectations in every classroom 
involved. They use the Teaching Strategies Gold assessment to 
measure child developmental progress. They use the CLASS 
evaluation system of child-teacher interaction to improve 
teacher practice.
    Likewise, the networks have identified the number of 
children ages 0 to 5 who are eligible for publicly funded 
services in their parish. This year, they will collaborate in 
their admissions processes, offering parents unified 
applications to all programs along with coordinated outreach 
efforts to parents. This means that parents will have clear, 
comparable information in making their choices among all 
programs.
    Having measured local families' demand for early childhood 
services, we're able to establish cost and revenue models for 
providing quality services in all programs. We can now set into 
motion changes to early childhood funding that would come into 
effect on the same timeline as would changes in teacher 
certification requirements.
    The Federal Government can assist States like ours greatly 
in two ways. Congress can first support the growth of State-run 
programs that foster parental choice, minimum standards for 
teacher preparation, minimum quality expectations, and 
accountability when taking the public dollar. The subsidies in 
our State and most others are not yet adequate, not just to 
make choices available to parents, but also to provide for the 
conditions of quality choices.
    Second, Congress can address the Federal Government's 
greater contribution to the fragmentation I described, Head 
Start and its regulations. That $120 million of Federal funding 
annually skirts State-level input in Louisiana and virtually 
institutionalizes fragmented governance. States should have the 
opportunity to be Head Start grantees. In making this change, 
you will endorse the idea that families and taxpayers need not 
only greater access to early learning programs, but also a 
rational basis for choosing among those programs and a faith 
that government funding comes with a basic expectation of 
quality.
    I thank you once again, Mr. Chairman and members of the 
committee, and I look forward to answering whatever questions 
you may have for me.
    [The prepared statement of Mr. White follows:]
                    Prepared Statement of John White
    Chairman Harkin, Senator Alexander, members of the committee, I 
thank you for the opportunity to speak with you today. Louisiana's 
story reflects both the opportunities and the challenges in providing 
families access to quality early childhood care and education. A choice 
among quality early childhood options, especially for the most 
disadvantaged, while not a panacea for all challenges, is among the 
most effective tools we have for preparing children and parents alike 
for the challenges of the 21st century, and we must update our old ways 
to meet with this reality.
    Our State knows its fair share of challenges. Two thirds of the 
700,000 public school students in Louisiana receive federally 
subsidized lunches. Thirty-one percent of Louisiana's children live in 
poverty.
    Louisianans know, however, that for our State's prosperity, and for 
the rights of our people to partake of the American dream, we cannot 
let these challenges pre-determine our children's destinies. We have 
committed to making our education system one that offers opportunity to 
the next generation, and the results are encouraging. Louisiana 
students graduate at a rate 12 percent higher than just a decade ago. 
New Orleans, once the lowest performing school district in our State, 
now tops the State's average high school graduation rate and, among 
African-Americans, tops the national average. In 2013 nearly 4,000 more 
Louisiana seniors than in 2012 achieved a college-going ACT score. And 
last year, Louisiana was the fastest growing State in the Nation in 
Advanced Placement participation and test passage.
    Part of the reason for this progress is Louisiana's creation of 
State-funded pre-kindergarten programs, the ``LA4'' public school 
program and the Nonpublic Early Childhood Development Program (NSECD) 
private school program. Through a mix of State and Federal funds, LA4 
and NSECD have served more than 100,000 4-year-old children since their 
inceptions. A University of Louisiana study recently validated that 
low-income students participating in these programs have shown 
significant, positive results through the 8th grade in not just 
literacy rates but also rates of student retention and special 
education referral.
    Often the debate over investing in early childhood education comes 
down to study against study, each claiming an absolute truth about the 
effectiveness of an initiative that spans hundreds of thousands of 
young lives in disparate settings. I think--and our State proves--that 
it's time we get beyond this debate. Early education can be life 
changing for low-income children when it is done well, and when quality 
is sustained in the grades that follow. Done poorly, like anything 
else, its effects are limited. But done well, it is a potent arrow in 
the quivers of those fighting the effects of inequality and poverty.
    It is therefore our responsibility, at the State and Federal level, 
both to ensure that those options exist for families, and to ensure 
that those we support with taxpayer dollars meet a minimum bar of 
quality.
    In Louisiana, we believe promoting quality schooling starts with 
fostering an environment in which quality thrives: high expectations 
for student achievement and progress; parents who are able to choose 
the school option best suited for their children; and knowledgeable, 
skilled teachers who continue to learn and grow throughout their 
careers. We also know that if we are to offer quality choices 
accessible to all parents who seek them, we need simple, accessible 
enrollment processes and coordinated planning across often disconnected 
funding streams.
    Government should be modest in its ambitions to influence the 
choices of parents and teachers, but government plays an important role 
in assuring these basic conditions for quality and for access.
    The greatest barrier to achieving these conditions--no less than 
financial resources themselves--is the fragmentation of our country's 
early childhood education system. Consider that LA4, for all of its 
successes, serves fewer than 40 percent of low-income 4-year-olds in 
Louisiana. Districts use title I and State constitutional funds to 
provide another 25 percent of 4-year-olds with pre-kindergarten 
education. Head Start likewise serves 20 percent of 4-year-olds. 
Publicly funded child care centers and publicly funded NSECD private 
schools serve another 10 percent. A final 5 percent of 4-year-olds are 
not enrolled in any program.
    Amidst this collage of education providers, governance structures, 
and funding streams are multiple definitions of a minimum standard of 
classroom quality and multiple sets of regulations determining how 
classrooms operate, including those imposed by the Federal Government 
through Head Start, which I will address toward the end of my 
testimony. Teachers' own educational backgrounds vary significantly; 
some programs require not even a high school degree, others full 
certification. Professional development is a fact of life in some, 
nearly unheard of in others. And in almost every case, there is no 
requirement to coordinate the number of seats offered or the process by 
which parents choose to enroll. While one center could have a mile-long 
waiting list, another nearby center could be enrolling families at only 
half of its capacity and never have access to families whose children 
are waiting at home for a wait list elsewhere to clear.
    This fragmentation affects not only access but also quality. In 
Louisiana, we assess every kindergartner at the start of the school 
year for basic literacy skills. In spite of great progress, today 46 
percent of kindergartners start the year requiring ``intensive 
support'' in literacy, the lowest score possible. Tracking those 
kindergarten numbers back to 4-year-old settings shows that we have 
wide disparities in the extent to which centers are equipping children 
with fundamental literacy skills.
    Much as we have a challenge of fragmented access, we have an even 
greater challenge of fragmented effectiveness. That's not the fault of 
any one program or group. And it is not uncommon among States. But it 
is solvable, starting with ending the fragmentation that has 
characterized early childhood education governance for decades.
    In early 2012, our State set out to do just that. That year 
Governor Bobby Jindal signed into law Act 3, passed unanimously by both 
houses of our State's legislature, calling on our State board of 
elementary and secondary education to take two steps.
    First was the creation of a statewide early childhood network, 
bringing child care, Head Start, publicly funded private pre-schools, 
and public school pre-kindergartens under one system of enrollment, 
minimum academic standards, and teacher preparation. Next, and equally 
important, the legislature called on the State board to itself take on 
the governance of all programs involved in the fragmented collage and 
to assume responsibility for licensing organizations of all types that 
provide publicly funded early childhood services. Act 3 called for both 
mandates to be fully implemented across every parish in Louisiana by 
the 2015-16 school year.
    In implementing Act 3, we realized early two humbling but important 
lessons. First, each program's funding levels, teacher qualification 
requirements, and academic standards were tightly bound together. We 
could not bring one up to a minimum standard without addressing the 
others. Next, the complexity of changing these interconnected policies 
was compounded by the diversity of local settings in which the policies 
played out: from the urban streets of New Orleans and Shreveport to the 
distant woods and bayous of our rural parishes.
    The statewide network, we determined, would actually have to be 
comprised of dozens of local networks. And it would take multiple years 
to navigate the maze of funding, staffing, and academic requirements, 
bringing each to a consistent, minimum standard.
    We decided that year to start by calling on the most committed 
among our communities to develop pilot networks of local providers 
around a set of core principles: unified enrollment and access for 
families; minimum academic and developmental standards, birth through 
five, with shared measurement of child development to guide the way; 
and a basic standard of teacher effectiveness with equal access to 
professional development for teachers in all program types. Each 
network was to include local school systems, local Head Start grantees, 
and multiple child care providers and private schools. We identified a 
local organization--a school system or a non-profit organization, most 
typically--to coordinate the network, and we began to develop the core 
functions of an Early Childhood Network, place by place. As we learned 
how it worked on the ground, we reasoned, we would return to the 
legislature and State board to make statewide policy on issues of 
funding, certification, and licensure.
    Seventeen of our sixty-nine school systems were selected to 
participate in this first round of pilots. Another 15 are scheduled to 
join this spring. In the time since they have started, the networks 
have instituted shared academic and developmental expectations in every 
classroom involved. They use the Teaching Strategies Gold assessment to 
define developmental expectations and progress. They also use the 
Classroom Assessment Scoring System (CLASS) evaluation of child-teacher 
interaction to improve professional practice and to establish a shared 
language among professionals teaching in different programs. As a 
result, teachers in child care and Head Start programs are starting to 
regularly observe and be observed by teachers in private and public 
pre-kindergartens.
    Likewise, the networks have taken responsibility for identifying 
the number of children ages 0 to 5 who are eligible for publicly funded 
education in their parishes, a large and important gap in such a 
fragmented system. This year they will collaborate in their admissions 
processes, offering parents unified applications to all programs, along 
with coordinated outreach efforts. In their second year, networks will 
go further, identifying enrollment targets for every school and center 
and operating a fully unified enrollment process. This means that 
parents will have clear, comparable information in making choices and, 
rather than driving from center to center hoping for a spot, will be 
able to rank all choices in one application. Coordination will enhance 
parental choice.
    At the State level, we are able to learn from the networks prior to 
crafting statewide policy. Act 3 allows for a rolling policymaking 
process where the State works directly with practitioners to implement, 
and then returns to the State board and the legislature to make policy 
once we feel comfortable our conclusions are validated by work in the 
field.
    While it has long been our vision to establish a higher minimum 
standard for the education backgrounds of our educators, for example, 
we knew early on that this would come at a cost and would have to 
accompany a change in funding. But we did not know then, for example, 
whether the fragmented system was offering too many unused seats or 
offered too few seats given the number of families eligible. Only after 
working with our pilot regions have we been able to create cost and 
revenue modelsindicating the funds needed for every child to have a 
teacher with at least an associate's or bachelor's degree. We can now 
set in motion changes to early childhood funding that would come into 
effect on the same timeline as would changes in teacher certification 
requirements. Likewise, in the year to come we plan to codify in law 
this coordinated local governance structure, giving diverse providers a 
voice in local enrollment plans. And we will establish licensure 
standards that incorporate a center's ability to promote child 
development and kindergarten readiness. These steps are aimed at 
gradually closing the gaps of our State's fragmented early childhood 
system so that we can offer parents a choice of providers and a 
guarantee of a minimum standard of quality.
    The Federal Government should maintain a modest role in this 
process. But it can assist States greatly in two ways. Congress can 
first support the growth of State-run programs that foster parental 
choice, minimum standards for teacher preparation, minimum quality 
expectations, and accountability when taking the public dollar. Second, 
Congress can address governance of the Federal Government's greatest 
contribution to the fragmentation, Head Start. While we are thrilled at 
the restoration of Head Start funding in the most recently passed 
budget, and while we appreciate greatly the contributions of 
Louisiana's Head Start providers, that $120 million of Federal funding 
annually skirts State-level input in Louisiana virtually 
institutionalizes fragmentation and guarantees incoherence in access 
and quality for parents, teachers, and children alike. States that 
adopt strategies rooted in quality and access, eliminating 
redundancies, making all programs accessible to parents, and defining a 
minimum standard of quality, should have the opportunity to be Head 
Start grantees, to bring family eligibility and center operating 
requirements into line with expectations across the State's network, 
and to maximize Head Start dollars for families choosing such programs. 
In doing this, you will send a strong signal that families and 
taxpayers need not only greater access to early learning programs but 
also a rational basis for choosing among those programs and a faith 
that government funding comes with a basic expectation of quality.
    I thank you once again, Mr. Chairman and members of the committee, 
for the opportunity to discuss these important issues, and I look 
forward to answering whatever questions you might have for me.

    The Chairman. Very good. Thank you very much, Mr. White.
    Now we'll turn to Ms. Ewen.

  STATEMENT OF DANIELLE EWEN, DIRECTOR OF THE OFFICE OF EARLY 
   CHILDHOOD EDUCATION, DISTRICT OF COLUMBIA PUBLIC SCHOOLS, 
                         WASHINGTON, DC

    Ms. Ewen. Senator Harkin, Senator Alexander, and members of 
the committee, thank you for inviting me to present information 
today about the innovative approach to early childhood in place 
in the District of Columbia's public schools.
    The growth of high-quality early childhood programs in DCPS 
and across the district is due to the leadership of Mayor 
Vincent Gray and Chancellor Kaya Henderson. Both have shown 
tremendous vision and dedication to ensure that young children 
at risk of school failure have access to the resources and 
supports they need to be successful.
    I want to tell you the story of what we've done and share 
our results. In 2008, faced with declining graduation rates, 
low reading proficiency scores, large numbers of children 
living in homelessness and in poverty and near poverty, as well 
as a growth in the number of children with special needs and a 
rising number of children in language minority households, the 
city council and the mayor convened a working group to identify 
real solutions that could improve outcomes for all of our 
students.
    The working group noted that high-quality early childhood 
programs can have significant benefits, but also that many 
children in DC who could benefit from these programs did not 
have access to them due to lack of space or ineligibility for 
Federal programs. As a result, the city passed the Pre-K 
Enhancement and Expansion Act in 2008 mandating universal pre-K 
for 3-year-olds and 4-year-olds.
    This act extended the school funding formula to 3-year-olds 
and established a goal of making high-quality pre-K universally 
available within 5 years. Traditional public and charter 
schools began to incorporate 3- and 4-year-olds into their 
school plans to create 2-year early childhood programs. The act 
also invested in community-based providers as another component 
of universal access.
    According to the National Institute for Early Education 
research, more than 90 percent of 4-year-olds and nearly 70 
percent of 3-year-olds are now enrolled in pre-K in the 
district. There is an early childhood classroom in every 
District of Columbia Public Schools elementary school, meeting 
high-quality standards, including bachelor's degree teachers.
    As a city, we have met our goal of universal access for 3- 
and 4-year-olds with families having a choice of traditional 
public schools, charter schools, or community-based providers. 
For us in DCPS, the implementation of the act was a critical 
turning point in our efforts to improve outcomes for our 
children, allowing us to ensure that those most at risk for 
school failure receive a comprehensive array of services to 
meet their needs, both for high-quality educational 
opportunities and for supports for healthy development.
    We are now the largest single provider of services for 3- 
and 4-year-olds in DC. We achieved this through a partnership. 
In 2010, DCPS had many Head Start eligible families and other 
students needing early childhood education who we just could 
not serve. We designed a blended Head Start model to expand 
access and quality.
    The Head Start model, like many blended funding models in 
school districts and community-based programs around the 
country, combines Head Start funds with local funding. The 
local dollars pay for teachers, aids, and other infrastructure 
costs, while the Head Start funds allow us to provide 
comprehensive supports to all families and coaching and other 
professional development for every teacher.
    This approach allows us to provide the Head Start 
experience to nearly 5,000 children each day in neighborhood 
schools meeting title I eligibility. This is nearly three times 
the number served prior to implementing the model.
    We have created a unified early childhood system where all 
classrooms provide the same quality, regardless of what the 
program is called. Specifically, every child in the Head Start 
model receives services that meet the Head Start standards, 
including screening and diagnostic assessment, high-quality 
classroom settings for the full school day and year using a 
research-based curriculum, and access to family support 
services.
    While we are very pleased that a Federal review in 2011 
found that we meet all Head Start standards in nearly 300 
classrooms, we are most proud of raising the quality of 
education for all of our 3- and 4-year-olds in title I schools. 
Our data show that the model is working and helping our 
students to grow and to learn. In fact, children in 
kindergarten who attended pre-K in our program were found to 
have stronger pre-reading skills than their classmates who did 
not attend the program.
    In addition, we have taken a closer look at what children 
are learning while in the Head Start model using the CLASS 
observation system, GOLD, and other measures. The results give 
us reasons to be very optimistic about our approach. We've 
learned that our youngest learners are gaining important pre-
reading and math skills, as well as self-regulation and working 
memory skills. These results reaffirm our commitment to a high-
quality, comprehensive approach that meets the needs of all 
students.
    Because of the implementation of the Head Start model and 
the increase in the number of children and families we're 
reaching, we are truly excited for the future. We're proud of 
what our teachers and students have achieved, and we're 
committed to continuing to improve the quality of our programs 
so that every child has what he or she needs.
    LaToya Smith, the parent of a pre-K student in DCPS agrees. 
She said,

          ``My child is at the Langdon Education Campus. 
        Socially, he's thriving in a group of friends. 
        Emotionally, he's maturing as a scholar who excels. 
        Cognitively, he's secure in the basics. He's already 
        learning to read! His teacher's goal is for him to be 
        reading and writing by the end of the year. At home, he 
        tells me about different cultures and continents. He 
        speaks of space, astronauts, and the galaxy. He is so 
        into learning and experiencing life, and I am happy for 
        him and for us.''

    Thank you for having me today.
    [The prepared statement of Ms. Ewen follows:]
                  Prepared Statement of Danielle Ewen
                                summary
    Senator Harkin, Senator Alexander and other committee members, 
thank you for inviting me to present information about the innovative 
approach to early childhood programming taken by the District of 
Columbia Public Schools (DCPS). DCPS is proud of what we have achieved.
    The growth of high quality early childhood programming in DCPS and 
across the District of Columbia is due to the leadership of Mayor 
Vincent Gray and Chancellor Kaya Henderson. Both have shown tremendous 
vision and dedication to ensure that young children at-risk of school 
failure have access to the resources and supports they need to be 
successful.
    In 2008, faced with declining graduation rates, low reading 
proficiency scores, large numbers of children living in poverty, and 
growth in the number of children with special needs and those from 
language minority households, the city council and the Mayor convened a 
working group to identify solutions to change outcomes for children.
    As a result, the District of Columbia passed the Pre-K Act, 
mandating universal pre-K for 3- and 4-year-olds. This Act extended the 
Uniform Per-Student Funding Formula (UPSFF) to 3-year-olds, and 
established a goal of making high quality services universally 
available within 5 years. The Act also invested in the quality of 
community-based providers as another component of universal access.
    For DCPS, the implementation of the Act was a critical turning 
point in our efforts to improve outcomes for our children, allowing us 
to bolster our commitment to ensure children most at-risk of school 
failure got a comprehensive array of services to meet their needs both 
for high quality educational opportunities and for supports for their 
healthy development. We are now both the largest single provider of 
services for 3- and 4-year-old children and of Head Start-eligible 
children in the District of Columbia.
    In 2010, we designed the Head Start blended model, which is in all 
57 ``title I'' elementary schools in DCPS. The Head Start model, like 
many blended funding models in school districts and community-based 
settings around the country, combines Head Start funds with local 
funding. In our case, the local funding comes through the Uniform Per-
Student Funding Formula (UPSFF). The local dollars pay for teachers, 
aides and other infrastructure costs while the Head Start funds allow 
us to provide comprehensive supports for families and coaching and 
other professional development for teachers and to meet the Performance 
Standards. This approach allows DCPS to provide the Head Start 
experience to nearly 5,000 children each day in neighborhood schools 
meeting title I eligibility. Prior to the Head Start model, DCPS served 
1,782 children.
    With the blended model, we are able to provide high quality 
comprehensive services to many more children who can benefit, with the 
same level of grant funding. This has created a unified early childhood 
system where all children in our classrooms receive the same quality of 
programming regardless of whether the program is called Head Start or 
pre-kindergarten.
    Every child in the Head Start model receives the services that meet 
Head Start standards, including screening and diagnostic assessment, 
high quality early childhood classroom settings for the full school-day 
and school-year, and access to family support services. And we are 
doing it well: in a Federal review in 2011, we were found to meet all 
standards.
    We are excited that data show that our model is working and helping 
our students to grow and learn. New data show that in Kindergarten, 
children who attended pre-K at DCPS had stronger pre-reading skills 
than their classmates who did not attend the program.
                                 ______
                                 
    I want to thank Senator Harkin and Senator Alexander for inviting 
me to present information about the innovative approach to early 
childhood programming taken by the District of Columbia Public Schools 
(DCPS). DCPS is proud of what we have achieved.
    The growth of high quality early childhood programming in DCPS and 
across the District of Columbia is due to the leadership of Mayor 
Vincent Gray and Chancellor Kaya Henderson. Both have shown tremendous 
vision and dedication to ensure that young children at-risk of school 
failure have access to the resources and supports they need to be 
successful.
    Today I am going to briefly outline the risk factors faced by young 
children in the District, describe our pre-kindergarten system, then 
focus on the blended funding model that has been implemented in DCPS, 
known as the Head Start School-Wide Model. Finally, I will share some 
exciting data on children's outcomes.
    Research has documented the academic risk faced by children in 
poverty, and those risks are faced by thousands of District children. 
Despite the increase in median income over the past decade, 19 percent 
of the DC population continues to live below the Federal Poverty Level 
(FPL) ($22,350 for a household of four), as compared to 15 percent 
nationally (IFF, 2012). District children are far more likely to live 
in poverty than adults: 15 percent of children ages 0-3 and 21 percent 
of children ages 3-5 live in extreme poverty (at or below 50 percent of 
FPL) while 26 percent of children ages 0-3 and 32 percent of children 
ages 3-5 live in families with incomes at or below 100 percent of the 
poverty line (Young Child Risk Calculator, 2012). Wards 5, 7 and 8 are 
most affected by child poverty and almost 60 percent of all young 
children in Ward 8 live in poverty. Wards 7 and 8 also have the highest 
unemployment rate, lowest median income, and the most children 
receiving TANF, or Temporary Assistance for Needy Families (DC Action 
for Child Kids Count, 2012b).
    The National Center for Children in Poverty has noted that children 
who face three or more risk factors are the most likely to experience 
school failure and other negative outcomes, including maladaptive 
behavior. They define risk factors as low-income, single parent, teen 
mother, low parental education, unemployed parents, residential 
mobility (one or more move in last 12 months), households without 
English speakers, and large family size (families with more than four 
children) (Young Child Risk Calculator, 2012). Of children ages 3-5 in 
DC, 69 percent experience at least one risk factor; 40 percent 
experience one-to-two risk factors; and 29 percent experience three or 
more risk factors. In addition to experiencing a large number of risk 
factors, DC has the highest rate of children (17 percent) living in 
extreme poverty in a single-parent household compared to all other 
States.
    These troubling statistics impact our success as a city; for 
example, nearly 4 in 10 students in DC schools do not graduate on time 
(NCES, Jan 2012).
    In 2008 the city council and the Mayor convened a working group to 
identify solutions to change outcomes for children in the district. The 
working group noted first, that research has clearly documented the 
impact high quality early childhood programs have in increasing success 
for children at-risk, and second, that many children who could benefit 
from these programs did not have access to them.
    As a result, in 2008, the District of Columbia passed the Pre-K 
Enactment and Expansion Act, mandating universal pre-K for 3- and 4-
year-olds. This Act extended the Uniform Per-Student Funding Formula 
(UPSFF) to 3-year-olds, and established a goal of making high quality 
services universally available within 5 years. The Act also invested in 
the quality of community-based providers as another component of 
universal access.
    According to the District of Columbia Office of the State 
Superintendent for Education (OSSE), 70 percent of families with 3- or 
4-year-old children have enrolled their children in full school-day and 
school-year programs in either DCPS or in a public charter school. 
There is now an early childhood classroom in every elementary school 
throughout the District, meeting quality standards including Bachelor's 
degreed teachers. Across the city, we have now achieved universal 
access for 3- and 4-year-olds, with families having a choice of 
traditional public schools, charter schools or community-based 
providers. DCPS is currently providing nearly half of all early 
childhood seats for 3- and 4-year old children in the District.
    For DCPS, implementation of the Act was a critical turning point in 
our efforts to improve outcomes for our children. We are now both the 
largest single provider of services for 3- and 4-year-old children and 
of Head Start-eligible children in the District of Columbia.
    The implementation of the Act also allowed us to be innovative in 
our approach. As a Head Start grantee, DCPS was already committed to 
ensuring our children most at-risk of school failure got a 
comprehensive array of services to meet their needs both for high 
quality educational opportunities and for supports for their healthy 
development. However, we did not have the resources to serve all Head 
Start eligible children.
    To serve those children, in 2010, we designed the Head Start 
blended model, which is in all 57 ``title I'' elementary schools in 
DCPS. The Head Start model, like many blended funding models in school 
districts and community-based settings around the country, combines 
Head Start funds with local funding. In our case, the local funding 
comes through the Uniform Per-Student Funding Formula (UPSFF). The 
local dollars pay for teachers, aides and other infrastructure costs 
while the Head Start funds allow us to provide comprehensive supports 
for families and coaching and other professional development for 
teachers and to meet the Performance Standards. This approach allows 
DCPS to provide the Head Start experience to nearly 5,000 children each 
day in neighborhood schools meeting title I eligibility. Prior to the 
Head Start model, DCPS served 1,782 children.
    With the blended model, we are able to provide high quality 
comprehensive services to many more children who can benefit, with the 
same level of grant funding. This has created a unified early childhood 
system where all children in our classrooms receive the same quality of 
programming regardless of whether the program is called Head Start or 
pre-kindergarten.
    Every child in the Head start model receives the services that meet 
Head Start standards, including screening and diagnostic assessment, 
high quality early childhood classroom settings for the full school-day 
and school-year, and access to family support services. And we are 
doing it well: in a Federal review in 2011, we were found to meet all 
standards.
    The program supports the needs of our families, and is also 
providing a warm, supportive environment that helps young students 
develop social and emotional skills. Children also develop academic 
skills and knowledge they need to succeed in Kindergarten. Each of our 
classrooms has at least two staff members, including a teacher and 
paraprofessional, so that students can learn in small groups and with 
one-on-one instruction and support. We require every teacher to have at 
least a Bachelor's Degree. Every classroom uses a research=based 
curriculum, and families can choose the school and curriculum that best 
meets their needs, whether it is Montessori, Reggio-Emilia, Tools of 
the Mind or Creative Curriculum. All early childhood staff receive 
extensive and regular professional development and training throughout 
the year. Paraprofessionals have been supported to gain their Child 
Development Associate (CDA) credential as well. Some of the key 
components of the Head Start model are:

    <bullet> All early childhood classrooms in title I schools are 
fully supplied with high-quality early childhood materials and 
equipment in all content areas (literacy and language development, 
math, science/sensory, gross motor, art, drama, music/movement) that 
meet all children's specific development and learning needs.
    <bullet> Every classroom has a teacher with a bachelor's degree and 
specialized training in early childhood who receive 8 days of 
professional development, weekly collaborative meetings with trained 
coaches to identify strengths and areas of improvement for teachers and 
aides and provide best practices, resource materials and peer-to-peer 
learning and individualized professional development through intensive 
coaching each quarter for teachers to meet identified goals and improve 
instructional practices.
    <bullet> All classrooms in the Head Start-blended model use a 
research-based curricula that is aligned with the Office of the State 
Superintendent of Education (OSSE) Early Learning Standards (revised 
March 2013), the Head Start Child Development and Early Learning 
Framework and GOLD child assessment system, as well as with the Common 
Core standards.
    <bullet> Inter-departmental and agency collaboration provides high-
quality support to Dual Language Learners and students with special 
needs.
    <bullet> Staff resources are dedicated to improving services and 
supports for children with special needs and to support teachers as 
they implement children's IEPs.
    <bullet> Master's level mental health specialists provide 
individualized clinical services to children and families.
    <bullet> Opportunities for family engagement in the school, 
classroom and at home while promoting parent education of child 
development through a comprehensive parent curriculum.
    <bullet> Children from high-need families, especially those that 
are homeless or in foster care are supported on an as-needed basis 
through intensive case management and family outreach services.
    <bullet> Assessment of health and dental needs of families, and 
partnerships with dental screening programs, school nurses, and local 
universities to provide dental, health and nutrition services to 
children and families.
    <bullet> Participation in a universally free School Breakfast and 
the National School Lunch Program, meeting high nutrition standards.

    We are excited that data show that together, these program 
components are working and helping our students to grow and learn. In 
fact, in Kindergarten, children who attended pre-K at DCPS had stronger 
pre-reading skills than their classmates who did not attend the 
program.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    DCPS is committed to providing a high quality program for all early 
learners. We use a number of assessments to gain a better understanding 
of what works for students and to be sure our classrooms are high 
quality. To help students learn and grow, DCPS uses classroom 
observations, teacher quality assessments, teacher evaluations and 
other measures of children. Our data show clearly that our programs 
meet benchmarks for quality and that our teachers and classrooms have 
the needed supports to help students do their best.
    The DCPS early childhood program uses the Classroom Assessment 
Scoring System (CLASS), a widely used and researched tool that looks at 
the quality of the classroom and how the teacher and students interact. 
When compared to other programs across the country where CLASS is 
widely used, DCPS programs are meeting national trends and the quality 
levels of other programs.
    Additionally, our early childhood classroom teachers participate in 
the DCPS teacher evaluation system, known as IMPACT. In the 2012-13 
school year, 82 percent of early childhood teachers were rated 
Effective or Highly Effective on the IMPACT teacher evaluation system. 
This means that most early childhood students have teachers who have 
been recognized and rewarded for their work. The IMPACT system also 
gives teachers opportunities to work with and learn from their peers, 
which ultimately leads to better instruction.
    The DCPS early childhood program also looks at student's 
development and progress over the school year using a tool called 
Teaching Strategies GOLD. GOLD uses teacher observations to look at how 
a child is progressing to meet grade-level expectations in six 
developmental and content areas (see chart for a list of areas). We 
know that children are making progress throughout the year on this 
assessment, as 35 percent enter the year below these benchmarks and 
then make gains throughout the year. At the end of the last school 
year, 97 percent of our early childhood students met or exceeded the 
GOLD expectations for their grade-level. This means that most students 
finish the program with the skills needed to enter and succeed in 
Kindergarten.
    In addition to GOLD, DCPS has taken a closer look at the classrooms 
in the HSSWM to examine the quality of the early childhood program at a 
deeper level. Students in those rooms are assessed using several 
measures that look at pre-reading, pre-math, problem solving, and 
social-emotional development. The results give us reasons to be very 
optimistic and very proud of our students. We've learned that our 
students are gaining important reading and math skills, as well as 
self-regulation and working memory skills. These results reaffirm our 
commitment to a high quality, comprehensive approach that meets the 
needs of all our students.
    Because of the implementation of the blended model with Head Start 
and the number of students and families we are now reaching, we are 
truly excited for the future. We are proud of what our teachers and our 
students have achieved, and we are committed to continuing to improve 
the quality of our programs so that every child has what he or she 
needs to be successful.
    But don't take my word for it. Here are the words of LaToya Smith, 
a parent at Langdon Education Campus:

          My child is in a Montessori program, at Langdon Education 
        Campus. Socially, he's thriving in a group of friends. 
        Emotionally, he's maturing as a scholar who excels. 
        Cognitively, he's secure in the basics (alphabet, counting, 
        shapes, and colors). He's already learning to read! His 
        teacher's goal is for him to be reading and writing sentences 
        by the end of the year. At home, he tells me about different 
        cultures and continents. He speaks of space, astronauts, and 
        the galaxy He is so into learning and experiencing life! And 
        I'm happy for him, for us.

    The Chairman. Thank you, Ms. Ewen.
    Now we'll turn to Ms. Brantley.

   STATEMENT OF CHARLOTTE M. BRANTLEY, PRESIDENT AND CEO OF 
               CLAYTON EARLY LEARNING, DENVER, CO

    Ms. Brantley. Good morning, Chairman Harkin, Ranking Member 
Alexander, and members of the committee. I'm Charlotte 
Brantley, president and CEO of Clayton Early Learning in 
Denver, CO. Thank you for this opportunity to tell you about 
early learning initiatives in Colorado and how they align with 
the Clayton belief that all children are born with unlimited 
potential and our mission to ensure all children have access to 
a quality early education.
    Clayton Early Learning is a nonprofit 501(c)(3) with a 
century of history providing vulnerable children with a good 
start. We provide exemplary early care and education services 
to more than 600 primarily low-income children, prenatal to age 
5, while integrating as seamlessly as possible multiple State, 
Federal, and local funding streams.
    All our program options, half-day, full-day, extended 
hours, home visiting, play and learn groups, are designed to 
give parents choices and are all research-based, family-
centered, comprehensive, and results-driven. Our statewide 
coaching and training services annually reach more than 2,500 
early education teachers and leaders, impacting the quality of 
services for thousands of additional children across our State.
    We have been an Early Head Start grantee since the late 
1980s, in fact, before it was even called Early Head Start. We 
began offering Head Start in the mid-1990s and joined the 
nationwide Educare Learning Network in 2006. In 2010, we were 
named one of the first 10 National Centers of Excellence in 
Early Childhood by the Office of Head Start.
    An ever-expanding body of research, as my colleagues have 
noted here, indicates that young children from disadvantaged 
homes start kindergarten lagging far behind their advantaged 
peers. This persistent gap, growing over time, is linked to 
illiteracy, teen pregnancy, high dropout rates, and 
unemployment. It may surprise you to learn that this gap is 
identifiable as early as 9 months of age in children's language 
development.
    At Clayton Early Learning, we work to reverse this trend by 
helping to create a coordinated system of early learning, 
parent engagement, social-emotional development, and health and 
nutrition services to support all children becoming school-
ready. We also work to join with our K-12 colleagues to create 
and maintain quality in their early elementary years.
    Such a coordinated system is greatly facilitated by 
expanded opportunities to both increase and further leverage 
State, Federal, and public-private investments to link programs 
across the critical prenatal to age 5 period of rapid growth 
and development. We applaud efforts such as the introduction of 
the Strong Start for America's Children Act and the recent 
appropriation of $500 million to create Early Head Start and 
Child Care partnerships.
    State and local program practitioners are working very hard 
to ensure we reach more children who really need that support. 
But we can't do it alone.
    The State level Colorado Preschool Program--and, Senator 
Harkin, maybe we can get that changed to the Colorado Early 
Learning Program. I'm with you there. CPP, as we call it, 
serves about 20,000 at-risk 3- and 4-year-old children each 
year, which represents approximately 14 to 15 percent of our 
eligible children, and 171 of 179 districts participate.
    CPP encourages local districts to partner with community-
based early childhood programs. And, in fact, 9 percent of the 
children are receiving CPP in a Head Start program, 23 percent 
are served in a community-based site, and 68 percent are served 
in the public schools.
    Data shows that children who have had a CPP early childhood 
experience are still doing well as of fifth grade. They're 
scoring above their likely resourced peers who were not able to 
go to CPP as preschoolers.
    Clayton Early Learning is fortunate to have a strong 
partnership with Denver Public Schools with just over 250 half-
day preschool slots in our two schools under contract with DPS. 
Effective collaborations like these help create the systems to 
ensure children's success, and we support continued 
encouragement by policymakers of such partnerships to leverage 
all early care and education resources available in local 
communities.
    Colorado's Race to the Top early learning challenge grant 
will maximize a broader, coordinated set of State and local 
early childhood efforts to improve our workforce and the 
quality of settings, to measure and track outcomes, and to 
fully engage parents as partners. Our State Early Childhood 
Leadership Commission and network of local early childhood 
councils in partnership with our new Office of Early Childhood 
will oversee implementation of the grant.
    We know that building these coordinated systems of 
education, health, nutrition, and family engagement will take 
concerted effort on the part of practitioners, policymakers, 
funders, families, and the public at large. And at Clayton, we 
are confident that as a nation, we can do it. As we aspire to 
achieve this goal, we must be careful not to over-complicate or 
to under-resource our strategies.
    I thank you for your efforts and those being made by the 
States you represent, and I look forward to your questions.
    Thank you.
    [The prepared statement of Ms. Brantley follows:]
              Prepared Statement of Charlotte M. Brantley
                                summary
    Good morning Chairman Harkin, Ranking Member Alexander and members 
of the committee. I am Charlotte Brantley, president and CEO, Clayton 
Early Learning in Denver, CO. Thank you for the opportunity to tell you 
about early learning initiatives in Colorado, and how they align with 
the Clayton mission to ensure all children have access to quality early 
education.
    Clayton Early Learning is a non-profit 501(c)(3) with a century of 
history providing vulnerable children with a good start. We provide 
exemplary early care and education services to more than 600 primarily 
low-income children prenatally to age 5. All program options are 
research-based, family-centered, comprehensive, and results-driven. Our 
statewide coaching and training services reach more than 2,500 early 
education teachers and leaders every year, impacting the quality of 
services for thousands of additional children. We have been an Early 
Head Start grantee since the late 1980s, began offering Head Start in 
the mid-1990s and joined the nationwide Educare Learning Network in 
2006. In 2010, we were named 1 of 10 national Centers of Excellence in 
Early Childhood by the U.S. DHHS, Office of Head Start.
    An ever-expanding body of research indicates that young children 
from disadvantaged homes start kindergarten lagging far behind their 
more advantaged peers. This persistent gap, growing over time, is 
linked to illiteracy, teen pregnancy, high dropout rates, and 
unemployment. At Clayton Early Learning we work to reverse this trend 
by helping to create a coordinated system of early learning, parent 
engagement, social/emotional development, and health and nutrition 
services to support all children becoming ``school-ready''. Such a 
coordinated system is greatly facilitated by expanded opportunities to 
leverage Federal-State and public-private investments to link programs 
across the critical prenatal to age five period of rapid growth and 
development. We applaud efforts such as the introduction of the Strong 
Start for America's Children Act and the recent appropriation of $500 
million to create Early Head Start and Child care partnerships.
    The Colorado Preschool Program (CPP) serves about 20,000 at-risk 3- 
and 4-year-old children each school year with 171 of 179 districts 
participating. CPP encourages school districts to partner with 
community-based early childhood programs. About 9 percent of the 
children are receiving CPP in a Head Start program, about 23 percent 
are served in a community-based site, and 68 percent are served in 
public school sites. Clayton Early Learning is fortunate to have a 
strong partnership with Denver Public Schools (DPS), with just over 250 
half-day preschool slots in our two schools under contract with DPS. 
Effective collaborations like these create the systems to ensure 
children's success and we support continued encouragement by 
policymakers of such partnerships to leverage all early care and 
education resources available in local communities.
    Colorado's Race to the Top Early Learning Challenge grant will 
maximize a broader, coordinated set of State and local early childhood 
efforts to improve our workforce and the quality of settings, measure 
and track outcomes, and fully engage parents as partners. Our State 
Early Childhood Leadership Commission and network of local Early 
Childhood Councils, in partnership with our Office of Early Childhood, 
will oversee implementation of the grant.
    We know building these coordinated systems of education, health, 
nutrition, and family engagement will take concerted effort on the part 
of practitioners, policymakers, funders, families, and the public at 
large, and at Clayton we are confident that as a nation, we can do it. 
I thank you for your efforts, and those being made by the States you 
represent.
                                 ______
                                 
    Good morning, Chairman Harkin, Ranking Member Alexander and members 
of the committee. My name is Charlotte Brantley; I am the president and 
CEO of Clayton Early Learning in Denver, CO. Thank you for the 
opportunity to share some exciting early learning developments in 
Colorado and shed some light on how these align with and support my 
organization's mission to ensure all Colorado children have access to a 
high quality early education.
    Clayton Early Learning is a non-profit 501(c)(3) organization with 
more than a century of history providing vulnerable children with a 
good start toward success. Though we first opened our doors in 1911 as 
an orphanage and school for boys, our focus in today's world is on 
offering the highest quality early childhood education experiences and 
facilitating other providers to do the same. We currently provide 
exemplary early care and education services directly to more than 600 
primarily low-income children prenatally to age 5. While we offer 
several different program options designed to give parents choices, all 
are research-based, family-centered, comprehensive, and results-driven.
    We also work with many public and private partners including public 
schools, State agencies, higher education, health and mental health, 
and private funders to improve early learning systems throughout 
Colorado. Our statewide coaching and training services reach more than 
2,500 early education teachers and leaders every year, impacting the 
quality of services for thousands of additional children. We have been 
an Early Head Start grantee since the late 1980s, began offering Head 
Start in the mid-1990s and joined the nationwide Educare Learning 
Network in 2006. In 2010, we were named 1 of 10 national Centers of 
Excellence in Early Childhood by the U.S. Department of Health and 
Human Services, Office of Head Start. I personally have been in the 
business of early childhood for more than 30 years, serving in 
academia, State and Federal program and policy administration, 
children's educational media, and local program operations.
    An ever expanding body of research indicates that young children 
from disadvantaged homes start kindergarten lagging behind their more 
advantaged peers. We know this gap grows, continues into high school, 
and negatively impacts adulthood. It is linked to illiteracy, teen 
pregnancy, juvenile justice issues, high dropout rates, and 
unemployment.
    Our ultimate goal at Clayton Early Learning is to reverse this 
discouraging trend. Child progress evaluations within our own programs 
make clear that learning gaps in the area of language development begin 
in infancy. If not addressed, this lag in early language development 
will later manifest itself as a lag in overall academic achievement. It 
is much more efficient to close these gaps very early, or prevent them 
from opening at all. Children and families, particularly those with 
multiple risk factors, need the support of a coordinated system of 
early learning, parent engagement, social/emotional development, and 
health and nutrition to be ``school-ready'' when it comes time to enter 
kindergarten. Component parts of such a system include:

    <bullet> Professional development opportunities, matched with 
adequate wages, to build and retain high performing staff;
    <bullet> Clear articulation of early learning standards and program 
guidelines, across funding streams and program approaches;
    <bullet> Support for parents in helping their children acquire 
language, literacy skills, and problem-solving skills;
    <bullet> Empowering parents to form networks and to reach their own 
aspirational goals;
    <bullet> Supports for young children's progress toward healthy 
social/emotional development and self-regulation skills, including 
access to mental health services for both children and the adults in 
their lives; and
    <bullet> Physical health and nutrition supports.

    Creating and maintaining such a coordinated system is made possible 
by expanded opportunities to leverage Federal-State and public-private 
investments to support linkage of services and programs across the 
critical prenatal to age 5 period of children's rapid growth and 
development. We applaud related efforts such as the introduction of the 
Strong Start for America's Children Act and the recent appropriation of 
$500 million to create Early Head Start and Child care partnerships.
    Colorado is moving forward with an enhanced focus on improving and 
expanding access to early learning experience's for all our children. 
We recognize that we must do more to reach communities throughout our 
State. Our geographic and economic diversity (urban, rural, frontier) 
at times poses significant challenges in terms of service delivery. In 
addition, while many urban areas in Colorado have seen their child 
population grow, most rural communities across the State have 
experienced declines in child population, increasing the challenge of 
creating cost-effective ways to provide the same level of early 
learning services.
    In 2011, children were the age group most likely to be living in 
poverty in Colorado. Unfortunately, children under the age of 6--whose 
brains are at the most critical developmental stages--are more likely 
to live in poverty than older children. In 2011, 21 percent of all 
Colorado children under 6 lived in poverty and more disturbing, since 
2000 the number of young children living in poverty has increased by 
136 percent. As you know, poverty is closely associated with challenges 
such as unstable housing, a lack of nutritious foods, and physical and 
mental health issues that can impact a child's ability to learn.\1\ 
Furthermore, children affected by several adverse circumstances--three 
or more risk factors--are the most likely to experience school failure 
and other negative outcomes. An estimated 15 percent of children under 
the age of 6 experience multiple risk factors in CO (2011).\2\
---------------------------------------------------------------------------
    \1\ KidsCount. Colorado Children's Campaign. Page 17, 57.
    \2\ NCCP ``Investing in Young Children''. Page 3.
---------------------------------------------------------------------------
    State and local efforts are underway on several fronts to ensure we 
reach greater numbers of our children with high quality early learning 
experiences. Colorado's State-funded preschool program or CPP provides 
preschool for approximately 20,000 children each school year.\3\ The 
program serves mostly 3- and 4-year-olds that exhibit risk factors such 
as eligibility for free and reduced lunch, homelessness, drug abuse in 
the family, etc. Currently 171 out of 179 school districts participate 
plus the Charter School Institute. In many districts, local funds are 
added to what is available from the State to expand the number of 
children provided with a quality early education.
---------------------------------------------------------------------------
    \3\ CPP 2013 Legislative Report.
---------------------------------------------------------------------------
    CPP leverages a mixed delivery model that encourages local school 
districts to partner with Head Start and community-based early 
childhood programs. Statewide, about 9 percent of the enrolled children 
are receiving CPP services embedded in a Head Start program, about 23 
percent are served in a community-based partner site, while 68 percent 
are served within public school sites operated directly by the school 
district. Clayton Early Learning is fortunate to have a very strong and 
long-standing partnership with Denver Public Schools (DPS). Currently, 
we have just over 250 half-day preschool slots, funded with State and 
local district preschool funds, under contract with DPS.
    Effective collaborations, such as those with school districts, 
create the systems to support children's success. We know first-hand 
that early childhood education at the community level through programs 
such as CPP strengthen the public-private partnerships between school 
districts, community-based programs, and Head Start programs. We fully 
support continued encouragement of such partnerships to leverage all of 
the early care and education resources in local communities to create 
high quality choices for parents to help their children succeed.
    In Colorado we see that a quality preschool experience can have 
lasting effects into a child's K-12 academic career. For example, when 
compared to a matched cohort of students, children that participated in 
CPP continue to outperform their non-participant at-risk peers on State 
achievement measures, even into middle school. We are continuing to 
track CPP participants through high school. At Clayton Early Learning, 
we are also tracking our children's performance as they enter the K-12 
system through our partnership with Denver Public Schools.
    Last year, the Colorado State Legislature approved an additional 
3,200 CPP slots ($10M investment) through Colorado's annual school 
finance act. Despite these investments, however, we know we reach just 
14 percent of eligible children in our State and have a long way to go. 
In addition, Colorado currently funds only half-day kindergarten and 
relies on individual parents or the taxpayers in each school district 
to cover the remaining cost of full-day kindergarten.
    While we hope to see increased investments in our State's preschool 
program, CPP is just one funding source that contributes to our early 
learning landscape. Nurse Home Visiting Programs, Food Assistance, 
Child Care Assistance, Early Head Start and Head Start--all contribute 
to creating a more efficient and effective system to promote better 
child outcomes. In addition, several school districts and local city 
and county governments have significantly increased public funding 
available to support early childhood programs. For example, the sales 
tax-funded Denver Preschool Program recently enrolled the 25,000th 
child since the program's inception in 2006/2007. Summit County voters 
recently approved a ballot measure to extend a property tax levy 
supporting early childhood care and learning programs. Voters in Denver 
overwhelmingly approved an increase in local public school taxes in 
November 2012 that included significant expansion of preschool for 4-
year-olds. At Clayton Early Learning we help our families access all 
funding streams for which they are eligible, and work to create a 
seamless integration within our program options.
    Colorado is fortunate to receive a Race to the Top Early Learning 
Challenge grant of $30 million and a supplemental grant of $15 million 
over 4 years. This grant opportunity is setting in motion a number of 
initiatives to maximize a broader, coordinated set of State and local 
early childhood efforts supported by foundations, private companies, 
and the State.
    Increasing kindergarten readiness is one of Colorado's top 
priorities, as we know it is a major milestone in a child's path to 
success. To accomplish this goal, Colorado's most at-risk children must 
have access to the kinds of high-quality early learning programs that 
will give them a great start. Major actions covered by the grant work 
plan include:

    <bullet> Efficient and effective grant management and coordination, 
supported by the newly established Office of Early Childhood within the 
Colorado Department of Human Services.

        <bullet>  Communication to families, especially those with high 
        needs, on all aspects of quality including the Early Learning 
        and Development Guidelines, Tiered Quality Rating and 
        Improvement System (TQRIS), and statewide online resources to 
        increase ease of access to high quality programs.
        <bullet>  Supports to local early childhood councils to provide 
        flexible, responsive support of grant activities at the local 
        level.
        <bullet>  Grant evaluation per Federal specifications.

    <bullet> Tracking Implementation of High-Quality, Accountable 
Programs.

        <bullet>  Statewide implementation of the new TQRIS tied to 
        child care licensing.
        <bullet>  Training and communication to programs and providers 
        on the new TQRIS.
        <bullet>  Supports to increase quality, including local 
        supports for shared services, especially for high-need 
        programs.
        <bullet>  Early Childhood Data System (ECDS) development 
        including access and reporting for families, providers, and 
        administrators.

    <bullet> Promoting Early Learning and Development Outcomes for 
Children.

        <bullet>  Development and dissemination of user-appropriate 
        tools for programs, providers, and families.
        <bullet>  Incorporation of Early Learning and Development 
        Guidelines (ELDG) into the TQRIS, training and professional 
        development, assessment training, and communications to 
        communities and families.

    <bullet> Ensuring a Great Early Childhood Education Workforce.

        <bullet>  Unification of the State workforce competency system.
        <bullet>  Alignment of teacher preparation programs (2 year and 
        4 year) around workforce competencies and promote articulation 
        of coursework across all institutions.
        <bullet>  Incorporation of competencies into statewide 
        professional development opportunities.
        <bullet>  Development of measurements for competencies in order 
        to give credit for prior learning.
        <bullet>  Provision of incentives and supports to advance 
        through the ladder of competencies, especially for high-need 
        providers.
        <bullet>  Full deployment of a statewide Learning Management 
        System (incorporating a workforce registry) to advance 
        professional development opportunities to the early childhood 
        education workforce.

    <bullet> Measuring Outcomes and Progress.

        <bullet>  Tiered expansion of the Results Matter program to 
        track outcomes for more Children with high needs from birth 
        through 5 years of age.
        <bullet>  Implementation of a kindergarten entry assessment for 
        all children in all school districts statewide.

    Throughout the work plan are two emphases: (1) the development of 
data systems and increased data sharing across programs and departments 
for continuous quality improvement, and (2) an increased emphasis on 
educating and empowering families so they can best support the optimal 
development of their children and become effective advocates when 
needed. Starting with the new Office of Early Childhood, through 
smarter management of grant activities and a new emphasis on empowering 
and educating families, these efforts will constitute a comprehensive 
evolution in the State's push for quality early learning programs. 
Together, these accomplishments will enable Colorado to achieve 
significant increases in overall kindergarten readiness as well as 
major decreases in the gap in readiness between children with high 
needs and their peers.
    In 2013 our Governor-appointed Early Childhood Leadership 
Commission was reauthorized by the State legislature. This body of 20 
individuals represents business, State agencies, parents, early 
childhood program providers, Head Start and private foundation leaders. 
A key component of its charter is to advise the Office of Early 
Childhood and other relevant State offices on implementation of all 
aspects of the Race to the Top Early Learning Challenge grant work 
plan.
    Colorado established a system of local early childhood councils 
many years ago, and expanded their numbers in recent years to create 
statewide coverage. These local councils are charged with identifying 
the best ways to facilitate local coordination among programs and 
services serving children and their families. In addition, they are 
often the conduit for moving funding and other supports targeted to 
improving quality down to the local grass roots level. In many cases 
they have also successfully increased local investments in early 
childhood programming.
    Establishing and maintaining this State and local leadership 
infrastructure is critical to ensuring we are leveraging our public 
investments to their utmost potential, better able to monitor child 
outcomes, and continuously improve the vital supports that serve our 
youngest and most vulnerable learners.
    Clayton Early Learning leadership staff serve as members of the 
Governor-
appointed State Commission and the local Denver Council. We strongly 
believe it is our obligation to take part in the early childhood 
quality and access improvement work at all levels and to share what we 
learn through our own demonstration programs.
    In conclusion, I would like to encourage you to continue thinking 
about how we as a nation want to invest in our future. The work I get 
to do every day sends me home feeling very good, and not just because 
little children are so satisfying to be around. At Clayton Early 
Learning, we believe that all children are born with unlimited 
potential, and that all parents want the best for their children. As I 
was beginning a tour of our Educare School one day for a research 
physician in Colorado who is also a Head Start graduate, I mentioned 
that the children we serve are often destined to never finish high 
school unless we do something, now. He looked across the group of 
preschool children before us on the playground and replied, ``Yes, and 
you never know which one will cure cancer, given the opportunity.'' 
This is about giving all our children the opportunity to enjoy life 
every day while a young child, see themselves as a successful learner, 
and to become a contributor to the greater good as they grow up. We 
know this will take concerted effort on the part of practitioners, 
policymakers, funders, families, and the public at large, and at 
Clayton we are confident that as a Nation, we can do it.
    I thank you for your efforts, and those being made by the States 
you represent.

    The Chairman. Thank you very much, Ms. Brantley.
    Thank you all for your statements and for your written 
statements, also. We'll start a round of 5-minute questions 
here.
    Let me just ask this at the outset. Have you all taken a 
look at the bill that I introduced in November called the 
Strong Start for America's Children Act? Is that something that 
you've kind of looked at? OK. Here's my question. What's wrong 
with it?
    Dr. Yoshikawa, what's wrong with it? What needs to be done? 
What am I missing? What needs to be better focused on? 
Obviously, we're just starting this whole process, and I'd like 
to know--do you see any gaps in there, anything that you think 
we should focus on stronger than something else?
    Mr. Yoshikawa. I appreciated the emphasis on quality. I 
think--and I'm going to stick to my expertise here, which is 
not so much the financing or those kinds of aspects of a system 
like this. But I appreciated the emphasis on quality. I think 
there could be perhaps even greater specificity on what that 
actually means and how to support it.
    I think there were some emphases in there on issues like 
coaching. Certainly, our review shows that there are now 
multiple choices, and programs can be given a choice of 
particular skills they would like to strengthen in their 
programs, whether these are language and literacy, math, or 
socio-emotional development. So we have, luckily, strong and 
proven curricula in each of these domains that can be paired 
with this kind of coaching or mentoring model.
    So I think maybe some further thought could be given to the 
supports for learning and the critical role of curricula, 
which, again, are not push-down kinds of instructional models, 
but are designed for children this age. These are activities 
that children enjoy. They're play-based, but they're focused to 
improve children's skills. And maybe there, there could be a 
bit more guidance.
    The Chairman. OK. Good.
    Mr. White, you focused a lot in your testimony, written and 
spoken, about the role of the States. So in our legislation--my 
bill, anyway--we have a lot of co-sponsors on--and that is to 
set up Federal-State partnerships to work on this. Is there 
anything that you could advise us on that you think we should 
change or modify or emphasize more?
    Mr. White. Thank you, Senator. I would just reemphasize 
what I said in my testimony, which is that I don't think the 
idea of additional Federal funding--and additional funding is 
needed for the size of subsidies that exist across the programs 
that we manage in Louisiana. But I don't think that there is a 
dichotomy between that--and also the idea of making the most 
and, frankly, making sense of preexisting funding streams.
    I would encourage any legislation to--and I recognize Head 
Start has to be reauthorized and such, and this is a matter of 
process--but to take a look at the wide plurality of funding 
streams. And even if we are adding additional funding streams 
or asking States to match Federal funding, to allow States 
greater fungibility of those dollars so that we can actually 
address questions of classroom quality and questions of basic 
minimum standards as well as questions of access in unison, 
offering families multiple options with an assurance of 
quality.
    If we don't solve for that fragmentation, I worry that we 
will just create additional layers of complexity for government 
that will end up resulting in some of the, frankly, 
inconsistent outcomes that we see. The inconsistent outcomes 
that we see in our State when kids come into kindergarten are 
not just because kids didn't attend a program prior to 
kindergarten. It has very much to do with the differences in 
quality among those programs they attended. Solving for that 
problem is a critical aspect of any legislation.
    The Chairman. Well, that's what Dr. Yoshikawa talked about. 
All right.
    Ms. Ewen, is there anything that you think we should be 
looking at?
    Ms. Ewen. I'm not sure I'm going to say anything different. 
But I would emphasize the quality piece. I would emphasize the 
need for stability of resources to programs. Programs cannot 
provide high quality if they don't have the level of resources 
needed to pay for quality, and that's a key piece of what 
you've put on the table.
    The Chairman. I have to interject here. All my years I've 
been here looking at Head Start programs and things, the 
problem has been getting good qualified people to run and to 
teach at Head Start programs. But that costs more money.
    Ms. Ewen. It costs more money. That exactly right.
    The Chairman. Costs more money. If you want quality, you've 
got to pay for it.
    Ms. Ewen. And you need a stable source of that funding. 
It's not just making sure the dollars come in and out. It's 
that you can rely on the funding that you have so you can build 
a program like Charlotte and I have described.
    The Chairman. Yes.
    Ms. Ewen. And the third thing I would just say is I think 
the focus, while it is on preschool, is making sure that you 
still have the capacity to serve children birth to five and to 
build a quality system for all children, because as you started 
with, children need high quality from the moment they enter an 
early childhood program.
    The Chairman. Ms. Brantley, same question. You looked at 
it. Is there anything that we need to focus on differently?
    Ms. Brantley. I think there's a couple of comments I would 
make. One is that I think the language in it around supporting 
the idea that these services, No. 1, as my colleagues have all 
said, are high quality, high quality, high quality--and, yes, 
it does cost. I think we have to be honest for once about that 
cost.
    I think that it's very strong in the language around--that 
these services can be offered in multiple places. There's not 
one set idea of where it gets offered. But it can be offered in 
community-based settings. It can be offered on public school 
campuses and can be offered in multiple sites. I think that's 
very strong.
    The other thing I would simply say is that while I firmly 
believe that we need to partner State, Federal, and private 
people who are interested in partnering in this, and I think 
that's all good, and incentivizing all that is wonderful, I am 
concerned about the sustainability over time when the Federal 
money gets pulled back and pulled back and pulled back over 
time. And what will happen--some States are better resourced 
than others to take care of those things, and sometimes 
unforeseen circumstances come your way, like the flooding that 
happened in my State.
    This year, our Governor has just announced that we need 
another $3 billion just to fix our roads and our infrastructure 
because of what was destroyed in flooding last year. So you 
just never know exactly, and we want to be sure that as we move 
forward with this, we don't set it up in such a way that when 
money is needed for something else, it gets taken away from our 
kids.
    The Chairman. Thank you all very much. My time has run out.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Ms. Brantley and then Mr. White, I want to ask you the same 
question and first make an observation, especially with the 
chairman of the Budget Committee and the Appropriations 
Committee here. I come from a State where the Governor 
yesterday announced that in Tennessee, community college 
attendance would be free for any student who wanted to go; and 
a State where since 2005, early childhood education has 
expanded in all 95 counties.
    So States are moving ahead. But what's most difficult for 
them is when Medicaid spending goes from 8 percent of the State 
budget to 30 percent, or in the Federal budget, when we look 
down the road 10 years and see mandatory entitlement spending 
going up 80 percent. That squeezes out of the Federal budget 
and the State budget the dollars that we'd like to invest in 
early childhood education. So that observation just needs to be 
made.
    The Centers of Excellence, of which Denver is one, was a 
bipartisan compromise that came up in 2007 when the House 
passed President Bush's proposal to basically block grant Head 
Start to the States. And the idea was that this fragmentation--
and there's this 18 billion Federal dollars, there's State 
dollars, there's local dollars--that it might be useful for a 
period of 4 or 5 years to allow Governors to designate and the 
department to pick cities that were doing the best job of 
coordinating all these fragmented programs.
    We only appropriated $2 million and only designated 10 
centers. But, Ms. Brantley, what could we do to improve that 
Centers of Excellence program based on your experience as being 
one of those 10?
    Ms. Brantley. I appreciate the question, Senator Alexander. 
We at Clayton Early Learning have been very fortunate to have 
been selected in that first round, and we were 1 of the first 
10 and did receive the funding. We have 1 year of funding left.
    Senator Alexander. What did you get, about $200,000?
    Ms. Brantley. Two-hundred thousand dollars a year over 5 
years. We're in the fourth year of that funding. We have one 
more year to go. We will receive a final payment in September 
of this year for another $200,000. It has allowed us to deepen 
some of our most promising practices, particularly around 
working with teachers in all sorts of early childhood settings.
    We have spent quite a bit of our time working on that 
around the coaching services, and once we add coaching to the 
professional development model, sending teachers--more and more 
of them are going out and getting their A.A. degrees and now 
getting their B.A. degrees.
    Senator Alexander. Is there anything we can do--I only have 
a couple of minutes left. Is there anything we could do to 
improve it or change it or make it more useful?
    Ms. Brantley. I think giving more opportunities for those 
Centers of Excellence that have been funded to come together 
and to have opportunities to share what they're learning 
throughout the network would be helpful. There's a little bit 
of that beginning to go on, but we would like to see more of 
it.
    Senator Alexander. If you have any other suggestions, would 
you send them to me in writing after this is over? I'd be very 
interested in those.
    Ms. Brantley. Yes, sir. I'd be happy to do that.
    Senator Alexander. Mr. White, you mentioned fragmentation 
and allowing the State to be a Head Start grantee. We had a 
pretty big argument about that in 2007 when President Bush 
recommended and the House passed a block grant to States. But 
it's a little different proposal to allow the State of 
Louisiana to be a Head Start grantee.
    Do you have anything to say about the Centers of Excellence 
idea as a way of encouraging or promising the practice of 
coordination of fragmented programs? Or do you want to 
elaborate at all on your suggestion that the State might be a 
Head Start grantee and why that might be better received today 
than a similar proposal was a few years ago?
    Mr. White. It's a question of access and a question of 
quality. And we, as a country, seem to be rallying around both 
of those questions. But you can't claim to be providing full 
access and full choice when you have separate centers, separate 
funding streams, separate sets of regulations that literally 
require no coordination in the offering of seats even within 
the same neighborhood to parents who reside in that 
neighborhood.
    So allowing for one system of governance----
    Senator Alexander. Well, would the best way to do that be--
you'd almost have to coordinate that locally, wouldn't you, in 
order to make it work?
    Mr. White. Yes. But as you pointed out, and has been 
pointed out throughout today's testimony, much of the funding 
comes from the States. Most of the funding is coordinated 
through the States. If we're choosing to work as we typically 
do in education through the States as the governing entity, the 
State can essentially enfranchise locals, as we do with the K-
12 system, to distribute funds and to coordinate enrollment 
through the local system. But the State is the governing 
entity. And insofar as there are funding streams that work 
around that, it's greatly debilitating to both questions of 
access in a neighborhood and questions of quality and defining 
it.
    I would say at the same time regarding the Centers of 
Excellence that if we're going to stick with that strategy, 
getting serious about the regulatory consistency between Head 
Start and other pre-K programs, no matter how we do the 
funding, is important. I talk every day with school 
superintendents who themselves--and I commend the 
administration--could take advantage of the opportunity 
themselves to be Head Start grantees but don't, partially 
because the regulatory burden is so significant and, frankly, 
so different from what it is in the funds that they typically 
receive for early childhood services.
    Senator Alexander. Thank you.
    The Chairman. I have Senator Mikulski, Senator Scott, 
Senator Franken, Senator Isakson, Senator Murray, Senator 
Casey.
    Senator Mikulski.

                     statement of Senator Mikulski

    Senator Mikulski. Thank you very much, Mr. Chairman, for 
having this hearing and such a wonderful panel.
    I'm going to get right to what I think we need. I'm not so 
sure we need new programs. I know this might surprise 
everybody, because I'm a good Democrat. I don't know if we need 
a new program, but what I am convinced of is that we need a new 
commitment to early childhood education.
    Head Start was created almost 50 years ago. It was one of 
the building blocks that President Johnson wanted in the war on 
poverty. My first job after getting my master's in social work 
was to be a social worker in a Head Start program--and for 
those of us who were in those programs, we were so excited, 
because we saw Head Start as one of the keys to helping our 
children move out of poverty because we knew how important it 
is.
    Forty-eight years of experience with Head Start and we are 
still having these kinds of discussions. So, I say we need a 
real commitment. I'm going to get to my questions, but I just 
want to make a few more comments.
    We need to build on existing programs, like Head Start and 
the Child Care Development Block Grant program that Senator 
Burr and I have been working on to reauthorize--on a bipartisan 
basis, and ready for the floor. We did a great job in 
appropriations. Head Start is now funded at $8.6 billion. We 
added a billion dollars, and that was decided on a bipartisan 
basis. The Child Care Development Block Grant--again, we 
increased that--that's now funded at $2.3 billion.
    So, we have some of the building blocks. What we need to do 
is build on best practices, provide local flexibility, and look 
at the reality. Everything that I've read in your testimony and 
listened very carefully to--all of these programs have 
qualified people with bachelor's degree working in them. Yet 
the average pay for a preschool teacher is about between 
$32,000 and $38,000.
    Yet, a teacher at a high school can make $30,000 more. This 
is stunning. We need to be able to look at that. So as we work 
on this, we need to make the highest and best use of what we 
have, which takes me to my question to you, Mr. White.
    You've spoken about fragmentation and this coordinating 
council that was established in Louisiana. And congratulations 
for that. Would you recommend that as we move ahead with 
whatever we want to do--the reauthorization of Head Start, the 
creation of a new program--that we encourage States to 
establish councils and coordinating mechanisms like that to get 
highest and best use of existing programs?
    Mr. White. I would encourage that any levying of Federal 
dollars----
    Senator Mikulski. And should we mandate those councils?
    Mr. White. I would say that States should develop plans 
that have three principles embedded: No. 1, a basic minimum 
standard of quality; No. 2, a plan to ensure that teachers are 
capable of delivering that quality; and, No. 3, a plan to 
maximize the variety of choices and the funding streams that 
come with them. In Louisiana, in our State, that happens to 
come through the parish level.
    However, in a State like New York, where I previously 
worked, that has more than 900 school systems, you can imagine 
a different local structure. If we don't get to the question of 
how these funding streams interrelate with each other, as I 
believe, Senator, you're hinting at, we'll never----
    Senator Mikulski. I'm not hinting at it. I'm pretty 
definite about it.
    Mr. White. Yes, ma'am. We're never going to get the 
quality----
    Senator Mikulski. I really do think we have to make use of 
existing programs and have them work together.
    Mr. White. But if I can highlight some of the points you're 
making around teacher pay, yes, it's a $28,000, $29,000, 
$30,000 question maybe for some of the pre-kindergarten 
teachers. In our State, it's often a minimum wage question for 
a child care educator.
    If we don't address, thus, the relationship of the child 
care subsidy to the Head Start subsidy to the pre-K subsidy 
into one uniform system of funding that's somehow determined 
not at a level across 300 million people, but more of a level 
across 4 million people, as in my State, we will never be able 
to develop policies complex enough, nuanced enough to address 
the fact that a minimum wage educator today is what we are 
asking to provide a world-class standard of public education 
for 3- and 4-year-olds.
    Senator Mikulski. I think that's great. You also said $120 
million of Louisiana money skirts the State.
    Mr. White. Correct.
    Senator Mikulski. What is that? Is that the faith-based 
programs?
    Mr. White. Those are the Head Start dollars that we're 
spending on 3- and 4-year-olds.
    Senator Mikulski. So how does that skirt the State?
    Mr. White. Well, insofar as the relationship is directly 
between a grantee, in our State, at the parish level, and the 
Federal Government, the regulatory structure is outside of it, 
the funding structure, and I think probably most important for 
these purposes, the enrollment structure is outside of it. And 
this is critical to understand, and you mentioned it with the 
networks.
    So long as we're talking about maximizing dollars and 
maximizing choice and access for families, we cannot continue 
to have families driving around whatever jurisdiction they live 
in, dropping off applications at 17 different places whose 
admission processes don't speak to one another. This is a 
fundamental problem of governance. We won't make best use of 
taxpayer dollars, but we also won't be able to establish 
minimum standards if we don't solve it.
    Senator Mikulski. If you could flesh that out and get those 
ideas to us, I would appreciate it.
    Mr. White. I would be happy to do that.
    Senator Mikulski. Thank you very much.
    There are many questions for all of you, but I appreciate 
it. My time is up.
    The Chairman. Thank you, Senator Mikulski.
    Senator Scott.

                       Statement of Senator Scott

    Senator Scott. Thank you, Mr. Chairman.
    I'd like to say thank you to the panel for your commitment 
to America's children. It is, without question, that each and 
every one of you has a desire to see our Nation flourish. And, 
without question, it seems to me that you all understand the 
importance of early childhood development, and your commitment 
to it is certainly to be acknowledged. So I appreciate that.
    To build on what Senator Mikulski spoke about, building on 
our existing programs, seems to be very important. Taking on 
the task of looking to build a new program to put on top of all 
the other existing programs in order for us to reach more kids 
doesn't seem like the best approach.
    Mr. White, I'll ask you this first question. How can 
Congress ensure that the large number of Federal early 
childhood programs, each with different levels of rules and 
regulations, is not making it more difficult for low-income 
families to access the opportunities to have their kids in the 
programs?
    Mr. White. As some of my fellow panelists have hinted at, 
the distinctions between an urban environment like Denver or a 
rural environment in Colorado, Louisiana, or anywhere else are 
so vast that there is no way to do choice planning and 
enrollment planning other than that at the local level. And 
there is no way to do regulatory planning other than through 
one entity, and I believe that should be the States.
    The States should empower locals to ensure that there is 
equal access and choice. And the way that, thus, the Federal-
State relationship should be is the Federal should say to 
States,

          ``We know that you're different. We know that your 
        contacts are different. Your current funding situations 
        are different. Your current regulatory situations are 
        different. Thus, our job is to respond to your plan and 
        to help support a State's plan rather to impose a new 
        set of regulations or a new set of funding streams that 
        allows for less coherence that already exists today.''

    Senator Scott. Thank you.
    Ms. Brantley or Mr. White, we talk a lot about parental 
involvement and the importance of parental involvement. And it 
seems like the maze that we currently have, really, for a 
parent, makes it more difficult to understand and appreciate 
the resources that they may have access to.
    What would you, Ms. Brantley, suggest that we could do to 
help States and perhaps community providers help their parents 
understand the complexity of the system?
    Ms. Brantley. Thank you for that question, Senator Scott. 
You know, I think there's a lot of traction being gained at the 
State level and sometimes at the community level in working to 
combine these programs, despite some of the issues that can 
make that difficult, but trying to really do it from a parent's 
perspective or from the child's perspective so that they're 
coming into a program and don't have to worry about the 
multiple funding streams that might be behind it.
    Colorado has a State statute that was passed a couple of 
years ago that we're making progress on now to create a 
universal application for multiple programs. We intend to 
include Head Start in that, although, as my colleague here, Mr. 
White, is pointing out, you have to sort of do that on a 
grantee by grantee opt-in basis. But we are getting traction 
with that in our State, because there's been a lot of 
conversation at the State level about that.
    So I think in terms of the Federal role, sometimes just 
even paving the way by having Federal agencies putting out 
information memoranda that point out to States the flexibility 
they might actually have that they haven't taken advantage of 
in some of those kinds of things, is quite useful.
    Senator Scott. Thank you.
    Would any other panelists like to touch on that question?
    Ms. Ewen. I think that there are, as Charlotte said, lots 
of ways that we can build on the existing flexibility to help 
States and local government agencies assist families, and that 
it's not about this program and that program, because when you 
look at the few early childhood programs that there are that 
are serving our families, for the most part, they are under-
resourced, and there's just not enough out there.
    It's not that we have so many different programs that 
families have umpteen different choices. The problem is that 
families don't have choice. There's not enough high-quality 
programming available. At the State level and at the local 
government level, we can help families find the best door for 
them, and we can pave the way. But, ultimately, we have to 
invest in quality programs so that every family that needs a 
space has one.
    Senator Scott. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I just might add--and I'm going to 
keep adding this--quality costs money.
    Ms. Ewen. I'll keep saying it, too.
    The Chairman. All right. Thank you.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman, for this hearing. 
I hope it's the beginning of a number of these, because I, 
along with Senator Mikulski--and it sounds like pretty much 
everybody here--really believe in the return on investment of 
early childhood education, quality early childhood education. 
Yes, quality costs money.
    In Minnesota, we won a Race to the Top grant, and it's 
helpful. But we still only cover about a quarter of the kids 
that qualify, and that's a shame. I want to ask Dr. Yoshikawa--
and anyone can weigh in--about the evidence on return on 
investment.
    I know that the first study on early childhood--or I guess 
one of the first--was the Perry school, and it showed at first 
these positive gains in IQ, but then the fade-out phenomenon at 
third grade. And that seemed to be grabbed onto by people who 
were opponents of early childhood.
    But then we learned, as that Perry study continued and 
studies since, that we have these other benefits that come--
better health outcomes, fewer kids being left back a grade, 
fewer kids being in special ed, fewer pregnancies in 
adolescence, more graduation from high school, higher earning, 
less imprisonment, less crime--and that the estimates, in your 
testimony, are as high as $7 of return for every dollar. Is 
that right?
    Mr. Yoshikawa. The estimates are $7 for small-scale 
demonstration programs like the Perry Preschool. For larger-
scale programs, they get a bit lower. But these are still 
substantial returns on investment. The range is $3 to $7 across 
large-scale programs like the Chicago Parent Child Centers, 
like the Tulsa universal pre-
kindergarten program, ranging up to $7 for the Perry Preschool.
    I'm glad you mentioned this issue of fade-out, because we 
know that there is this convergence of test scores. Test scores 
is much of what we have during the elementary and junior high 
school years, for example. And there, often, the kids who did 
not get exposure to preschool catch up. But we know that test 
scores are not the only indicator of children's development.
    There are medium-term impacts on special education grade 
referrals, and, in addition, these long-term societal impacts 
on things like reduced crime, reduced teen pregnancy. We're 
just starting to understand what these factors are that might 
explain some of these very important long-term outcomes.
    Senator Franken. We do have to understand that, and we're 
also understanding that there are certain non-cognitive 
abilities or talents or characteristics that really determine 
success maybe more than the cognitive factor, and that maybe 
that has something to do with it. And we'll learn about that in 
the research.
    I really want to emphasize parents. I introduced a bill 
last year, the Parent Education and Family Engagement in 
Education Act, to expand parent engagement. Parents are the 
first teachers. And just to anyone on the panel, can you 
elaborate on the impact of parent engagement on preschool 
learning and outcomes?
    Mr. Yoshikawa. From our meta-analysis of 84 studies of 
rigorous preschool, we looked at the added impact of parenting 
education components in early education programs. And we looked 
at two types, one type that provided didactic workshop 
information to parents about children and about parenting----
    Senator Franken. That was less successful.
    Mr. Yoshikawa. That was less successful than the type that 
actually offered opportunities for practice and skill building. 
So parents and children together with a skilled facilitator 
engaging in this process of observation and feedback--that 
doubled the effects on children's skills above and beyond the 
effect of preschool alone.
    Senator Franken. Mr. Chairman, my time is up. But I also 
want to just say--since Senator Mikulski talked about the pay 
of preschool teachers and early childhood teachers--if we're 
going to get quality, we have to have good teachers, and we 
have to have workforce improvement for those who are going to 
be in the classroom with our little children who are only--
you're only three once. That's my last word. You're only three 
once.
    The Chairman. I think that's probably true.
    [Laughter.]
    Senator Franken. Well, it depends on your whole theory of 
cosmology and religion and----
    The Chairman. Stop.
    Senator Franken. I'll stop.
    The Chairman. Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman. I commend Senator 
Franken on focusing on parental involvement. When I chaired the 
Board of Education in Georgia, I used to be asked if attention 
deficit disorder, ADD, was the biggest learning disability, and 
I said, ``No, it's parental deficit disorder.''
    We don't have enough parents involved with their kids to 
really give higher expectations, and, therefore, a lot of our 
kids fall and drop out. So I commend your focus on parental 
involvement. It's extremely important.
    Mr. White, you're a young man, so you're going to live a 
long time and be head of the school system for a long time. I 
want to ask you a longitudinal question about this proposal on 
early childhood.
    The President's recommendation to the States that would be 
eligible for the grants would be that the first year, the State 
would have to match the cost by 10 cents on the dollar. But by 
year 10, it would have to have 300 percent match. In other 
words, slowly but surely, over a decade, from the time you 
started the program until 10 years later, you would take over 
the full cost.
    Understanding the financial challenges that Louisiana and 
every State has in public education today, could you take on an 
initial challenge today that you knew was going to cost you 300 
percent more in 10 years of State funds?
    Mr. White. Senator, for better or for worse, I'm not the 
one who makes the financial decisions in our State. It, 
obviously, would be a significant consideration. I suppose I 
would encourage, however, the committee and the Congress to 
understand that, No. 1, we're not making the most use of the 
dollars that we have today, but, No. 2, that our modeling shows 
that even if we did, we would not be able to pay for a truly 
highly qualified teacher providing a world class education for 
every child or to make that available to every child.
    So I don't believe that those two things are dichotomous. 
We have to make better use of the dollars that we have, and at 
the same time, the money has to come from somewhere. The 
Federal Government working with States can play a helpful role 
in that, but States clearly need to be secure in their own 
financial position if it's to happen.
    Senator Isakson. So you agree with Senator Mikulski. I 
happen to agree, too. We've got to take the existing programs 
and make them better rather than trying to recreate the wheel 
all over again? Is that----
    Mr. White. I do believe that we need to fix the current 
fragmented framework, yes. And I also believe that there are 
States like your own, Senator, that have stepped up and made 
this a real priority of their volition, and I commend them for 
doing that.
    But I don't want to totally discount the fact that the 
Federal Government can be helpful to States like mine. I just 
think it's a matter of not drawing these lines of dichotomy, 
making sure we've got what we have right, and accepting on the 
other hand that the current subsidy levels, no matter where the 
money is coming from, are not adequate, and it's urgent that we 
fix it.
    Senator Isakson. You worked in the State of New York for a 
while, correct?
    Mr. White. Yes, sir.
    Senator Isakson. And now you're in Louisiana. There are 
tremendous differences in terms of the challenges in those two 
States, are there not?
    Mr. White. I'm reminded of this on a daily basis.
    Senator Isakson. That's why when we try and do Federal 
programs, sometimes we try to write a prescriptive program. I 
was reading in the briefing book here about the conditions on 
the Federal funding, which is to qualify for funding, States 
must first meet Federal benchmarks for early learning 
standards, teacher quality certification, training and 
compensation comparable to K-12 staff, comprehensive data and 
assessment systems, comprehensive health and related services, 
small class size, and low adult-to-child ratios.
    If you get into that prescriptive of a requirement on the 
money you're sending to the State, it's going to turn off the 
State from asking for the money. Would you agree with that?
    Mr. White. Yes, sir, I would. I do think it's important 
that as we talk about quality, we understand that quality is a 
question of the principal or the head of the center, the 
teacher, the parent, and the child. The question is how do we 
put those individuals in the best position to learn and to 
develop, and not to recreate mistakes we've made in the K-12 
system out of our ambitions for quality.
    I agree with you, Senator, that those plans can come from 
the ground up. But imposing them from the top down is not the 
best approach.
    Senator Isakson. Thank you very much. And I appreciate your 
recognition of our State. The guy that beat me for Governor of 
Georgia, Zell Miller, who is now one of my closest personal 
friends, did our State a great service when he passed the 
Georgia lottery and constitutionally dedicated the money to 4-
year-old pre-kindergarten for all children eligible, to 
technology, and to a full college scholarship for anybody 
graduating from a Georgia high school with a B average.
    That's been a great program. We now invest $300 million a 
year on 82,386 students in our pre-K program. It's a great one 
and a real testimony to Zell Miller.
    Thank you, Mr. Chairman.
    The Chairman. By the way, I'll say to my friend from 
Georgia that our bill is different from the President's. I hope 
you recognize that. We started out with a 10 percent, and it 
goes to 100 percent. But it never goes above that, in other 
words, equal, and it never goes above----
    Senator Isakson. Your bill is the best one.
    [Laughter.]
    The Chairman. Thank you. We're looking for you to sign on 
to the bill.
    Senator Murray.

                      Statement of Senator Murray

    Senator Murray. Thank you very much, Mr. Chairman and 
Senator Alexander, for holding this hearing today. I think 
everyone knows that early childhood education is near and dear 
to my heart.
    As the only former--what we used to call preschool teacher, 
now early learning teacher, but former preschool teacher, I 
know firsthand what this research really confirms. And it is 
such an important investment and focus that our country needs 
to take on. I know, as well as everybody, that when a young 
learner gets the attention they need, they start off 
kindergarten on stronger footing.
    What I have really come to respect as I've gone around my 
State to talk to people about our effort to expand early 
learning to all kids in this country, is who has come to be the 
most visible beside me. It has been our business owners, 
because they know they need workers. It is the sheriffs, 
because, as Senator Franken talked about, they know who is in 
their jails today, but, most surprisingly, our military 
leaders, because they know that the quality of the recruits 
that we need for security for our country in the future depends 
on this.
    Do you know that, today, 75 percent of the Americans who 
apply to go into the military are ineligible because of health 
and academic shortfalls? That is a threat to our national 
security as well. So I think this focus on early learning is 
extremely important.
    I'm delighted to see a number of city and State governments 
who are looking at this. The New York Times said that Michigan 
and Alabama have increased their investments in pre-
kindergarten. Republican Governor Rick Snyder said those 
investments, ``will show up for decades to come.''
    This, to me, is something that parents are behind, teachers 
are behind, communities are behind, the military is behind, law 
enforcement is behind, and I think Congress needs to get behind 
it. I really appreciate your attention on this, and I 
appreciate the bill that you have offered, the Strong Start for 
America's Children Act that you mentioned earlier.
    So far, we don't have any Republican co-sponsors. I'm 
looking forward to hearing what their ideas are and to them 
joining us in this effort along with so many other people in 
America.
    With that, let me just focus on a couple of questions. As I 
said, I travel all over my State. I talk to so many people 
about the importance of early learning, and yet what I hear 
from families is story after story after story about waiting 
lists for child care or preschool.
    So, Ms. Ewen, you talked about this, and I'd like for you 
to focus on it a little bit more. It isn't just a matter of 
who's managing it or how it's streamlined. It really is access 
for these people. What are the barriers for these families to 
getting into early learning opportunities?
    Ms. Ewen. In DCPS, we do not have any barriers. We offer 
the pre-K program in the neighborhood school. Families register 
through the lottery in the same way they do for a seat in 
kindergarten or first grade. Right now, we have universal 
access across the city.
    Senator Murray. So do all children attend?
    Ms. Ewen. We have available space for all families. 
Sometimes they have to travel a little bit. They look for 
different things. We have choice. So their neighborhood school 
may not have the program they want. They may want a Montessori 
program, and so they look for that program in a different 
school. But we do have enough space for all the children 
between DC public schools, the charters, and the community-
based providers.
    Senator Murray. What is your percentage of attendance?
    Ms. Ewen. Across the city, we have 90 percent of our 4-
year-olds and 70 percent of our 3-year-olds who are currently 
enrolled.
    Senator Murray. This is quite different, Mr. Chairman, than 
most of the Nation. In a lot of the Nation, 80 percent of the 
kids who enter kindergarten have not had any early learning 
experiences.
    Ms. Ewen. And one of the things that we've done is we've 
really eliminated--we do all the back work to make sure that 
families are eligible, that they are where they need to be. 
Families just go where they want to go. They don't have to say, 
``Hey, I have to put a piece of paper here and here and here.'' 
We've made the spaces available throughout the city at the kind 
of providers they want.
    Senator Murray. Ms. Brantley, are there barriers? Do you 
have a 90 percent rate? Where are you?
    Ms. Brantley. I would love to be able to say we have the 
same thing that DC public schools have. We do not yet in 
Colorado. I think that we--under-resourced is, I think, my 
favorite expression right now.
    We have some really high-quality programs. We know that 
they are effective. We simply don't have enough money in them 
to serve everybody, whether it's the State preschool program, 
which, by the way, can be used birth to five in certain school 
districts. But we certainly don't have enough money in the 
child care assistance program. Head Start, we already know--
Early Head Start--none of those are funded to the point where 
100 percent of the eligible children can be served.
    As we work to combine these funding streams locally into 
high-quality programs, it does help a little bit, because 
families can stay in with different funding streams as they 
sort of ebb and flow in and out of their eligibility processes. 
But at the end of the day, you have a waiting list, because 
there simply are not enough dollars in the system to fund 
everybody across the board in the way that they've managed to 
do in the preschool by combining Head Start and preschool, as I 
understand is in DC public schools.
    Senator Murray. My time is up. But, Mr. Chairman, I know 
that we use words here that don't mean a lot. When I heard one 
of our panelists--I think it was Mr. White--talk about the wide 
disparity of kids entering school today from those who have had 
some kind of early learning, and they don't--let me translate 
that for you. As a kindergarten teacher said to me, three-
quarters of her kids come without any early learning and do not 
know how to turn a page in a book or hold a pencil. That is a 
huge disparity when you are a child starting out in 
kindergarten.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murray.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Mr. Chairman, thank you very much.
    I want to thank the panel. I appreciate your testimony and 
your personal witness. I was in and out so I missed some of the 
dialog.
    This is an issue that I think for a lot of us has commanded 
not just our attention, but I think our passion and our focus 
for a long time. And I know virtually every member of this 
panel and others have made it a priority. I think we're 
starting to make progress. We have Senator Harkin's bill, the 
Strong Start for America's Children legislation, which is 
gaining significant momentum now and support. The House has a 
comparable measure.
    I think when you get right down to it, it's, obviously, the 
right thing to do for our children, but it's also the right 
thing to do for all of us, because all the data shows--and it's 
irrefutable now--that this is a critically important part of 
economic growth, gross domestic product, skill development, 
workforce development. Almost anything we can talk about that 
relates to our economy has its origin in early learning.
    I like to say if kids learn more now, they'll earn more 
later. It's a nice rhyme, but it actually is true, unlike some 
rhymes around here, I guess.
    But one part of the support structure for this--and it's 
been substantial. I saw it in Pennsylvania, going back even 
more than a decade, as support was building. The support from 
the business community has been remarkable and I believe 
essential. So we've gotten tremendous support from across the 
board. You can't talk to many CEOs of major companies or even 
smaller firms that don't agree with it.
    But for those who have not been persuaded yet, what would 
you say to them? Maybe I'll start with Ms. Brantley just to 
talk about--and anyone else on the panel--your interaction with 
business leaders and the priority they place on early learning 
as a way to build a stronger workforce and a stronger economy.
    Ms. Brantley. A group of business leaders in Colorado 
formed an organization in the last few years called EPIC, 
Executives Partnering to Invest in Children, who are working 
collaboratively with those of us in the direct practitioner 
world, the advocacy community, and others to try to build more 
of that understanding among business leaders throughout our 
State about the importance of this.
    One of the things that I find very interesting about them 
is that--and, Senator Franken, this is kind of coming back to 
something you mentioned earlier--they don't focus so much on 
the child's academic outcomes as they do on children's--what we 
call sometimes now in the field--executive functioning skills, 
being able to take turns, being able to wait for delayed 
gratification, being able to set goals and achieve them, being 
able to simply show up on time and be there and control 
yourself and take care of your own needs, and also being able 
to take someone else's viewpoint into account. They focus on 
that a lot more.
    We find that our District Attorney in Denver also focuses 
on that a lot. He will say that without those skills, you show 
up in his world. With those skills, you show up in a successful 
business person's world as an adult.
    It's an interesting additional conversation that we are 
able to have with those business leaders who really can dig 
down into what it is that a high-quality early learning program 
needs to set children on a path toward, and that it's not just 
their academic outcomes. It's also their outcomes as a person, 
as an individual who can function well in our society. It 
brings a little bit of a different tone to the conversation.
    Mr. Yoshikawa. If I could add a little bit on that, the 
Boston universal pre-K program, in addition to producing the 
largest vocabulary and math impacts of any public pre-K 
evaluation to date, also affected all three dimensions--there 
are three dimensions of what Ms. Brantley was talking about 
around executive function skills.
    But I'd like to highlight that we do have these very 
serious access problems so that children are not getting 
access. Sixty-five percent of 4-year-olds in the bottom 40 
percent of this country are attending preschool. And in 
comparison, 90 percent of the top 20 percent as far as income--
90 percent of those kids get access to these rich experiences. 
So I'm not sure 200 or 300 Centers of Excellence really meet 
the demand that we need, that our economy needs in the 21st 
century.
    Senator Casey. I only have about 15 seconds, but if you 
both can comment quickly, that would be great.
    Ms. Ewen. I am a champion fast talker. I would add to what 
Charlotte has said, that in addition to building the case for 
the workforce for the future, the stability of an early 
childhood system today means that business leaders have staff 
that are going to be able to come to work every day, that are 
going to be reliably at work, and that feel comfortable being 
at work because they know their children are safe and well 
cared for, as well as building the workforce for the future. 
This is a reform strategy that strengthens our capacity to have 
better graduates who have higher skills throughout their 
lifetimes.
    Senator Casey. Thank you.
    Mr. White.
    Mr. White. I would only add on a different spin on this 
question that tax credits that exist from one State to the 
next, including corporate tax credits for child care subsidies, 
are also an important part of the financing structure and are 
more reason why we should allow States to design their own 
funding regimes rather than continuing to manage a portfolio of 
10 or 20 different programs.
    Senator Casey. I'll have some questions for the record. But 
thank you very much.
    The Chairman. Thank you, Senator Casey.
    Ms. Ewen, I had my staff look at, and they've informed me--
I maybe need to go out and get a little hands-on look at this, 
too. But I think what you've accomplished in the District of 
Columbia is quite astonishing, quite frankly, how you've put 
all these entities together. There's a couple or three things I 
want to just have a dialog with you on.
    You relied on facilities of traditional and charter 
elementary schools. In other States, however, they've gone 
outside the school system, such as Head Start agencies and 
other community-based providers. If that were the case, are 
there any lessons that you've learned that could be carried 
over to that type of an implementation, where you might go 
outside the system?
    Second, you suggested that a Head Start blended model was 
critical. Now, this is new to me. We always thought of Head 
Start as serving low-income kids. They're sort of segregated 
out. What you did was put them in with everybody else. I'd like 
to know how you've done that. And what has been the reactions 
of parents who would be ineligible for Head Start because of 
income? How do they feel about their kids being in that program 
with kids who are eligible?
    Those are two things I just wanted you to address yourself 
to.
    Ms. Ewen. I am happy to address that. I first want to make 
sure that I don't get all of the congratulations, because it 
really took the leadership of the city to do what we did and 
people coming together with a combined vision.
    To your first question, I do think it is critical to have 
community-based providers as part of what we're doing. The 2008 
bill that we passed in the city included funding to improve the 
quality and the capacity of the community-based providers in 
addition to building the school funding formula so that we 
could serve 3s and 4s in the school buildings.
    So it really is a matter of committing to all the places 
where families might want to go and need to go for a variety of 
reasons. As I said earlier, some families have a different 
choice of the kind of program model they want, but some----
    The Chairman. But I think you just stated within the 
existing school structure.
    Ms. Ewen. Most of it is in the school structure now. But we 
do still have some community-based providers.
    The Chairman. Oh, you do?
    Ms. Ewen. Yes, and I do think it's critically important 
that we have those community providers, because some families 
still need 10 to 12 hours of care because of the nature of 
their work or other issues in their family. But most of our 
kids are in either traditional public schools or in the 
charters, because our funding comes through the school funding 
formula. But we make sure that community providers are part of 
the act, that they're part of the approach to universal.
    We're lucky in that we had space in our schools to do this. 
Many communities don't have that space. In New York City 
schools, for instance, they don't have extra space, and so 
community providers have to be a part of that equation.
    But what we've seen across the country is that there is the 
capacity to do partnering between community providers and local 
school buildings and local school districts when folks come to 
the table together. Charlotte has seen this in her community. 
We've seen it in other places around the country. We see it in 
Georgia. We see it in New Jersey with the Abbott program.
    We see lots of opportunities for folks to partner to make 
sure that families are not the ones that have to answer the 
question, that we as a community can say, ``We have a range of 
options for you.'' But it started with the funding, and then we 
went to how can we do this appropriately. So that's an answer 
to your first question.
    Your second question about mixed income----
    The Chairman. Blending, yes.
    Ms. Ewen. That's actually one of my favorite things to talk 
about, so I'm glad you asked. When we looked at who wasn't 
getting services, it was both Head Start eligible families and 
families who were making maybe a dollar more. When we talk 
about our mixed income, it's not just poor and higher income. 
It's extremely poor, it's poor, it's near poor, it's low income 
under 200 percent, and then we have some higher income families 
as well.
    One of our challenges was why are we providing Head Start 
services through one door when you have a family who needs 
exactly the same things who can't get in that door. That's one 
of the things we tried to address with the model.
    The second thing we addressed is that you cannot look at a 
family or look at an income number on a piece of paper and know 
what that family needs. And all the research from early 
childhood shows that it's not just high-quality teachers that 
make a difference or an educational option. It's making sure 
the family has that comprehensive set of supports.
    Again, it's not about ``You live in poverty, so you need 
family services. And you don't live in poverty, and you don't 
need anything else.'' All of our children need to be assessed 
developmentally to make sure that we can get them the supports 
they need early so that if they need early intervention, we can 
get them that. We need to know that families have what they 
need to make sure their children are healthy, that they have a 
medical home, as Senator Alexander mentioned. All families need 
those supports.
    What we find when we look at where our families are is that 
families are coming to our schools. They're not saying, ``I'm 
not going to go there because that's a poor school.'' Families 
come to our programs because they're high quality and they're 
providing early childhood experiences that families want, 
regardless of income, and they enroll their kids.
    They see this as part of the school experience, and they 
enroll their kids, regardless of whether the child sitting next 
to their kid is poor or not. We have a system where everybody 
comes.
    The Chairman. And you didn't run into any real problems 
with that?
    Ms. Ewen. We didn't run into any problems in terms of 
people saying, ``I'm not going to go to that school because 
that's a poor school or that's Head Start.'' A lot of that was 
in the language used, I will say, in what we did with the Pre-K 
Expansion Act. We took a lot of the labels off.
    Again, we, behind the scenes, deal with those labels and 
deal with those funding streams. We say, ``This is school. This 
is pre-K. This is where your child is going to go this year.'' 
So we don't put that burden on families to identify where they 
need to go or what it's called.
    The Chairman. Thank you.
    Senator Alexander.
    Senator Alexander. I want to go back to the issue that has 
been brought up by many of you and many Senators, which is 
fragmentation. I want to discuss it in a way that does not 
exclude whatever need there is for additional subsidies either 
from State or Federal Government.
    I should add that Senator Murray--I'm sorry, she left. She 
said she hadn't heard a Republican proposal. Well, I'm a 
Republican, and I made a proposal. But I didn't want it to be 
thought of as a Republican proposal. I was hoping that we could 
take the Head Start Centers of Excellence idea and fully 
implement it, which would mean go from 10 to 200 centers 
recommended by the Governors and selected by the secretary, and 
then fully fund it, which would be to go from $10 million to 
$100 million.
    Mr. White, let me ask you this. The whole idea of that in 
2007 was to try to address the fragmentation issue that we've 
talked about. But as I listen to you, you're not able to really 
do that with just--because you have Federal laws and rules, and 
no one has the authority to coordinate the various programs. I 
mean, you can't just identify, let's say, all the 3- and 4-
year-olds in Baton Rouge, and then take all the Federal, State, 
local, and private money available for early childhood 
education in Baton Rouge, and then create a comprehensive 
program to address the needs of those children.
    I know there are like 45 Federal programs, but only 12 of 
them are most of the money, and then Head Start and the Child 
Care and Development Block Grant are most of that. So could you 
envision a way where we could at least create pilot programs, 
such as these 200 centers, and say, ``Louisiana, you can take 
two or four jurisdictions''--the State can--and working with a 
local jurisdiction, you can override all the Federal rules and 
come up with your own plan for how to spend all the money you 
can assemble for all the early learners in that jurisdiction.
    Could you envision that? Sometimes it's better if we start 
off with pilot programs than if we just make a change that 
affects this entire complicated country at one time. We usually 
don't have enough wisdom to do that here.
    What's your comment on how we--could we advance the Head 
Start Centers of Excellence idea with more authority and, in 
doing so, make it easier to do what we had hoped to do, or at 
least I had hoped to do, which is to identify all the children, 
identify all the dollars, and put it together in the most 
effective way?
    Mr. White. I think you'd find willing participants in 
Louisiana, most certainly, Senator, and I would hope across the 
country. I believe the principles that you're advancing are 
exactly the right principles with respect to cutting out the 
fragmentation.
    I actually believe in their own ways that the Washington 
example and the Denver example are very good instances in which 
we've cut out the eligibility--or we've minimized the results 
of the fragmentation on eligibility for parents and families, 
on the operating rules, and on the size of the subsidy, and 
we've just asked, ``What's best for the child?''
    Senator Alexander. But in Denver, you have to do a lot of 
negotiating to get that done, right? I mean, for example, if 
you want to involve Head Start in your universal application 
form, you've got to persuade them to do that. Is that correct?
    Ms. Brantley. Persuade, invite, encourage them to do that, 
yes. But we think that we're making a lot of progress on that. 
I think that, as John has pointed out, there are so many 
different masters in charge of all of these different programs.
    Senator Alexander. Yes.
    Ms. Brantley. It can be done. I think what you see that has 
been done in DC, what you see has been done in our program in 
Denver--there are some other programs in Colorado that have 
successfully navigated those things. So it can be done. I think 
that the potential for the new Early Head Start-Child Care 
partnerships may help us to pave the way to a bit more of what 
you're talking about.
    Senator Alexander. But you know the number of 3- and 4-
year-olds in Denver, right? I mean, that's a definite.
    Ms. Brantley. Right.
    Senator Alexander. And you probably know pretty well the 
total amount of money in all the programs that are available to 
help them. Is that correct?
    Ms. Brantley. Yes.
    Senator Alexander. But you've just got a lot of different 
people in charge of all those dollars.
    Ms. Brantley. Well, it's the way that this field has grown 
up, with multiple funding streams and with multiple people. 
However, you can at a community level--when there is the desire 
at the community level to pull those pieces together, you can, 
in fact, do it. But you have to have people who are pretty 
conversant in what each one of those is requiring.
    At Clayton Early Learning, what we have decided to do is to 
take the high road, and whatever the highest quality piece of--
a regulatory model or whatever it might be that comes from any 
one of our funding streams, we aim for that one so that we are 
at the highest point of each one of those. So it can, in fact, 
be done.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman. I think I'm going 
to followup on the same point that Senator Alexander was 
making, but from a little different perspective.
    It's clear to me that our country needs a strong early 
childhood education system. Investments in our children are 
investments in the future. And that's why I'm pleased to join 
President Obama and Chairman Harkin and so many others in the 
push for substantial increases to investment in early 
education.
    Research shows that the payoff from these investments is 
greatest when the early education programs are of high quality. 
So if we want to increase investments in early education, we 
need to be very careful that we're investing only in high-
quality models.
    Now, we can try to ensure quality from the outset by using 
certain conditions, like class size or a well-designed 
curriculum. But we also need to have a way to determine whether 
we're making the right investments. So what are the metrics 
that we should be tracking to determine whether States are 
investing in practices and programs that work? Anyone--who 
would like to answer this?
    Dr. Yoshikawa.
    Mr. Yoshikawa. Head Start has made progress on that, as you 
know, in the last reauthorization by instituting a progress 
monitoring tool, the CLASS classroom assessment, which Mr. 
White also mentioned is being used in Louisiana. So taking the 
pulse of a system's quality is extraordinarily important. This 
is not about high stakes assessments that are then tied to 
hiring and firing decisions. But this is about how systems have 
done this at scale.
    In the research world, I think we very much value pilot 
programs, but only in situations where we really don't know 
what to do. We now know how to implement high-quality preschool 
at scale across entire States, like Oklahoma. So I think we're 
far beyond the point of pilot programs, given the scale of the 
need of young children in this country.
    Senator Warren. Could I ask you to say, Dr. Yoshikawa, just 
for all of us, a little bit about the kinds of data that are 
tracked so that we're assuring ourselves that we're spending 
our money in the right places?
    Mr. Yoshikawa. Sure. The CLASS assessment, for example, is 
observational. So it is not about what's typically done, which 
is a supervisor coming in and checking only class size or group 
ratios or those kinds of things. It actually gets at the 
quality of interactions between teachers and children related 
to instruction, related to classroom management, related to 
their ability to be responsive in their interactions with 
children. That's the aspect of quality that matters a great 
deal for children's learning.
    Senator Warren. Good. Thank you.
    I have another question I want to ask, and that is about 
preparing the workforce. There seems to be a growing consensus 
that better-educated teachers are critical to building a high-
quality pre-kindergarten program. But I think there are still 
some big questions about how we get there and who is going to 
pay for it.
    Increasingly, State and Federal policymakers are 
considering measures to require preschool teachers to get at 
least some college training. Proposed legislation often says 
that teachers should have early childhood degrees or be in a 
related field. But the content of these teacher preparation 
programs vary, and there seems to be an opportunity to improve 
these preparation programs if we can be more specific about 
what we need from them.
    So I want to start by asking what the research on early 
childhood education tells us about the kinds of skills that 
teachers need to be effective in the classroom.
    Ms. Ewen, did you want to answer on that? Or anyone.
    Ms. Ewen. I'll let Dr. Yoshikawa start.
    Senator Warren. OK. Good.
    Mr. Yoshikawa. Qualifications are important. One of the 
ways that they're important in issues like compensation is that 
we have a terrible situation with the average pay of preschool 
teachers. Teaching children 1 or 2 years older can double your 
salary. So we have enormous teacher turnover, which is not good 
for stable systems, and it's not good for child development.
    The approaches to improving teacher skills in the 
classroom, which include this structured curriculum plus the 
coaching and mentoring in the classroom, have been proven with 
teachers with a variety of qualifications and skill levels, 
including child care providers, Head Start teachers, as well as 
B.A.-level public pre-K teachers. So, again, we know how to 
create high quality tailored to different skill and 
qualification levels of the teacher and caregiver workforce.
    Senator Warren. Ms. Ewen.
    Ms. Ewen. The only thing I would add is that we look to 
teachers who are strong on instructional support, that is, they 
know how to talk to children to scaffold their learning, to ask 
higher order questions of children to build their vocabulary. 
We look to them for emotional support of children's full range 
of development, and we look to make sure that teachers are 
prepared to use the classroom environment to support how 
children learn, that is, centers, play areas, those kinds of 
things.
    We find that B.A. degree teachers with early child 
experience are critical to that, as is a second adult in the 
room with early childhood experience. But we also need that 
ongoing coaching and professional development, because teachers 
need a lot of help in managing the individual children that 
they get.
    We're getting many more children with special needs. We're 
getting many children from language minority backgrounds. And 
those things may well be taught in college environments, but 
teachers need the help and support they can get on a daily and 
weekly basis to build those skills.
    Senator Warren. I think Ms. Brantley wanted to add 
something.
    Ms. Brantley. Just to build on what has already been said, 
some of the things we're also learning is that our teacher 
preparation programs, as you pointed out, aren't necessarily 
hitting the mark, either, yet. And we have a lot going on with 
that in Colorado right now with a new set of core competencies 
for early childhood professionals that we are now working to 
embed within college course work and mirroring it with 
coaching, actually, at the same time.
    One of the pieces that we have really begun to learn is 
that we have not been doing a good job of preparing our 
teachers through college course work in math and in science. 
We've spent a lot of time around early literacy, around helping 
make sure that teachers are having the kinds of conversations 
that Danielle was pointing out.
    But we're also learning that they aren't necessarily 
competent themselves, particularly in the area of math, to be 
able to then bring that down appropriately to a 2-year-old, 3-
year-old, 4-year-old kind of level. So as we redid our early 
learning standards in Colorado, we paid very special attention 
to what we should be expecting our 3-, 4- and 5-year-old kids 
to know and be able to do. Now, how do we make sure our 
teachers know how to be able to encourage that development in 
those fields of those young children.
    Senator Warren. Thank you. That's a very interesting point, 
and I see that I'm out of time, so I'll quit. But I do want to 
say as long as teacher pay remains so low for our youngest 
learners, we're going to have difficulty attracting and keeping 
teachers in this area. And we really have to ask how realistic 
it is to say that we're going to raise the standards, expect 
people to go to school to incur more college loan debt, when 
the consequence is to leave them in a profession where they 
won't be able to pay off that debt. So I think these pieces are 
related to each other. We must come back to them.
    I thank you all very much for your work, and thank you for 
being here.
    Thank you, Mr. Chairman.
    The Chairman. I just have one last question, mostly for my 
curiosity more than anything else. I noticed that in the 
District of Columbia, I believe that you have involved either 
one or more--I don't know how many--Montessori schools in your 
preschool program. It's more than one, maybe?
    Ms. Ewen. Yes. I have four schools that are Montessori 
accredited that are part of the public school system.
    The Chairman. And how is that working?
    Ms. Ewen. Beautifully. It's another aspect of parent choice 
that we have. The programs have Montessori-trained teachers. 
They have all the Montessori materials. We send the teachers to 
training when we can that is Montessori specific. Our PD is 
around Montessori practices, and we train both the teachers and 
the aids to be Montessori.
    The Chairman. Well, I just personally happen to be a big 
fan of the Montessori method. Both of our kids attended early 
learning Montessori, and I've sort of kept in touch with the 
Montessori schools. We have one in Iowa. Well, no, we have a 
lot of private, obviously, preschools. There I go again--early 
learning. We have one elementary school in Iowa that is a 
Montessori elementary school, and it just does fantastic. So 
I'm more interested in the Montessori methodology of teaching 
in the early years.
    Do any of the rest of you have any thoughts on that? I 
really kind of wanted to put it into my bill, but I guess I 
didn't. But I may want to add it as an amendment to give some 
preference, or to give some sort of little push for grantees to 
involve existing Montessori or to start Montessori 
methodologies in early learning.
    Ms. Ewen. Let me just say that one of the reasons we 
support the Montessori curriculum is because it's one of four 
research-based curricula that we put out for families. 
Different children develop in different ways, and different 
families have different preferences.
    I think it's important to have a range of research-based 
curricula to meet the needs of families, and I would be wary of 
limiting or prioritizing one over the other. Just because some 
children thrive in a Montessori environment, other children, 
like my son, for instance, who is a baseball fanatic--if you 
put him in a Montessori environment, all he would have done was 
play with the balls, and I'm not sure he would be reading at 
13.
    [Laughter.]
    So it's really important that we have--see, you're all 
laughing. I'm serious. I think it's really important that we 
have a variety of environments that every family can choose 
from, regardless of the learning style of their child, but that 
every environment be based on a research-based curriculum that 
has criteria that has been established in the past that support 
not just reading and math, but also social and emotional 
development for our kids.
    Mr. Yoshikawa. If I could add, really, there are even more 
than four. What's very strong about the preschool evidence 
literature is we have 12 or 15 rigorous evidence-based 
curricula. And I would like to thank the Institute on Education 
Sciences for funding a lot of that research. I think there have 
been major advances. I'm starting with Russ Whitehurst and now 
with John Easton to build the rigorous science of preschool 
education in this country that is relevant to quality 
improvement.
    The Chairman. Anyone else?
    Senator Alexander. Mr. Chairman, if I could respectfully 
suggest, you might call that the Harkin School Choice 
Amendment.
    [Laughter.]
    The Chairman. I'll call it the Alexander-Harkin. You're A. 
I'm H.
    But I like that idea, but I want to make sure they're 
research-based and they're proven--just not some pie in the sky 
kind of thing that some person has an idea on. It's just that I 
have been watching the Montessori methodology for a long time, 
and I'm quite enthused about it.
    Now, you say there's some kids who won't thrive in it. 
Well, I don't know about that. Maybe you're right. But it seems 
like it's a methodology in which just about any child could 
thrive--again, you've got to have good parental involvement, 
too.
    Ms. Ewen. And, again, I think it's an opportunity to talk 
about the need for well-compensated teachers.
    The Chairman. That's true, too.
    Ms. Ewen. Because the implementation of the Montessori 
model in our other models needs somebody who can themselves 
think through a curriculum, think about how to individualize 
for each child, and is delivering what kids need. That goes 
right back to compensation, and we, of course, pay all of our 
preschool teachers the same way we pay our first, second, and 
third grade teachers.
    The Chairman. Thank you.
    Are there any last things that anybody wants to bring up 
before we go?
    Thank you all very much. You're excellent thinkers on this. 
You've provided some good input into this. We're going to 
continue to have some more hearings on this and we hope that we 
could--our staff, at least, could keep in contact with you as 
we move ahead to get other thoughts and suggestions as we 
develop this legislation.
    I appreciate it very much. The record will stay open for 10 
days for other Senators for questions or comments.
    And with that, we'll stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Casey

    Chairman Harkin, thank you for convening this hearing to 
talk about the importance of early learning. Like you, I share 
a strong belief in the need for the Federal Government to play 
a more active role in promoting access to high-quality early 
learning.
    In my first year in the Senate, the first bill I drafted 
that was referred to the HELP Committee was the Prepare All 
Kids Act, my bill to create a universal, voluntary pre-K 
program. This legislation would build on the investments States 
are already making, helping them expand access to pre-K so that 
all children have access to at least 1 year of high-quality 
pre-K.
    Pennsylvania is one of the States that have made 
significant investments in early learning through its school 
districts and through the dedicated programs Pre-K Counts and 
the Head Start Supplemental Assistance Program, serving a total 
of over 20,000 children.
    At the Federal level, the omnibus appropriations measure we 
recently passed included an additional $1 billion for Head 
Start and Early Head Start, which starts to undo the terrible 
cuts from sequestration.
    An increasing body of evidence demonstrates the lasting 
impact of high-quality early learning. Children who participate 
in quality early learning programs do better on a host of 
measures, including both academic measures (higher academic 
achievement, lower rates of grade repetition, less use of 
special and remedial education) and social measures (decreased 
crime, increased socio-emotional skills).
    More successful children turn into more successful adults, 
and society benefits in many ways. We save money by 
incarcerating fewer people and having to pay for less remedial 
education. Employers benefit from a better-trained and more 
capable workforce. It all starts with high-quality early 
learning.
    We're going in the right direction, but we need to do more. 
We have the opportunity to make a significant investment in 
early learning, and set future generations on a path to 
academic and economic success.
    Chairman Harkin and his staff worked with me, Senator 
Murray and Senator Hirono on the Strong Start for America's 
Children. It has been a privilege to join with the other 
champions of early learning in the Senate on this important 
legislation, and I look forward to continuing our discussions 
on the importance of early learning.
    I would like to thank the Chairman for his commitment to 
early childhood education, and I look forward to hearing from 
our panelists today and am grateful for their testimony and 
expertise.

                 Prepared Statement of Senator Baldwin

    Chairman Harkin and Ranking Member Alexander, I would like 
to thank you both as well as my other colleagues on the 
committee for holding this hearing on high-quality early 
learning, which is essential to fulfilling both the promise of 
the American Dream and the fundamental American principle of 
equal opportunity for all.
    I'm proud that this committee has heard the call and has 
taken action to improve education by working to reauthorize the 
Child Care and Development Block Grant Program (CCDBG), 
improving the Elementary and Secondary Education Act, and 
introducing the Strong Start for America's Students Act. Under 
the direction of Senators Mikulski and Murray we have rolled 
back the harmful sequestration cuts that were extremely 
detrimental to our investments in early learning and care. We 
continue to make progress, but there is more to be done.
    Investments in early learning improve education outcomes, 
support families, and also make basic economic sense. The Nobel 
laureate economist James Heckman has found a lifelong economic 
rate of return of 7 to 10 percent per year per $1 invested in 
early learning. Rob Grunewald and Arthur J. Rolnick from the 
Minnesota Federal Reserve found a $17 to $1 return on 
investment in early learning. It is the very reason that law 
enforcement, the business community and educators alike are all 
clamoring for their Federal, State, and local representatives 
to make sound investments in high-quality early learning.
    The sound evidence that early learning investments work is 
the reason why States are taking the lead in implementing their 
own high-quality early learning opportunities. I am proud to 
say that Wisconsin has long been a leader in investing in our 
children early. Education for 4-year-olds was part of 
Wisconsin's Constitution in 1848 and the first kindergarten in 
the United States was founded in Watertown, WI in 1856. We also 
have strong childcare and early learning partnerships that take 
a community approach to providing every child access to a 
comprehensive delivery system for high quality education and 
care.
    Today, Wisconsin is nearing universal ``4K,'' with over 90 
percent of school districts offering kindergarten for 4-year-
olds, serving 46,914 students--that's 60 percent of the State's 
population of 4-year-olds enrolled in this program. Governors 
throughout the country have followed Wisconsin's lead by 
supporting early learning including Republican Governors in 
Michigan and Alabama who are pushing some of the biggest 
increases in preschool spending in the Nation.
    It is my sincere hope that this bipartisan push for pre-K 
in States across our country will soon be mirrored on Capitol 
Hill. Chairman Harkin, I'm a proud cosponsor of your Strong 
Start for America's Students Act. This measure would fund 
preschool for 4-year-old children for families earning below 
200 percent of the Federal Poverty Level (FPL), and encourage 
States to spend their own funds to support preschool for young 
children with family incomes above that income level. For 
States like Wisconsin, which already provide preschool for 4-
year-olds at 200 percent FPL, funds can be used to expand this 
program for 4-year-olds and then be used to extend the reach to 
pre-kindergarten for 3-year-olds.
    Furthermore, this act will support early learning 
partnerships by authorizing $4 billion for Early Head Start-
child care partnerships. These partnerships will be able to 
serve one in five children living at or below poverty. 
Wisconsin is proud to boast strong Head Start programs, serving 
over 13,000 children in Head Start and 1,872 in Early Head 
Start in fiscal year 2012. I was pleased to vote for a budget 
that increased funding by $1.025 billion over fiscal year 2013, 
allowing Wisconsin to undo the over 800 slots lost due to the 
failed sequestration policy. The budget increase also rightly 
invests $500 million nationwide in Early Head Start.
    Wisconsin is lucky to have a graduate of the Head Start 
program, Lily Irvin-Vitela, as its new executive director. Ms. 
Irvin-Vitela has shared with me her own personal success story 
of how Head Start transformed her life. She also shared the 
amazing impact Head Start is having on the ground in Wisconsin, 
including the unique partnership that Head Start programs have 
between parents, staff, community leaders, and advocates. The 
early intervention and two-generational approach has 
transformed the lives of children and their families across my 
State. I was touched by the story of Charisse Daniels, whose 
son Rowan was enrolled in Head Start. Not only did Rowan excel 
but Charisse's entire family dynamic changed. Charisse became 
involved in Head Start and is now the Local Policy Chairperson 
for CESA, 2, Jefferson County. Most impressively, she plans on 
pursuing a higher education in order to work in the early 
education field.
    Mr. Chairman and Ranking Member Alexander, I would like to 
submit Charisse and Lily's story into the record for this 
hearing.
    Equally as important as investments in pre-K and programs 
like Head Start are the commitments we make to high-quality 
childcare. CCDBG is the primary Federal grant program that 
provides child care assistance for parents that work or are 
participating in education or training activities. Our recent 
budget agreement provides CCDBG with $2.36 billion for fiscal 
year 2014, an increase of $154 million over fiscal year 2013. 
This allows organizations like Wisconsin's Early Childhood 
Association to provide quality childcare services throughout 
the State.
    Mr. Chairman, I would also like to submit for the record 
Joan Mrvicka's story. She has been a childcare provider in 
Wisconsin for 22 years. Over more than two decades, she has 
seen the investments in high-quality child care and early 
learning payoff. Joan owns and runs Joan's Tot Spot. She was 
able to further her professional training and earn the 
Administrators Credential and the Infant and Toddler 
Credential, through the T.E.A.C.H. Early Childhood Wisconsin 
Scholarship Program. T.E.A.C.H is administered through WECA for 
early childhood professionals wishing to further their credit-
based education using Federal funds from the Child Care and 
Development Fund.
    The bottom line is that investments in early learning 
opportunities work. It is what the research has shown. It is 
why States are moving ahead with investments in early learning 
opportunities. It makes sound economic sense. And, most 
importantly, it changes lives--not only of the children 
involved but the lives of their families and communities. It is 
my hope that this hearing helps illustrate the need for strong 
Federal investments in early learning so we can expand these 
success stories and truly provide equal opportunity for all. If 
we are to out-innovate, out-educate, and out-build the rest of 
the world we must make sound investments in children, early.
                                ------                                

                         Letters for the Record
                         lilly irvin-vitela\1\
    Dear Honorable Senator Baldwin: As the executive director of the 
Wisconsin Head Start Association and a former Head Start graduate, I 
know the power of high quality early care and education. My family's 
Head Start experience in Albuquerque, NM was life-forming! My love of 
learning, joy I take in working and being with others, belief in 
possibilities, and passion for early learning was forged in my own 
earliest years and cultivated through public education. As a Maters'-
trained community and regional planner, I understand that it takes more 
than a built environment to form healthy communities. Policies that 
invest in people, especially young people and families, have tremendous 
positive impact.
---------------------------------------------------------------------------
    \1\ Executive Director, Wisconsin Head Start Association, 4222 
Milwaukee Street, Suite #22, Madison, WI 53714; E-mail: irvin-
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80f6e9f4e5ece1c0f7e8f3e1efeeece9eee5aeeff2e7">[email&#160;protected]</a>; 608.442.6879 (office), 608.577.8987 (cell), 
608.442.7672 (fax); www.whsaonline.org.
---------------------------------------------------------------------------
    This week as you participate in the HELP hearing, I want to add my 
voice to the voices of others in support of high quality early care and 
education in general and Head Start and Early Head Start in particular. 
One of the distinguishing factors about Head Start and Early Head Start 
is the unique and powerful partnership between parents, staff, 
community members, and advocates. In Head Start our work is framed 
daily as more than early care and education, it is early intervention 
using a two-generation model. We know from research on the developing 
brain and social emotional development that it isn't possible to work 
effectively with any child, without understanding the child in the 
context of their family, community, and culture. By partnering with 
parents from issues related to their child specifically and their 
family's needs in particular, to involving parents in the governance 
and operations of Head Start and Early Head Start, we daily live our 
values around empowering families and building community.
    Another critically important component of Head Start and Early Head 
Start is our level of accountability and efficacy around consistently 
delivering high-quality services to the most vulnerable families who 
are living in poverty. We are not simply committed to do something. We 
are committed to doing everything possible to meet families where 
they're at and connect them to concrete resources through a broad 
continuum of services. To provide an overview, our comprehensive 
services range from school readiness, physical activity, nutrition, 
oral health, and access to mental health providers for children to 
leadership development, job training, career exploration, and financial 
goal-setting with families.
    Your long-term support of Head Start and Early Head Start as well 
as high quality early care and education is well-known and deeply 
appreciated in our Wisconsin Head Start Association. Your understanding 
of the degree of importance of the early years for children and 
families is evident in the policy positions you've taken in support of 
promoting healthy child development. However, supporting high quality 
early care and education isn't simply a smart child development and 
family development strategy; it's a strong community and economic 
development strategy.
    The return on investment from decisions such as restoring cuts 
experienced during budget sequestration, is more than restoring an 
opportunity for children from low-income and working class families. 
Rob Grunewald and Arthur J. Rolnick from the Minnesota Federal Reserve 
have demonstrated through their economic analysis that for every 
$15,000 invested per child over the course of 2 years in high quality 
early care and education, there is a $260,000 net present real 
financial gain. In their analysis of the Perry Scope efforts for 
example, they noted a 17:1 dollar return on investment. Their most 
conservative financial analysis demonstrated a 4:1 dollar return on 
investment for public early childhood programs in Chicago. Those 
returns can be seen in less demand for special education, less life-
long criminal justice involvement, less demand for publicly funded 
social services, fewer unintended pregnancies, greater involvement in 
the workforce, increased contributions to the tax base, and higher 
levels of civic involvement.
    Comparatively, Rolnik notes that typical economic tools produce 
zero public return or worse. High quality early care and education and 
early intervention which uses a two-generation model, more than pays 
for itself. Equally importantly, Head Start and Early Head Start also 
generate and support family experiences in which children and families 
are valued. Within Wisconsin, communities and schools are strengthened 
by the children and families who have participated in Head Start and 
Early Head Start. It is our sincere hope that more children and 
families gain access to high quality early childhood services to 
reinforce and strengthen their goals for there children and their 
families!
    Thank you for your support of our children and families.
            Respectfully,
                                  Lilly Irvin-Vitela, MCRP,
                                               Head Start Graduate.
                            charisse daniels
    Dear Honorable Senator Baldwin, I am writing to you today to 
express my sincere gratitude and appreciation for Head Start. My name 
is Charisse and I am a proud Head Start Parent. I decided to enroll my 
son Rowan in the program at the age of 4. At first, it was a way for me 
to help foster a love of learning and make sure a bright mind could 
continue to grow although I could not afford child care. Previous to 
enrollment, I'd just lost my job. My fiance was unemployed. In addition 
to my son, we also had a 6-month-old daughter, Riley. It was difficult 
to make ends meet.
    After a few months in Head Start I began to see a change. My son 
began to meet or exceed his grade level expectations. Not only that, 
but my family dynamic began to change. Through Head Start, not only was 
my son excelling, my family was making progress toward financial 
stability. With all of the resources and referrals we were given, we 
were finally able to live up to our true potential. My fiance found a 
job. Although I'm a stay-at-home mom, I found my calling in early 
childhood education and will be pursuing my degree in the near future. 
It gave us a renewed sense of confidence. Personally, I believe it is 
because of the support we received from Head Start that gave us such a 
boost in confidence and the environment of our home made it possible 
for us to succeed.
    I am so very grateful for the program and the work that they do. 
Head Start has given my family so much more than I could have hoped 
for.
            Sincerely,
                                          Charisse Daniels,
                                  Local Policy Council Chairperson,
  CESA 2, Jefferson County Head Start; Wisconsin Head Start Parent;
               Wisconsin Head Start Association Board of Directors.

                                  February 4, 2014.

                             joan mrkvicka
    Dear Senator Tammy Baldwin: I have been a family child care 
provider for over 22 years and I just wanted to let you know the value 
of quality early child care and the means to get that for parents. 
There will always be grandmas available to babysit the children; 
however, the pre-K and kindergarten grades in elementary schools are 
getting the brunt of that. Many children in our community receive 
quality early child care and preschool from birth, but many others do 
not. It is essential for families that cannot afford a quality early 
childhood environment for their children to have access to a program 
for the children to be able to ``catch up'' to the rest of the children 
as they begin their education. I am glad 4-K is now an option for 
families in our community.
    The other programs that I am thankful for and have participated in 
as a family child care provider and educator are the TEACH Wisconsin 
Scholarships and the REWARD program offered through WECA. While I have 
a degree in another field, it was not Early Childhood. After being in 
the field for so many years, I did not feel it necessary to go back to 
school for that degree. I also did not have the funds to go back to 
college. When I found out about the REWARD program, it gave me an 
incentive to further my early childhood education. Through the use of 
the TEACH scholarships and many awesome early childhood professional 
mentors, I completed the Administrators Credential and the Infant 
Toddler Credential for another 33 college credits in the field of Early 
Childhood. I was then able to get a much higher REWARD!!
    I am married with a family to support, but I see this as a great 
benefit to so many younger adults starting out in the field of early 
childhood. Trying to buy books, pay tuition, afford rent and put food 
on their table is very hard while working. Through the TEACH 
scholarship program they not only get a portion of their tuition paid 
for, but books and release time, in addition to a bonus or higher wage 
after completion.
    This is a great and needed program in our community and I see many 
happy outcomes running around every day in my home as the beneficiaries 
of getting a higher quality care and early childhood education.
            Sincerely,
                                             Joan Mrkvicka,
                                                   Joan's Tot Spot,
                                                 2418 Dahlk Circle,
                                                  Verona, WI 53593.
 Prepared Statement of the American Public Human Services Association 
(APHSA) and the National Association of State Child Care Administrators 
                                (NASCCA)
    Chairman Harkin, Ranking Member Alexander and Honorable Members of 
the Senate Health, Education, Labor, and Pensions Committee, on behalf 
of the American Public Human Services Association (APHSA) and the State 
child care administrators that it represents, we respectfully submit 
this statement for the record regarding the Senate hearing on February 
6th entitled ``Supporting Children and Families through Investments in 
High-Quality Early Education.''
    APHSA is a nonprofit, bipartisan organization representing State 
and local human service professionals for more than 80 years. APHSA 
serves State child care administrators through its affiliate, the 
National Association of State Child Care Administrators (NASCCA). We 
thank Congress for supporting early learning programs through the 
Fiscal Year 2014 Consolidated Appropriations Act (P.L. 113-76). This 
funding moves States in a positive direction. It provides the necessary 
tools to assist States in their collaborative efforts to achieve 
positive outcomes for children and their families.
    The hearing called attention to the multiple Federal programs 
serving the early care and education needs of children, which can often 
be viewed as duplicative, overlapping and too fragmented. We have a 
workable, bipartisan, solutions-focused blueprint for achieving better, 
more efficient and sustainable outcomes for low-income children and 
their families.
    APHSA's policy initiative, Pathways: The Opportunities Ahead for 
Human Services, was developed in coordination with cabinet-level 
commissioners of health and human services agencies, along with 
administrators and program directors from States and counties across 
the country. The outcomes we seek--and that a revitalized system can 
achieve--include gainful employment and independence; stronger and 
healthier families, adults and communities; and sustained well-being of 
children and youth. We know these outcomes can be produced far more 
effectively, sustainably and efficiently in a transformed human 
services system. Child care and other early education programs make 
positive contributions to a broader human services transformation 
effort. However, in many ways they and other programs remain limited in 
their ability to contribute to the sustained outcomes that APHSA 
envisions in Pathways.
    The Pathways vision involves a fully integrated health and human 
services system that operates a seamless information exchange, shared 
services, and a consumer-focused benefits and services delivery system. 
Public human services must move in new directions--down new pathways--
if we are to meet increased demand for assistance at a time of tight 
budgets and heightened public expectations for effective outcomes in 
the work we do. Our solutions require changing health and human 
services in a way that focuses on the needs of people rather than 
compliance with bureaucratic outputs. This requires a new commitment to 
outcomes over process, and a shared investment among Federal and State 
partners.
    Our recommendations include the following:

    Sustainable Federal resources must be provided for States to 
promote innovation leading to a transformative system and positive 
outcomes for children and families. Such resources are essential to 
make the best use of available funds and encourage the use of 
integrated State systems of health and human services, synchronized 
data applications, and streamlined Federal data reporting cycles and 
requirements. We strongly support cross-cutting approaches that reach 
across multiple systems and strive for collective, robust results.
    These systems should be supported by the flexible use of funds and 
facilitate far more effective outcomes with the resources we have 
available. States must have the ability to blend Federal, State and 
local dollars across government agencies and their programs to provide 
a solid, sustainable foundation for these innovations to grow and 
thrive. The flexible use of Federal dollars can also help State 
agencies tap into private resources and blend them with existing 
dollars to support these efforts. Soliciting buy-in from external 
stakeholders is essential in this process. This would amplify State 
efforts to collaborate, coordinate, and shift costs across multiple 
systems and sectors in order to produce robust results. States' 
inability to move funding across programs and among systems hinders 
their ability to innovate and meet children and families' service 
needs. We must be able to take advantage of such flexible approaches in 
this difficult economic and political environment.
    For example, the U.S. Departments of Education and Health and Human 
Services recently awarded six additional States a total of $280 million 
in Race to the Top Early Learning Challenge (RTT ELC) funds to improve 
access and build a statewide system of high-quality early learning and 
childhood development. These States will join the 14 existing States 
participating in the first and second round of funding opportunities, 
initially released in 2011. RTT ELC joins the current list of cross-
cutting, ground-breaking innovations supporting a transformative agenda 
in government. However, APHSA and NASCCA believe the RTT ELC program 
should be a nationwide effort touching all 50 States, tribal government 
agencies and U.S. territories and not limited to a few States competing 
for a small pool of funds.
    These funding opportunities build on and help strengthen the 
capacity of existing programs. They promote school readiness for 
children while cultivating partnerships among public, private and 
community-based sectors aimed at achieving more efficient use of 
resources and maximizing impact. Such initiatives need to be fully 
funded and sustained overtime in order to see tangible results and a 
solid return on investment.
    Because CCDBG is a flexible block grant, there are several 
approaches that Congress can take to support and maximize these 
efforts. CCDBG's reauthorization can be a vehicle that helps move this 
agenda forward. We recommend adjusting CCDBG funds to keep pace with 
inflation using the consumer price index. The flexibility within CCDBG 
must also be preserved to implement these types of innovations. APHSA 
and NASCCA's recommendations for reauthorization can be found here: 
http://www.aphsa-nascca.org/content/dam/NASCCA/PDF%20DOC/Home/
CCDBGReauthorizationPolicyBrief.pdf.
    Rules, regulations, and laws must be updated and made more flexible 
to account for political contexts and practical considerations of 
timeframes, costs, and workforce issues. For decades, systems and data 
bases have been narrowly designed to meet the needs of program 
``silos'' using individual data sets with different definitions. They 
provide a poor fit for the use of innovation in modern technology or 
interagency data sharing in real time. Health and human services 
agencies offer a wide array of supports to a large and diverse 
population. In many situations, individuals need more than one service 
or benefit. However, the pressures of increased demand and declining 
resources have created roadblocks for States. An integrated, 
coordinated system of care would address these challenges, but will 
require robust reforms and a shared investment.
    This shift in our paradigm also requires States to embrace the use 
of timely, reliable data. Electronic data sharing across systems and in 
real time requires standardization and the use of modern and updated 
technology. States can use these approaches to improve information 
exchanges across programs, identify service gaps and inform evidence-
based practices.
    Through enhanced funding opportunities within the Affordable Care 
Act and a time-limited waiver of normal cost-allocation requirements, 
States are able to take advantage of some of these innovative 
approaches. APHSA's National Workgroup on Integration (NWI) has 
developed guidance for States on the need for horizontal linkages of 
health and human services along with an interoperability and 
integration continuum.
    NWI has published several guidance documents, including: Governance 
and Technology Guidance for integrated health and human services and a 
toolkit for States in maximizing the A-87 cost allocation exception. 
These resources assist States in streamlining and connecting clients 
with the appropriate services; aligning eligibility and program 
standards; building interoperable information and technology systems; 
and strengthening program integrity. We encourage cross-cutting 
approaches like these and have taken critical action steps bringing 
together Federal, State, non-profit and private industry partners to 
support States in these efforts. The CCDF program is critical to the 
NWI work. There are numerous benefits to aligning CCDF eligibility 
standards with the Temporary Assistance for Needy Families, 
Supplemental Nutrition Assistance and Medicaid programs. CCDF 
administrators recognize that strategies that minimize agency burden 
and expand and improve access to child care subsidy and other supports 
for low-income children and families are critical at this time. CCDBG 
also does not currently provide for a specific systems earmark to 
support States in improving program integration and integrity. 
Therefore, CCDF Administrators embrace these integrative efforts.
    Processes for reviewing and identifying waste and fraud should also 
be efficient, and methodologies for calculating improper payments must 
be based on measurements that accurately reflect States' work. Program 
integrity and accountability standards should focus on outcomes, not 
outputs, and should gather reliable information needed to design and 
improve effective systems. In this current environment, States are 
pressured to meet restrictive Federal requirements, and this in turn 
has diminished States' ability to be innovative and outcome-driven in 
their approaches to meet the service needs of families. NASCCA and 
another APHSA affiliate, the National Association for Program 
Information and Performance Measurement, have identified areas within 
the CCDF program where waste, fraud and improper payments can be 
reduced and have collaborated with HHS on these efforts. This Federal-
State partnership must continue to make the necessary improvements 
within our current delivery system.
    Support the Government Accountability Office's (GAO) 2012 annual 
report recommendation regarding opportunities to reduce duplication, 
overlap and fragmentation in Federal Government programs (GAO-12-
342SP). GAO recommended that HHS and DOE extend their coordination 
efforts to other Federal agencies supporting early learning. This 
includes the Departments of Agriculture, Interior, Justice, Labor, and 
Housing and Urban Development, as well as the General Services 
Administration and other agencies. GAO's recommendation calls for HHS 
and DOE to follow through with their plans to include these agencies in 
an interdepartmental working group. Currently, there are 
interdepartmental efforts within DOE and HHS to improve the school 
readiness needs of low-income children. APHSA and NASCCA remain 
essential partners in this work and encourage strengthening the 
Federal-State partnership. APHSA and its affiliate members have also 
been included in HHS's strategic plan for fiscal years 2004-9 and 
succeeding years to help identify the similarities and differences in 
program goals, objectives and target populations that tend to overlap 
or be complementary. Being a part of the conversation helps ensure that 
resources are being used effectively and efficiently. HHS has worked in 
consultation with APHSA, its affiliates, and other State associations 
and partners in the development of these common goals and objectives. 
We support GAO's recommendation and encourage the expansion of these 
activities to other agencies.
    Thank you for the opportunity to submit our comments and for your 
interest in examining the investment of quality early education and 
care. We look forward to a full reauthorization of CCDBG and thank the 
Senate HELP Committee for its efforts. If you have any questions, 
please contact Rashida Brown at (202) 682-0100 x225 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="245645574c4d40450a46564b534a6445544c57450a4b56430a">[email&#160;protected]</a>
            Sincerely,
                                          Tracy L. Wareing,
                                         Executive Director, APHSA.

                                           Julie Ingersoll,
                                                     Chair, NASCCA.
   Prepared Statement of Local Initiatives Support Corporation (LISC)
    Chairman Harkin, Ranking Member Alexander, and distinguished 
members of the Senate Committee on Health, Education, Labor, and 
Pensions:
    The Local Initiatives Support Corporation (LISC) commends you for 
coordinating a hearing on early childhood education and appreciates the 
opportunity to submit written testimony. This discussion is a positive 
step toward understanding the importance of early childhood development 
and securing critically needed investments to ensure that all children, 
especially low-income children, are given a strong start and enter 
kindergarten ready to learn. As you consider ways that Congress can 
help children get an early start on the pathway to success, we 
encourage you to recognize the critical role that early childhood 
facilities play in preparing young children for achievement in school 
and in life, and urge you to ensure that Federal policies adequately 
finance the acquisition, construction, and improvement of these spaces.
                               about lisc
    Established in 1979, the Local Initiatives Support Corporation 
(LISC) is a national nonprofit with Community Development Financial 
Institution (CDFI) designation, dedicated to helping community 
residents transform distressed neighborhoods into healthy places of 
choice and opportunity--good places to work, do business and raise 
children. LISC mobilizes corporate, government and philanthropic 
support to provide local community development organizations with 
loans, grants and equity investments; local, statewide and national 
policy support; and technical and management assistance.
    LISC has local offices in 30 cities and partners with 60 different 
organizations serving rural communities throughout the country. We 
focus our activities across five strategic community revitalization 
goals:

    <bullet> Expanding Investment in Housing and Other Real Estate;
    <bullet> Increasing Family Income and Wealth;
    <bullet> Stimulating Economic Development;
    <bullet> Improving Access to Quality Education; and
    <bullet> Supporting Healthy Environments and Lifestyles.

    For more than three decades, LISC has developed programs and raised 
investment capital to help local groups revive their neighborhoods. 
Because we recognize the link between human opportunity and social and 
economic vitality, we have spent the last 17 years working to bring 
high quality early care and education settings to low-income 
neighborhoods where children enter the world at high risk for negative 
outcomes. Through our signature early childhood program, the Community 
Investment Collaborative for Kids (CICK), LISC has invested $48 million 
in planning and developing 184 new facilities serving 20,000 children 
in more than 65 low-income urban and rural neighborhoods across the 
country.
                                overview
    Early childhood is a critical development period. Research shows 
that a complex interplay between genetics and environment profoundly 
influences how children grow physically, socially, and emotionally. 
Investments in high quality early childhood programs can help promote 
healthy development and strong communities. Those active in community 
revitalization believe without question, that early care and education 
programs are essential parts of every neighborhood--they prepare young 
children for success in school and life, support working parents, and 
improve family well-being.
    Regrettably, many families--particularly those who are low-income 
or in rural areas--lack access to the stable, high-quality early 
childhood centers that parents need to maintain gainful employment and 
children need to grow and thrive. Additionally, while there is 
appropriate focus on the need for high quality curriculum and qualified 
teachers, the physical environment is an essential feature that is 
often overlooked.
    In this testimony, we highlight the important role that physical 
environments play in supporting the quality of early learning programs 
and healthy early childhood development and encourage Congress to 
address the need for comprehensive early childhood facility policies.
                               background
Early Childhood is a Critical Development Period
    Decades of research has shown that early life experiences are 
extremely important to the social, emotional, and academic development 
of children.\1\ Positive experiences promote healthy brain development 
and behavior, while negative experiences undermine development--and, in 
severe circumstances, permanently impair a child's nervous and immune 
system, stunting healthy growth.\2\ High quality early care and 
education is widely regarded as the single most effective intervention 
to promote healthy development and close the academic achievement gap 
for low-income children at risk for poor social and economic 
outcomes.\3\ The data are clear: the quality of one's early childhood 
experiences profoundly influence that person's future life trajectory.
---------------------------------------------------------------------------
    \1\ Jack P. Shonkoff and Deborah A. Phillips, Editors, From Neurons 
to Neighborhoods: The Science of Early Childhood Development, National 
Research Council Institute of Medicine, National Academy Press, 
Washington, DC 20000.
    \2\ National Scientific Council on the Developing Child. 
``Excessive Stress Disrupts the Architecture of the Developing Brain. 
Working Paper No. 3'' (2005) http://www.developingchild.net/pubs/wp/
Stress_Disrupts_Architecture_Developing_Brain.pdf. (Accessed June 17, 
2009).
    \3\ http://www.readynation.org/uploads//
20130919_ReadyNationVitalLinksLowResEndnotes
.pdf, Schweinhart, L.J., Montie, J., Xiang, Z., Barnett, W.S., 
Belfield, C.R., & Nores, M. (2005). Lifetime Effects: The High/Scope 
Perry Preschool Study Through Age 40. Ypsilanti, MI: High/Scope Press. 
And Reynolds, A.J., Temple, J.A., Robertson, D.L., & Mann, E.A. (2002). 
Age 21 Cost-Benefit Analysis of the Title I Chicago Child-Parent 
Centers. Madison, WI: Institute for Research on Poverty. And FPG Child 
Development Center. (1999). Early Learning, Later Success: The 
Abecedarian Study. Chapel Hill, NC: University of North Carolina.
---------------------------------------------------------------------------
The Quality of Early Childhood Facilities Matters
    While many factors contribute to program quality, the physical 
environment is an essential feature that is often overlooked. The link 
between the quality of buildings and the quality of programs tends to 
be only vaguely understood and largely undocumented among child care 
providers. Despite this inclination, evidence about the connection 
between space and effectiveness has been found even when physical space 
is not the focal point of the research undertaken. A study conducted at 
the School for Young Children (SYC), a distinguished preschool program 
housed at St. Joseph College in West Hartford, CT, provides a 
compelling example.\4\
---------------------------------------------------------------------------
    \4\ Tony Proscio, Carl Sussman & Amy Gillman, Authors, Child Care 
Facilities: Quality by Design, (2004). http://www.lisc.org/content/
publications/detail/815.
---------------------------------------------------------------------------
    Every State has a minimum adult-child ratio for licensed centers, 
in large part because attention from nurturing adults is a prime 
indicator of quality in child care programs. SYC is a highly regarded 
preschool program with a more than ample staffing ratio; the program is 
largely viewed as meeting if not exceeding minimum quality standards. 
Yet, when a research team set out to monitor enrolled children's 
contact with adults during free play time they found shocking results: 
Only 3 percent of the children's time was spent engaged in meaningful 
interactions with a teacher.
    While the SYC executive director was digesting the researchers' 
negative findings in order to develop a workable solution, her 
organization moved to new accommodations. A routine followup test in 
the new space immediately showed a strikingly higher result. Teacher-
child interactions increased to 22 percent. There had been no change in 
the management, staff, or program, only the physical space. The new 
space, which Bye had taken pains to design, was considerably roomier 
and there were bathrooms, telephones, storage space, and other 
logistical necessities in each classroom. Adults no longer had to leave 
the room to escort children to the bathroom, retrieve or store 
supplies, or take a phone call. Fewer distractions and interruptions 
for adults naturally meant more time for children.
    Both children and staff benefited from the new space configuration. 
The more generous square footage allowed staff to configure each 
classroom into well-defined areas for different activities. Children 
were no longer crowded together into inadequate space and distracted by 
one another, so they ran into conflicts less often, and had better play 
experiences--making their interactions with adults and other children 
more constructive. Teachers were able to use their time in a more 
effective and rewarding way, resulting in higher morale and lower staff 
turnover. Overall, the effect of the new space on the content of the 
program was considerable and measurable--even when not a single change 
had been made in the program itself.
    Space matters: a facility's layout, size, materials and design 
features can improve program quality and contribute positively to child 
development while a poorly adapted and overcrowded environment 
undermines it.\5\ Bathrooms adjacent to classrooms, accessible cubbies, 
and child-sized sinks, counters, furnishings and fixtures increase 
children's autonomy and competence while decreasing the demands on 
teachers. Early learning centers with ample classrooms divided into 
well-configured activity areas support uninterrupted self-directed pay 
and exploration. The physical configuration of early care and education 
spaces directly affect adult/child interaction and influence how 
children grow and learn.
---------------------------------------------------------------------------
    \5\ http://www.lisc.org/docs/publications/
2007_nieer_cick_facilities_brief.pdf.
---------------------------------------------------------------------------
    The National Association for the Education of Young Children 
(NAEYC) acknowledges the importance of a quality environment in the 
following statement:

          ``The physical environment sets the stage and creates the 
        context for everything that happens in any setting--a 
        classroom, a play yard, a multipurpose room. A high-quality 
        environment welcomes children; engages children in a variety of 
        activities; provides space for individual, small-group, and 
        large-group activities; and generally supports the program's 
        philosophy and goals. Ultimately, the physical environment must 
        convey values and messages about who is welcomed, what is 
        important, and what the beliefs are about how children learn.'' 
        \6\
---------------------------------------------------------------------------
    \6\ http://www.naeyc.org/store/node/402.

What Facilities Experts Know
    Although physical spaces play an important role in promoting 
program quality and healthy development, it is rare to find high 
quality facilities designed to meet the unique needs of very young 
children, especially in low-income communities. Early childhood 
specialists have long maintained that the physical environments where 
learning takes place--and where young children spend the majority of 
their waking hours--significantly influence the quality of early care 
and education programs.
    Facilities experts and those proficient in financing the design, 
acquisition, construction, and improvement of early care and education 
spaces concur and largely agree that:

    <bullet> Well-designed facilities enhance child development and 
program quality;
    <bullet> An adequate supply of facilities is needed to support 
rapidly increasing preschool education programs;
    <bullet> The quality and location of the facilities can encourage 
enrollment and parent involvement;
    <bullet> Facilities can help promote a positive workplace in an 
industry challenged to retain experienced teachers;
    <bullet> Child care program income, especially in low-income 
communities, is typically not sufficient to cover the full cost of 
delivering quality early education services and doesn't allow for the 
added cost of constructing or improving appropriate facilities; and
    <bullet> Few centers have the experience or personnel to handle the 
complexities of real estate development tasks and require specialized 
technical assistance to address their facilities needs.
Early Childhood Facilities Financing Challenges
    Despite what is known about the importance of the spaces where 
learning takes place, there is no dedicated source of capital to help 
early care and education programs develop well-designed facilities 
suitable for our youngest learners. Programs serving low-income 
communities are highly dependent on public operating revenues that 
don't cover the cost of purchasing or renovating an appropriate 
facility. Without a consistent and effective financing system or 
capital subsidies, providers are left to pursue piecemeal approaches, 
cobbling together small donations and grants from a variety of sources. 
This prevents the early childhood field from addressing its physical 
facility needs and creating the kind of environments that support high 
quality programs.
    Historically, private financial institutions have not made 
significant infrastructure investments in early care and education--
particularly in economically distressed areas. Few mainstream banks, 
credit unions, and lending institutions are willing to finance early 
childhood facility projects, which tend to require relatively small, 
complex loans often characterized by uncertain future funding for 
repayment through government operating subsidies. The projects 
generally have little to no equity, and limited collateral value. In 
addition, private banks typically don't employ staff with specialized 
knowledge of the child care sector, consequently they are unable to 
understand the needs of child care or preschool centers and assist 
program directors lacking experience with real estate development and 
financing.
    Certified Community Development Financial Institutions (CDFI) 
working in market niches that are underserved by traditional financial 
entities are among the small number of organizations who have made 
investments in early childhood physical spaces. They have a proven 
track record in economically challenged regions and are experienced 
with providing a unique range of financial products and services that 
spur private investment in their target markets. Unfortunately, given 
the limited funding available to CDFIs to carry out their comprehensive 
mission, demand for early childhood facilities capital far outstrips 
supply.
                            recommendations
    As Congress considers ways to help children get an early start on 
the pathway to success, we urge you to:

    1. Recognize the critical role that early childhood facilities play 
in preparing young children for achievement in school and in life. 
Congress has the power to influence and support State and local early 
childhood priorities. We believe that conversations about early care 
and education should always acknowledge the significant impact of early 
childhood physical settings on early learning.
    2. Ensure that Federal policies adequately finance the acquisition, 
construction, and improvement of early care and education spaces. 
Currently, there is no dedicated source of funding for the acquisition, 
construction, and improvement of early care and education spaces. 
Additionally, the economic instability of the past 5 years has resulted 
in very little investment in early childhood physical infrastructure. 
Capital must be available in order for early care and education 
providers to create high quality physical spaces that promote early 
learning. We are encouraged by the national dialog on the importance of 
investments in early childhood development, and request that you create 
the supportive policy, regulatory, and funding environment that is 
needed to enable the early care and education field to meet its 
physical capital needs.
                               conclusion
    As investments are made to increase access to preschool and child 
care, attention must be paid to the physical environment where many 
young children spend the majority of their waking hours. Without 
support for facilities, programs will locate in the least expensive and 
most readily available spaces--makeshift, donated, or surplus space 
such as basements and storefronts or outdated classrooms for older 
students that haven't been adapted for our youngest children and fall 
far short of standards to support high quality programs.
    We look forward to continuing conversations with you and your 
staff. Our organization serves on the executive committee of the 
National Children's Facilities Network (NCFN), a coalition of like-
minded nonprofit financial and technical assistance intermediaries 
involved in planning, developing, and financing facilities for low-
income child care and early education programs. Both LISC and NCFN 
would welcome an opportunity to serve as a resource. If you would like 
additional information about our work, please contact Amy Gillman, 
senior program director at (212) 455-9840, or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e9888e808585848887a985809a8ac7869b8e">[email&#160;protected]</a>, or 
Nicole Barcliff, senior policy officer at (202) 739-9296 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c626e6d7e6f60656a6a4c60657f6f22637e6b22">[email&#160;protected]</a>
    Thank you again for your leadership.
     Prepared Statement of Matthew E. Melmed, Executive Director, 
                             Zero To Three
    Mr. Chairman, Ranking Member Alexander, and members of the 
committee, thank you for holding this hearing on an issue that will 
help determine the future competitiveness of our country: the need to 
invest in early childhood education and care in America. As the 
committee considers the Federal role in early learning programs that 
help lay the foundation for success, I urge you to remember that this 
foundation has its beginnings in the first days, weeks, and years of 
life. Babies are born learning as their brain development proceeds at 
an unparalleled pace. The foundational brain architecture on which all 
learning that follows will rest, is shaped and molded by the quality of 
the experiences and relationships young children have in the first 3 
years of life. Therefore, if I have one message for the committee 
members as you consider the direction of early childhood education, it 
is ``Don't forget the babies!'' Learning happens from the start, and so 
should our investments.
    ZERO TO THREE's mission is to promote the health and development of 
all infants and toddlers. The organization was founded 35 years ago by 
an interdisciplinary group of researchers and practitioners who came 
together to share and enhance their work with the latest research on 
how young children learn and how brains are built starting at birth. It 
is this research and how it can be applied in policies related to early 
learning that we draw on for our comments today.
                        summary of major points
    <bullet> Early brain development during the infant-toddler years 
lays the foundation on which will rest all later architecture for 
higher-level functioning. Children who face adverse experiences in 
infancy and toddlerhood can fall behind before their second birthday--
long before they reach pre-Kindergarten age.
    <bullet> Research has shown proven strategies to intervene early 
and promote positive development, but quality services for infants, 
toddlers, and their families are lacking.
    <bullet> Early learning policy should be built as brains are--from 
the bottom up, starting with outreach to pregnant women and continuing 
with comprehensive services that reach the youngest children and their 
families where they are, in their homes or in child care settings.
    <bullet> More resources are needed for early care and learning 
programs and especially for those focused on the youngest children: the 
Federal Government plays the predominant role in funding infant-toddler 
services, but devotes only about $4 billion a year to their early care 
and learning even though almost half of all children under three live 
in low-income families.
   the infant-toddler years lay the foundation for all later learning
    Babies are born with billions of neurons. These neurons start to 
form connections, or synapses, at a rate of 700 every second to 
organize the brain for important functions.\1\ Synaptic formation for 
critical functions peaks early, in the first year of life for hearing, 
sight, and language and soon after for cognitive and social-emotional 
functioning. This doesn't mean we don't continue learning and creating 
connections in our brain--of course we do. But our earliest 
``learning'' comes from the experiences that reinforce--or fail to 
reinforce--the first important connections within the brain, thus 
determining if the foundation for later higher-level functioning will 
be strong or fragile.
    Babies learn within the context of their earliest relationships 
with trusted adults--usually with parents, but also with other close 
caregivers. As babies, the way we are held, talked to and cared for 
teaches us about who we are and how we are valued. This profoundly 
shapes who we will become. Nurturing relationships foster strong 
social-emotional development, which must go hand in hand with cognitive 
and physical development. Emotions drive early learning. Social-
emotional characteristics such as persistence, the ability to forge 
relationships, cope with frustration, feel pride in accomplishments, 
and cooperate with peers are the skills that will carry children to 
success in school and all through life.
    This period of marvelous development is also one of great 
vulnerability. Babies who do not receive the positive experiences they 
need for strong development in the first few years, who do not have the 
protective relationships that can buffer them from adverse experiences, 
can fall behind quickly. These adverse experiences--such as poverty, 
maltreatment, maternal depression, substance abuse, or environmental 
deprivation such as lack of heat or housing instability--can create 
persistent stress that, if not alleviated with positive early supports 
for babies and parents, becomes toxic to the developing brain.
    Disparities among different socio-economic groups in areas such as 
language appear as early as the first year of life.\2\ By age two, 
disparities across a wide range of cognitive and social-emotional 
indicators are clear.\3\ Infants and toddlers who experience early 
adversity are more likely to experience developmental delays and 
disabilities.\4\ Unquestionably, young children fall behind long before 
they reach the age of formal pre-Kindergarten programs.
  intervening early promotes positive development but quality infant-
                      toddler services are lacking
    The good news is that program evaluation research shows effective 
strategies to improve the lives of at-risk infants and toddlers and 
their families. Proven approaches to supporting early development, 
several beginning in the important prenatal period, can help buffer 
toxic stress, promote stronger social-emotional foundations, and 
improve cognitive and language development, as well as promote family 
self-sufficiency. However, such services are in short supply.
    <bullet> Early Head Start has been found through rigorous 
evaluation to have positive impacts on children's cognitive and 
language development, approaches to learning, and reducing behavior 
problems. Parents were more involved with their children's 
development--and remained engaged after their children left the 
program--provided more support for learning, and had reduced risk of 
depression.\5\ Less than 4 percent of eligible infants and toddlers are 
able to participate in Early Head Start.
    <bullet> Evidence-Based Home Visiting, depending on the model used, 
has positive impacts in one or more domains, including child health, 
child development and school readiness, maternal health, reductions in 
child maltreatment, improved family economic self-sufficiency, and 
positive parenting practices.\6\ Yet, in 2011/2012, nationwide only 
13.6 percent of pregnant women and parents with infants and toddlers 
received a home visit, although individual States ranged from 3.7 
percent in Texas to 30.6 percent in Minnesota.\7\ The Maternal, Infant, 
and Early Childhood Home Visiting (MIECHV) program is helping States 
reach more at-risk families with young children with evidence-based 
services, but will expire at the end of this year if not reauthorized 
and funded.
    <bullet> High-Quality Child Care has been shown to produce positive 
effects in the areas of early learning, cognitive and language 
development, and school achievement, as well as positive associations 
with early social and emotional development.\8\ Positive effects can 
endure into the adult years, particularly for children from the poorest 
home environments.\9\ Children under age 3 represent 28 percent of 
children served through the Child Care and Development Block Grant. 
Nationally, half of all requests for child care referrals are for 
infant-toddler care,\10\ but CCDBG serves only 1 in 6 eligible 
children. State reimbursement rates often are too low to ensure parents 
can access quality services, even if they can find them.
    The quality of child care for infants and toddlers is a particular 
concern. For 6 million infants and toddlers, child care is an important 
environment influencing their early development. We urge the committee 
not to dismiss this setting as irrelevant to early learning and 
education simply because it also serves an important function for 
adults by enabling parents to work. Babies' brains are shaped by the 
experiences and relationships that come their way. They do not know 
what adults label these experiences. It is up to us to ensure they are 
of high quality.
    National and State studies consistently raise concerns about the 
quality of care infants and toddlers are receiving. National studies 
have found that the majority of child care for infants and toddlers is 
of fair to mediocre quality and only a small fraction is of high 
quality. In fact, the most recent national study found of infants in 
care, 75 percent of these were in low or mediocre quality care.\11\ For 
infants in child care centers, quality was higher for those living in 
poverty than for children living in near poverty--between 100 and 200 
percent of the Federal poverty level.\12\ One study found care of good/
developmentally appropriate quality in just over 8 percent of infant/
toddler classrooms, as compared to nearly 24 percent of preschool 
classrooms. Medium/mediocre quality care was found in 51 percent of 
infant/toddler classrooms and poor quality in over 40 percent. In 
preschool classrooms, medium/mediocre care was found in 66 percent and 
poor quality in 10 percent.\13\ State studies bear out these findings. 
A study of child care for Georgia's infants and toddlers found that 
two-thirds of infant-toddler classrooms in child care centers \14\ and 
75 percent of family child care providers \15\ provided care of poor 
quality. Georgia has a robust pre-Kindergarten program, but babies and 
toddlers who do not receive the strong developmental support they need 
from the settings they are in early in life will truly find themselves 
playing catch-up at age 3 or 4.
    Paid parental leave is the first step in supporting positive 
development. I also want to highlight for the committee another 
important factor for getting children off to a good start in life: time 
with their parents following birth or adoption. It takes several months 
of focused attention to become a responsive caregiver to a young child, 
establishing a pattern that will influence the child's long-term 
cognitive, social, and emotional development.\16\ Parental time off 
facilitates the early detection of potential developmental delays at a 
time when problems can be most effectively addressed and interventions 
identified to minimize them.\17\ Yet most employed women and men do not 
have access to paid parental leave that could help them afford to take 
the time off needed to build that nurturing bond with their children.
             build early learning policy from the bottom up
    Early learning policy should be built as brains are, from the 
bottom up. This means creating a continuum of services starting even 
before birth and reaching the most vulnerable children and families as 
early as possible. Approaching policy in this way, rather than starting 
in the middle and working down as resources and inclination permit, 
creates an unparalleled opportunity for true prevention policies that 
promote positive, healthy development that will resonate throughout a 
child's life, increasing the individual's well-being and future 
contributions to society.
    In systems terms, this translates into a continuum of quality 
services starting at birth or during the prenatal period and continuing 
through preschool--but it must start at the earliest possible 
opportunity. Most people can envision a preschool setting and think 
about how to expand access for more children. For infants and toddlers 
we must ask a different question: How can we reach at-risk young 
children wherever they are and support their parents and other 
caregivers in giving them the very best developmental start? Thus the 
early childhood system is not just a linear continuum. It is also a 
broad web of services that must reach children and families at home, in 
child care, and for very low-income children, in comprehensive settings 
such as Early Head Start.
    An often overlooked component of such a system is ensuring access 
to early intervention services for infants and toddlers with 
developmental delays or disabilities (funded at the Federal level 
through Part C of the Individuals with Disabilities Education Act, or 
IDEA). These services must be viewed as an integral part of any early 
care and learning system with the goal of giving all children the 
opportunity to reach their potential. Intervening early can help 
promote the success of all children by addressing developmental delays 
and disabilities before they progress too far, reducing or eliminating 
the need for costly special education services later on. Early 
identification and intervention can improve cognitive and social 
skills, lead to higher achievement and greater independence, and 
promote family competence and well-being.\18\ Viewing early 
intervention in this manner is especially important when discussions 
about pre-Kindergarten programs look to reducing the need for special 
education services as an outcome. Achieving this goal is unlikely if 
children are not reached early, when their delays or disabilities are 
first detectable and more easily addressed. Moreover, these discussions 
about pre-Kindergarten and other early learning programs usually focus 
on reaching the most at-risk families, the same families in which 
children have a higher incidence of developmental delays and 
disabilities.
    The work of Nobel Laureate in Economics James Heckman bears out the 
wisdom of a policy approach that starts with the youngest children. In 
looking at the rates of return to human capital investment at different 
ages, he found the greatest return in programs targeted in the earliest 
years.\19\ His economic model also shows that children who have 
received optimal support and services during the birth to 3 years can 
expect greater benefits from preschool interventions than children who 
have not had such advantages.\20\
    Professor Heckman is not alone. In 2012, in its report Unfinished 
Business: Continued Investment in Child Care and Early Education is 
Critical to Business and America's Future, the Committee for Economic 
Development updated its recommendations on early childhood education to 
``recommend meeting the comprehensive early learning and development 
needs of children as early as possible in their lives, especially for 
those whose healthy development is most at risk.'' They noted that in 
the past, ``CED has called for Federal and State funding sufficient to 
ensure access to high-quality preschool for all. We now amend that 
recommendation to include the range of high-quality early childhood 
programs and services that have demonstrated effectiveness for children 
from birth to age 5.'' [emphasis added] Citing the strategies of 
reaching pregnant women and parents of infants and toddlers through 
programs such as home visiting, developmental screening, high quality 
child care, and expansion of Early Head Start, the report urged that 
``Business leaders should tell policymakers those strategies are just 
as important to them as preschool.'' \21\
    invest greater federal resources, provide leadership on infants 
                              and toddlers
    We believe the resources now invested in the early care and 
learning of our Nation's children are not adequate to provide the broad 
access and high quality needed if this vital period of learning is to 
create the strong foundation needed for later education to be most 
beneficial. The most critical point for infants and toddlers is to 
understand both the overwhelming importance and the relative scarcity 
of Federal funding for early care and learning programs for this age 
group. The Urban Institute estimates that in 2008 the Federal 
Government accounted for 78 percent of all public funding for this 
category of spending on children under age 3 ($3 billion Federal 
compared with $.9 billion State funding). For children ages 3 to 5, 
Federal funds accounted for only 22 percent ($13.4 billion Federal 
compared with $47.3 billion State).\22\ Clearly, States are not 
investing in the youngest children, and Federal support is at a minimal 
level, especially when we consider that almost half of all infants and 
toddlers live below 200 percent of the Federal poverty level.\23\ In 
2011, less than $4 billion in Federal funds were spent on the early 
care and learning of our babies and toddlers.\24\ We believe the 
Federal Government must take the lead to ensure access to high quality 
services and provide incentives for States to invest as well.
    We understand there is concern about the GAO findings on Federal 
programs that address child care and early learning in some way. We 
believe only a handful of these programs provide substantial support 
for early care and education, and they were developed to meet different 
purposes or function within different contexts that allow for 
flexibility at the State or local level. Resources can always be used 
more efficiently. But that does not mean that an underfunded system--
one in which the Federal Government spends roughly $330 per capita on 
early learning for infants and toddlers when almost 6 million live in 
low-income families--can be expected to give the youngest children the 
strong start they need to avoid or minimize learning gaps. Such a 
system makes their efforts to fulfill their potential a greater 
struggle than any child should have to undertake and places our future 
competitiveness as a nation at risk.
    ZERO TO THREE strongly supports the Strong Start for America's 
Children Act with its vision for a high-quality birth-to-five system. 
We believe the funding for such a system must be equitably distributed 
across the continuum so that infants and toddlers do not spend 
important years developmentally waiting for access to quality supports 
for their earliest learning. Therefore, we particularly appreciate the 
recognition of the needs of infants and toddlers in the robust funding 
the bill proposes for partnerships between Early Head Start and child 
care. The infant-toddler set-aside option in the pre-Kindergarten 
portion of the bill also would give States the incentive to build more 
high-quality child care programs needed to give infants and toddlers 
the strong developmental start they need to take full advantage of 
their preschool experience. As the bill moves forward, we urge the 
committee to require States to use these funds for the youngest 
children.
    Congress should invest in our Nation's young children and work with 
States to build services and systems that ensure every child has the 
opportunity to reach his or her potential and promote positive 
development, not playing catch-up:

    <bullet> Establish a national paid family leave program so that 
more parents could afford to spend the first weeks and months of their 
babies lives establishing the all-important bonds that are the first 
steps in the social and emotional development that is the bedrock of 
putting children on the road to school readiness.
    <bullet> Expand Early Head Start and using its proven approach as a 
platform--through EHS-Child Care partnerships as well as State 
establishment of high quality child care programs--to raise the quality 
of early care and learning services and give many more infants and 
toddlers the chance for a strong start instead of falling behind.
    <bullet> Ensure access to early intervention for infants and 
toddlers with developmental delays or disabilities by adequately 
funding Part C of IDEA.
    <bullet> Invest in high quality child care and emphasizing the 
development of a quality infrastructure--high standards and a well-
trained infant-toddler workforce--so that the youngest children have 
access to the best care from the start, long before they enter pre-
Kindergarten.
    <bullet> Ensure access for 3- and 4-year-olds to high-quality pre-
Kindergarten services, giving families the choice of diverse settings 
to meet their needs.

    Thank you for the opportunity to provide ZERO TO THREE's insights 
to the committee. We stand ready to work with you on policies that put 
our babies and toddlers on the path to school readiness and successful 
lives.*
---------------------------------------------------------------------------
    * For more information on ZERO TO THREE's recommendations for 
policies for children under age 3, see Putting Infants and Toddlers on 
the Path to School Readiness: A Policy Agenda for the Administration 
and the 113th Congress. http://www.zerotothree.org/public-policy/
Federal-policy/2013-Federal-policy-agenda.pdf.
---------------------------------------------------------------------------
                               End Notes
    1. Center on the Developing Child, ``Child Development Fact 
Sheet.'' Harvard University. http://developingchild.harvard.edu/.
    2. Betty Hart and Todd R. Risley, Meaningful Differences in the 
Everyday Experience of Young American Children. Baltimore, MD: Paul H. 
Brookes, 1995.
    3. National Center for Education Statistics, Table 120: 
``Percentage of Children Demonstrating Specific Cognitive Skills, Motor 
Skills, and Secure Emotional Attachment to Parents at About 2 Years of 
Age, by Selected Characteristics: 2003-04.'' In Digest of Education 
Statistics, Institute of Education Sciences, January 25, 2013, http://
nces.ed.gov/programs/digest/d11/tables/dt11_120.asp.
    4. T. Halle, N. Forry, E. Hair, et al., Disparities in Early 
Learning and Development: Lessons From the Early Childhood Longitudinal 
Study--Birth Cohort (ECLS-B). Washington, DC: Child Trends, 2009.
    5. U.S. Department of Health and Human Services, Administration for 
Children and Families, Making a Difference in the Lives of Infants and 
Toddlers and Their Families: The Impacts of Early Head Start. 
Washington, DC: U.S. Department of Health and Human Services, 2002.
    6. Elizabeth DiLauro and Lisa Shreiber, Reaching Families Where 
They Live: Supporting Parents and Child Development Through Home 
Visiting. Washington, DC: ZERO TO THREE, 2012.
    7. Department of Health and Human Services, Data Resource Center 
for Child & Adolescent Health. The National Survey of Children's 
Health, 2011/2012. http://childhealthdata.org/browse/survey/
results?q=2503&r=1.
    8. J. Ronald Lally, Abbey Griffin, Emily Fenichel, et al., Caring 
for Infants and Toddlers in Groups: Developmentally Appropriate 
Practice. Washington, DC: ZERO TO THREE, 2003.
    9. National Research Council and Institute of Medicine, From 
Neurons to Neighborhoods: The Science of Early Childhood Development. 
Jack Shonkoff and Deborah A. Phillips, eds. Washington, DC: National 
Academy Press, 2000.
    10. Child Care Aware of America. Child Care in America: 2013 State 
Fact Sheets. Alexandria, VA: Child Care Aware of America. Accessed at 
http://www.naccrra
.org/sites/default/files/default_site_pages/2013/
2013_state_fact_sheets_
national_summary_082013.pdf.
    11. K. Flanagan and J. West. (2004). Children Born in 2001: First 
Results From the Base Year of the Early Childhood Longitudinal Study, 
Birth Cohort (ECLS-B) (NCES 2005-036). U.S. Department of Education, 
Washington, DC: National Center for Education Statistics.
    12. NICHD Early Child Care Research Network. (1997). Poverty and 
patterns of child care. In G.J. Duncan & J. Brooks-Gunn (Eds.), 
Consequences of growing up poor (PP. 100-31). New York: Russell Sage 
Foundation. www.childcareresearch.org/location/ccrca929.
    13. S. Helburn, M.L. Culkin, J. Morris, N. Mocan, C. Howes, L. 
Phillipsen, D. Bryant, R. Clifford, D. Cryer, E. Peisner-Feinberg, M. 
Burchinal, S.L. Kagan, and J. Rustici. Cost, quality, and child 
outcomes in child care centers: Public report. Denver: University of 
Colorado, Department of Economics. 1995. www.childcare
research.org/location/ccrca1459.
    14. K.L. Maxwell, D.M. Early, D. Bryant, S. Kraus, K. Hume, and G. 
Crawford. Georgia study of early care and education: Child care center 
findings--Executive summary. Chapel Hill, NC: The University of North 
Carolina at Chapel Hill, FPG Child Development Institute, 2009.
    15. K.L. Maxwell, D.M. Early, D. Bryant, S. Kraus, and K. Hume. 
Georgia study of early care and education: Family child care findings--
Executive summary. Chapel Hill: The University of North Carolina at 
Chapel Hill, FPG Child Development Institute, 2010.
    16. Edward Zigler, Susan Muenchow, and Christopher J. Ruhm, Time 
Off With Baby: The Case for Paid Care Leave. Washington, DC: ZERO TO 
THREE, 2012.
    17. Ibid.
    18. National Research Council and Institute of Medicine. From 
Neurons to Neighborhoods.
    19. James Heckman. ``Investing in Disadvantaged Young Children is 
Good Economics and Good Public Policy.'' Statement Presented to the 
Joint Economic Committee of the U.S. Congress. 110th Congress, First 
Session, June 27, 2007.
    20. James Heckman. ``The Case for Investing in Disadvantaged 
Children.'' In First Focus. Big Ideas for Children: Investing in Our 
Nation's Future. Washington, DC: First Focus. 2008.
    21. Committee for Economic Development. Unfinished Business: 
Continued Investment in Child Care and Early Education is Critical to 
Business and America's Future. Washington, DC: Committee for Economic 
Development. 2012, p. 26.
    22. Sara Edelstein, Julia Isaacs, Heather Hahn, and Katherine 
Toran. How Do Public Investments in Children Vary with Age? Washington, 
DC: Urban Institute. 2012.
    23. ZERO TO THREE. National Baby Facts: Infants, Toddlers, and 
Their Families in the United States. Washington, DC: ZERO TO THREE. 
http://www.zerotothree
.org/public-policy/pdf/national-baby-facts.pdf.
    24. Edelstein, et al. How Do Public Investments in Children Vary 
with Age?
     Response of Hirokazu Yoshikawa to Questions of Senator Murray 
                           and Senator Casey
                             senator murray
    Question 1. We know from research on early brain research and child 
development that development and learning start from birth, and even 
before, and that babies and toddlers start falling behind well before 
they reach preschool. The National Early Childhood Longitudinal Study 
shows that disparities in child outcomes are evident at 9 months and 
grow larger by 24 months of age--well before children enter preschool. 
These disparities exist across cognitive, social, behavioral, and 
health outcomes. Yet, people are often puzzled about how public 
programs can address the early development and learning of infants and 
toddlers.
    How do we raise the importance of reaching babies and toddlers and 
preventing these gaps from forming, and what should our strategy be to 
reach them wherever they are?
    Answer 1. Evidence-based interventions for families with children 
from birth to preschool age can be implemented beginning at birth in 
systems that engage a large proportion of all newborns, such as 
primary-care systems and well-child visits. Some models exist for how 
to support families in these systems. In addition, efforts must be 
strengthened to provide the kind of intensive, onsite professional 
development that has proven so successful in preschool education to 
caregivers in different forms of out-of-home child care, birth to age 
5.

    Question 2. How has the research demonstrated that high-quality, 
literacy-rich environments beginning in early childhood is one of the 
most important factors in determining school readiness and success, 
high school graduation, college access and success and workforce 
readiness?
    Answer 2. In the first years of life, a combination of 
responsiveness in parenting and caregiving, cognitively stimulating 
activities, and language-rich conversations that elicit vocalizations 
and then language from the growing infant and toddler have powerful 
effects in determining positive future outcomes. Responsiveness--the 
``serve and return'' interaction in which infants' gestures, affect and 
vocalization are responded to with nurturing communication from adults, 
encouraging further communication from the child--is important 
throughout, but particularly in the first year. As children's 
capacities grow in toddlerhood and early childhood, a variety of 
cognitively stimulating activities such as interactive play, songs, 
interactive reading with picture books and then story books, and play 
with toys and materials are important in promoting early learning.
                             senator casey
    Question. In both your written remarks and your testimony during 
the hearing, you referenced emerging evidence that coaching or 
mentoring teachers on how to improve the quality of their teaching and 
curricula can be extremely beneficial for students. In the Strong Start 
Act, in my own legislation the Prepare All Kids Act, and in other 
programs like Head Start and the CCDBG reauthorization we are working 
on, we are starting to seriously address teacher quality issues: how we 
can train and retain teachers with the knowledge of and expertise in 
working with young children? Is the coaching/mentoring method you 
discussed in your testimony replicable on a large scale?
    Answer. The existing rigorous evaluations of coaching and mentoring 
in preschool classrooms suggest the following: When coaches are skilled 
not only in supporting evidence-based, outcome-focused curricula, but 
also in general good teaching practice and classroom management, both 
teachers and children can benefit. This approach has been replicated at 
relatively large scale across entire cities (such as Boston). In 
addition, in-classroom coaching has been implemented at wide scale at 
the State level (e.g., New Jersey).
Response by John White to Questions of Senator Murray and Senator Casey
                             senator murray
    Question 1. How does infant and toddler education fit into a 
continuum of birth to five services and how can their needs best be 
met?
    Answer 1. As I discussed, Louisiana is currently implementing a 
comprehensive ``birth-to-five system'' in which providers across all 
settings work collaboratively to ensure high-quality programs through: 
support for teachers, measuring and recognizing progress, and 
establishing unified expectations for programs serving all children 
including the State's youngest citizens. All elements of this system 
reflect a ``birth-to-five'' scope, including standards, training, job-
embedded support for teachers and common enrollment. Ultimately 
Louisiana will develop a new accountability or ratings system for all 
publicly funded programs that will also cover the full ``birth to 
five'' scope.
    As part of implementation, local community pilots in the field will 
develop unique, more nuanced approaches to support the teachers and 
families of younger children. The State plans to learn from and support 
the scaling of these practices.
    Much of the capacity of the ``birth-to-five'' system relies on 
developing a corps of early childhood teachers who are skilled at 
teaching infants and toddlers. To that end the State is developing a 
Birth to Kindergarten baccalaureate certificate/pathway. Currently the 
State's certification includes 3-5 Early Interventionist and PreK-3 
levels. Additional work is being done to design an Early Childhood 
Professional Ancillary Certificate that would serve as a mechanism for 
improved teacher credentialing primarily for those working in child 
care which typically serves the State's largest populations of infants 
and toddlers.

    Question 2. In the allocation of public resources, how do we best 
coordinate and integrate initiatives ranging from prenatal care to home 
visiting to infant and toddler care to preschool? What is the best way 
to break down the silos that impede cooperation, coordination, and 
resource-sharing?
    Answer 2. Until the passage of Act 3, State agencies and programs 
were independent with varying goals, priorities and operations. This is 
changing, and it is anticipated that this legislation will be the 
catalyst for building long-term shared agendas and policy priorities. 
As Community Network Pilots expand and move forward, the State will 
have more information on how to build common agendas and policies both 
at the State and local levels to ensure that infants and toddlers are 
not forgotten in a system where more resources, support and people are 
dedicated to serving 3- and 4-year-olds.
    Inherent in this work is the development of a solid leadership 
structure within each Community Network Pilot. Each Pilot establishes a 
Leadership Team which is representative of all types of programs. The 
State is working to support the development of effective Leadership 
Teams where all partners have an equal share in the decisionmaking 
responsibilities related to coordination of services and sharing of 
resources.

    Question 3. In the Fiscal Year 2010 Consolidated Appropriations 
Act, Congress authorized the Striving Readers Comprehensive Literacy 
Program. This Act provided $200 million for a comprehensive literacy 
development and education program to advance literacy skills for 
students from birth through grade 12. Georgia, Louisiana, Montana, 
Nevada, Pennsylvania, and Texas all received grants through the 
Department of Education for the Striving Readers Comprehensive Literacy 
program.
    As one of six recipients of the funds, how is Louisiana using this 
funding to improve the quality of instruction for our youngest learners 
in early childhood education settings?
    Answer 3. Comprehensive early literacy services that begin at birth 
and combine parent literacy, parent education, and child-focused 
instruction;
    Home visits to teach and encourage parents, relatives, and other 
adults to talk with, read to, and work to build children's early 
literacy skills through one-on-one reading and instruction;
    Literacy coaches/teacher leaders who provide demonstration lessons 
and co-teaching to support teacher development of early learning/
literacy standards and instructional concepts;
    Early Childhood LETRS training (see: http://www.soprislearning.com/
professional-development/letrs-for-early-childhood-educators);
    Preschool and K-3 reading curricula aligned to standards, including 
the use of computer-assisted tutorials to meet the needs of individual 
children;
    Book distribution/reading programs linked to elementary schools, 
community centers, doctors' offices and health clinics where you find 
parents and children together;
    Summer reading bus in ``high-need'' communities;
    Imagination Library through United Way; and
    Transitional activities for children and parents to visit 
preschool, kindergarten, and first grade sites where children will 
attend the following year.

    Question 4. How can we best incorporate families and community 
partners in early literacy activities?
    Answer 4. Survey educators and families to determine needs, 
interests, and ideas about partnering;
    Develop and pass family friendly policies and laws (i.e., leaves of 
absence for parent/caregivers to participate in schools or education-
related activities);
    Provide professional development on family and community engagement 
for faculties;
    Offer training for parents and community stakeholders on effective 
communications and partnering skills;
    Provide better information on preschool/school policies and 
procedures;
    Use effective communication tools that address various family 
structures and are translated into languages that parents/families 
understand;
    Hire and train school community liaisons who know the community 
history, language and cultural background to contact parents and 
coordinate activities; and
    Collaborate with higher education institutions to infuse parent, 
family, and community involvement into prep programs.
                             senator casey
    Question 1. As you described, Louisiana has gone to great lengths 
to improve coordination between early learning programs in the State. 
Has Louisiana taken any steps to promote greater alignment between 
these same early learning providers and the K-12 system?
    Answer 1. Yes. We believe strongly in Louisiana that aligning a 
birth to 12 system is fundamental to achieving the outcomes for 
students we want.
    Historically, we are able to demonstrate through our State-funded 
PreK program (LA 4) that students benefit at least through the 8th 
grade from high-quality PreK. This continues to demonstrate to K-12 
superintendents the value of early childhood.
    Through the early childhood network pilots, superintendents have 
been a key participant as well as other traditional district staff. The 
work connects child care providers, head start operators, and PreK 
teachers, staff, and principles together under one vision. This is 
allowing the K-12 system, particularly in elementary grades, to better 
align its work and planning from PreK up through higher grades.
    Through the State department's field support teams, we work to be 
consistent in our support and messaging to districts. The same staff 
that support K-12 initiatives are also supporting the early childhood 
work.
    The early childhood pilots also build on the work of SRCL grants, 
in those districts that are SRCL participants, by strengthening the 
relationships with early childhood providers and raising the bar on 
expectations for learning and development outcomes for children at all 
ages.
     Response of Charlotte Brantley to Questions of Senator Murray
    Question 1. In 2012, in its report Unfinished Business: Continued 
Investment in Child Care and Early Education is Critical to Business 
and America's Future, the Committee for Economic Development updated 
its recommendations on early childhood education to ``recommend meeting 
the comprehensive early learning and development needs of children as 
early as possible in their lives, especially for those whose healthy 
development is most at risk.'' They noted that in the past,

          ``CED has called for Federal and State funding sufficient to 
        ensure access to high-quality preschool for all. We now amend 
        that recommendation to include the range of high-quality early 
        childhood programs and services that have demonstrated 
        effectiveness for children from birth to age five.''

    They went on to exhort their constituency by citing reaching 
pregnant women and parents of infants and toddlers through programs 
such as home visiting, developmental screening, high quality child 
care, and expansion of Early Head Start, saying ``Business leaders 
should tell policymakers those strategies are just as important to them 
as preschool.''
    So the question is how can we give these strategies the importance 
they deserve and avoid making infants and toddlers an afterthought?
    Answer 1. Decades of scientific research has demonstrated the 
critical importance of the first 3 years of life in the development of 
the human brain. As stated by Zero to Three,

          ``A newborn's brain is about 25 percent of its approximate 
        adult weight. But by age 3, it has grown dramatically by 
        producing billions of cells and hundreds of trillions of 
        connections, or synapses, between these cells.''

    It is imperative that we better educate policymakers, funders, 
business leaders, parents, school districts, and early childhood 
providers of the necessity of offering a good, healthy start to all our 
children, beginning during pregnancy whenever possible. At a minimum, 
we must ensure that all our children have a medical home starting at 
birth, and that their parents have access to quality information and 
supports as they nurture their infants and toddlers. For those with 
deeper needs such as children having developmental delays, or parents 
who need child care to support their employment, we must ensure 
sufficient funding to support high quality home visiting and center-
based options, with competent and well-compensated staff.

    Question 2. Studies of the quality of child care have consistently 
found infant-toddler care overall to be of poor to mediocre quality. 
Yet, 6 million children under age 3 spend some of their day in 
childcare and it thus becomes an important setting for shaping their 
earliest development. We often think of literacy as beginning when 
children start to learn to read. But it actually starts in the early 
communications stages, as infants. Studies show that gaps in language 
abilities among children of different socio-economic status start to 
emerge before the first birthday and widen so that by age three, the 
gap is pronounced.
    How can we better incorporate early language and literacy into 
early care and learning programs starting at birth?
    Answer 2. Substantive training in the foundations of early language 
and literacy development is essential for all staff working in infant/
toddler child care and other early care/education settings. However, 
traditionally our focus has been on preschool development and beyond. 
We are finally beginning to recognize that the knowledge, skills and 
abilities of a successful infant/toddler teacher differ in many 
important ways from those required by a preschool or early elementary 
teacher. Specific training for these individuals, and a broadened base 
of knowledge in the field of how best to support our very youngest 
learners is becoming more available in the mainstream, but concerted 
effort is still needed in many parts of our early childhood system. 
This area of knowledge and competency for teachers must be incorporated 
into the content of courses required by State licensing authorities for 
lead teachers in infant/toddler classrooms. In addition, as more school 
districts begin to think about serving children in this age range 
within their preschool programming, we have to incorporate this 
specific area of knowledge into teacher licensing.

    Question 3. The Maternal, Infant, and Early Childhood Home Visiting 
program was established in the Patient Protection and Affordable Care 
Act. This program facilitates collaboration and partnership at the 
Federal, State, and community levels to improve health and development 
outcomes for at-risk children through evidence-based home visiting 
programs.
    Can you describe the need for increased support for infants and 
toddlers? Specifically, what role do you see home visiting programs 
playing in child development? And what more do we need to be doing?
    Answer 3. Home visiting is especially important in reaching low-
income families whose very young children are not enrolled in Early 
Head Start or other high quality early childhood care and education 
programs. A well-trained home visitor, using evidence-based models, 
cannot only provide good information to a parent, but can also help 
relieve the isolation often faced by young low-income parents of 
infants and toddlers. In addition, a trusted home visitor can also play 
a strong role in encouraging the parents/caregivers to make their own 
plans for continuing their education and working toward the self-
sufficiency of their family. We must pay close attention to the 
particular competencies home visitors need to be most effective, and 
ensure these form the basis for training and for making hiring 
decisions. Many families in more isolated communities, where these 
services can be most beneficial, are very cautious about allowing 
people from outside their community into their homes. It is often 
essential to reach people from within such a community who are 
interested in becoming trained as home visitors.

    [Whereupon, at 12 p.m., the hearing was adjourned.]

                                  [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
